<html>
<title> - NASA'S FISCAL YEAR 2007 BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                        NASA'S FISCAL YEAR 2007
                            BUDGET PROPOSAL

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 16, 2006

                               __________

                           Serial No. 109-36

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                    U.S. GOVERNMENT PRINTING OFFICE
25-937                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         RUSS CARNAHAN, Missouri
W. TODD AKIN, Missouri               DANIEL LIPINSKI, Illinois
TIMOTHY V. JOHNSON, Illinois         SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   BRIAN BAIRD, Washington
TOM FEENEY, Florida                  JIM MATHESON, Utah
BOB INGLIS, South Carolina           JIM COSTA, California
DAVE G. REICHERT, Washington         AL GREEN, Texas
MICHAEL E. SODREL, Indiana           CHARLIE MELANCON, Louisiana
JOHN J.H. ``JOE'' SCHWARZ, Michigan  DENNIS MOORE, Kansas
MICHAEL T. MCCAUL, Texas             VACANCY
VACANCY
VACANCY


                            C O N T E N T S

                           February 16, 2006

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    11
    Written Statement............................................    12

Statement by Representative Bart Gordon, Minority Ranking Member, 
  Committee on Science, U.S. House of Representatives............    13
    Written Statement............................................    16

Statement by Representative Ken Calvert, Chairman, Subcommittee 
  on Space and Aeronautics, Committee on Science, U.S. House of 
  Representatives................................................    18
    Written Statement............................................    19

Statement by Representative Mark Udall, Minority Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    21
    Written Statement............................................    22

Prepared Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    23

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    23

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    24

Prepared Statement by Representative Michael M. Honda, Member, 
  Committee on Science, U.S. House of Representatives............    24

Prepared Statement by Representative Lincoln Davis, Member, 
  Committee on Science, U.S. House of Representatives............    25

                               Witnesses:

Dr. Michael D. Griffin, Administrator, National Aeronautics and 
  Space Administration; accompanied by the Hon. Shana Dale, 
  Deputy Administrator, National Aeronautics and Space 
  Administration
    Oral Statement...............................................    25
    Written Statement............................................    28

Discussion
  Accuracy of the CEV Cost Estimate..............................    36
  The Effects of CEV Costs on Other Programs.....................    37
  The ``Banking'' of CEV Funds...................................    37
  Slowing Down the Vision........................................    39
  NASA/DOD Cooperation...........................................    41
  Shuttle/CEV Gap................................................    42
  Aeronautics Cuts...............................................    43
  Science R&A Cuts...............................................    45
  Costs of a Human Mission to Mars...............................    46
  Prioritizing ``The Vision'' in the Budget......................    46
  COTS...........................................................    49
  Manned Space Flight vs. R&A....................................    50
  International Cooperation......................................    51
  ISS: Lessons Learned...........................................    52
  International Influence and ``Soft Power''.....................    53
  SOFIA..........................................................    55
  Hypersonics....................................................    57

             Appendix 1: Answers to Post-Hearing Questions

Dr. Michael D. Griffin, Administrator, National Aeronautics and 
  Space Administration...........................................    60

             Appendix 2: Additional Material for the Record

Statement by the Exploration Life & Medical Sciences Coalition...   104

Letter to Chairman Boehlert from Richard G. French, Chair, 
  Division of Planetary Sciences, American Astronomical Society, 
  dated February 15, 2006........................................   108

Statement by The Planetary Society...............................   109


                NASA'S FISCAL YEAR 2007 BUDGET PROPOSAL

                              ----------                              


                      THURSDAY, FEBRUARY 16, 2006

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:10 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood 
Boehlert [Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                        NASA's Fiscal Year 2007

                            Budget Proposal

                      thursday, february 16, 2006
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, February 16th at 10:00 a.m., the Committee on Science 
will hold a hearing on the National Aeronautics and Space 
Administration's (NASA) Fiscal Year 2007 (FY07) budget.

Witnesses:

Dr. Michael D. Griffin is the NASA Administrator.

Ms. Shana Dale is the NASA Deputy Administrator.

Brief Overview:

    NASA's overall proposed budget for FY07 is $16.8 billion, an 
increase of 1 percent from the FY06 appropriated budget, or up 3.2 
percent if one excludes the hurricane emergency supplemental funding 
($350 million) from the FY06 base. (That can be compared to the .5 
percent cut proposed for non-security discretionary spending as a 
whole.) The FY07 budget includes projections for the out-years that 
show NASA increasing by two to three percent a year in FY08 through 
FY11.
    The proposed NASA FY07 budget differs significantly from how NASA 
projected it would proceed when it released its FY06 budget. (Each NASA 
budget submission includes a five-year runout.) There are two reasons 
for this. First, the FY07 proposed budget is $170 million below the 
level that NASA was projected to receive in FY07 in last year's budget. 
Second, and more significantly, NASA Administrator Mike Griffin 
announced at a Science Committee hearing last year that the FY06 five-
year projections for the Space Shuttle were $3-5 billion below the 
amount actually needed to keep the Shuttle flying through 2010. As a 
result, compared to past projections, the FY07 budget shifts funding 
from Science and, to a lesser extent, Exploration to fully fund the 
Shuttle program through 2010. Compared to the FY06 projections, the 
FY07 budget proposal provides about $2.2 billion more to the Shuttle 
program between FY06 and FY10.
    The proposed FY07 budget is also about $1.1 billion less than the 
level authorized in the NASA Authorization Act (P.L. 109-155) Congress 
passed in December. This is because in writing the Act, Congress 
handled the Shuttle shortfall by adding money to NASA's total spending. 
Congress also provided more money than NASA had then requested for 
Science (to handle cost overruns in several programs and an unfunded 
commitment to the Hubble Space Telescope) and to Aeronautics (to 
prevent further cuts).
    The key features of the proposed FY07 budget include:

        <bullet>  The Space Shuttle is fully funded through FY10 with 
        an assumption of 16 flights to complete construction of the 
        International Space Station (ISS) and one flight to service the 
        Hubble. (The Shuttle budget for FY07 is actually lower than it 
        was in FY06 because one-time expenses necessary to return the 
        Shuttle to flight after the Columbia accident no longer need to 
        be funded. But previous projections assumed that the continuing 
        expenses associated with the Shuttle would begin to decline in 
        FY08, and they will not.)

        <bullet>  NASA plans to award a contract for development of the 
        Crew Exploration Vehicle (CEV), which would take astronauts to 
        the Moon, toward the end of FY06. The budget for the CEV and 
        related vehicles would increase by 76 percent in FY07 under the 
        budget proposal. NASA cannot yet predict whether it is 
        technically or financially possible to fly the CEV before 2014. 
        (President Bush set 2014 as the date for the first manned CEV 
        flight when he announced the Vision for Space Exploration in 
        2004.) NASA is trying to fly the vehicle sooner--probably late 
        2011 is the earliest possible date--to reduce the time between 
        the retirement of the Shuttle and the launch of the CEV.

        <bullet>  All programs in the Exploration Directorate other 
        than those related to the CEV are cut back significantly. This 
        includes all programs to develop technology that is not 
        immediately needed by NASA (such as nuclear propulsion) and 
        much of the ISS research program.

        <bullet>  Funding for the Science Directorate is increased by 
        1.5 percent in FY07 and by one percent thereafter--
        significantly below the levels previously projected. That level 
        of budget growth, along with increased costs for some projects, 
        will necessitate the deferral or cancellation of a number of 
        space and Earth science missions and will make it hard for new 
        missions to get into the queue.

        <bullet>  Funding for aeronautics declines by 18 percent in 
        FY07 with further reductions projected for the outyears. For 
        reasons unrelated to the budget, NASA is totally revamping its 
        aeronautics program to focus more on fundamental research 
        questions and less on building demonstration projects. Work to 
        develop a new air traffic control system in coordination with 
        the Federal Aviation Administration and the Department of 
        Defense will continue.

Overarching Questions:

    Questions about the budget proposal basically fall into three 
categories:

        1.  BUDGET PRIORITIES: Is the overall level of spending 
        appropriate and is the budget properly balanced among human 
        space flight, space science, Earth science and aeronautics? Is 
        the emphasis on near-term commitments over longer-term 
        technology development and science missions appropriate? Given 
        the level of funding, should Congress eliminate any of the 
        requirements placed on NASA in the NASA Authorization Act, 
        which mandated that NASA continue the Shuttle and ISS programs, 
        launch a CEV as close to 2010 as possible and carry out robust 
        programs in space and Earth science and aeronautics?

        2.  IMPLEMENTATION OF THE EXPLORATION VISION: In implementing 
        its plans for returning to the Moon, how will NASA avoid the 
        cost growth, schedule delays and technical problems experienced 
        by other space programs? If the program's costs grow, will NASA 
        ``go-as-you-can-pay'' as stated by the President or will it 
        redirect funds from other programs?

        3.  SPACE SHUTTLE AND STATION: What is the status of plans for 
        the second return to flight Shuttle mission, and how realistic 
        is the plan to complete 16 flights to Space Station and one to 
        Hubble before the Shuttle is retired in 2010? Will NASA be able 
        to use private companies to fly cargo flights to the ISS?

Key Issues:

Impact of Science cuts. The FY07 budget proposes to cut Science by $3.1 
billion from FY06-FY10 compared to what was projected in the FY06 
budget over the same period. Programs that sustained the largest cuts 
include the Mars robotic exploration program (by focusing on science-
based missions every other year and dropping activities that were more 
related to laying the groundwork for human exploration), planned 
advanced telescopes to find planets around distant stars, and several 
programs to observe phenomena predicted by Einstein's theories, such as 
black holes, the Big Bang, and ``dark energy.'' Several key Earth 
science missions are deferred or canceled. In addition, the FY07 budget 
proposes cutting funds for research (as opposed to the satellites or 
telescopes themselves) by 15 percent. What will be the long-term impact 
of these cuts? Is Earth science any better off than it was last year 
when the National Academy of Sciences raised alarms about the future 
viability of the program? Will there be enough programs coming down the 
line to provide sufficient opportunities for scientists and engineers?

Space Shuttle and Space Station Challenges Remain. NASA believes it has 
solved the foam shedding problem that occurred again on the most recent 
Shuttle flight and hopes to launch the next Space Shuttle in May, 
although that could slip to July. NASA's latest plan calls for 
conducting 16 flights to complete the assembly of the International 
Space Station (plus one flight sometime in 2008 to repair the Hubble 
Space Telescope). The Space Shuttle will then be retired in 2010. The 
tentative plan is to launch two flights in FY06, four in FY07, five 
each in FY08 and 09 and one in FY10, with the Shuttle retiring by Dec. 
31, 2010. While the Shuttle program has accomplished that launch rate 
in the past, there is little tolerance for any delays. To accomplish 
this, the Shuttle program faces a number of challenges, including 
maintaining its key staff as the program moves toward completion. 
Between FY06 and the Shuttle retirement, NASA intends to spend 
approximately $20 billion on the program. (The program costs about the 
same amount regardless of how many Shuttles are launched because the 
primary expenses of the program are the continuing costs of maintaining 
the workforce and facilities.)
    On the Space Station side, NASA has cut ISS-related research 
funding by 50 percent for the second year in a row. Between FY06 and 
FY10, NASA intends to spend more than $10 billion on the Space Station 
program. Can the Shuttle successfully complete the projected number of 
flights? How high a priority are the Shuttle and ISS programs?

Are the synergies between Shuttle and CEV/CLV realistic? NASA is 
assuming that it will save money by finding ``synergies'' between the 
Shuttle program and the efforts to develop the CEV and its launch 
vehicle (CLV). This is plausible because NASA has decided to use 
several key Shuttle parts in the CEV and CLV. For example, the Solid 
Rocket Boosters (SRB) used on the Shuttle will be the first stage of 
the CLV. To ease the transition on the workforce and to take advantage 
of facilities, systems, and capabilities that the two programs have in 
common, NASA has tried to identify areas of ``synergy'' to save money. 
Given the constrained budget, has NASA been realistic in its 
assumptions for these savings?

Challenges of Implementing the Exploration System Architecture. NASA 
estimates that it will need about $100 billion between now and 2018 to 
return to the Moon. Given that nearly every major government space 
program has run into cost growth and schedule delay problems, often 
because they were overly optimistic about the technologies, 
underestimated the complexity, and underestimated the cost, what is 
NASA's approach to minimize the possibility that the CEV and CLV will 
run into the same problems? If the CEV or CLV run into cost growth 
problems will NASA stretch the program schedule, as it has done on the 
Webb telescope program, or will it look to other non-Exploration 
programs for funds?

Hurricane Katrina Response and Recovery. Hurricane Katrina inflicted 
significant damage on the Stennis Space Center in Mississippi and the 
Michoud Assembly Facility in Louisiana. The Michoud facility is located 
just outside New Orleans and is the manufacturing facility for the 
Space Shuttle's External Tanks. NASA's cost estimate for the damage, 
including emergency response and programmatic costs is $760 million. 
Last year, Congress provided NASA with $350 million in emergency relief 
funding. In total, NASA has put $450 million toward hurricane relief. 
To pay back the $100 million NASA internally redirected and make up the 
shortfall from NASA's estimate of the damage, the agency will need 
about $300 million in additional funds. Another hurricane supplemental 
request may be sent to Congress shortly. How will NASA handle hurricane 
relief if additional funds are not available?

FY07 Budget Details:

Science Budget Highlights:
    NASA's Science budget request for FY07 is $5.33 billion, an 
increase of $76 million, or 1.5 percent over the FY06 appropriated 
budget, but $354 million less than was projected for FY07 in the FY06 
budget.
    Over the period from FY06-FY10 the Science program is to be cut by 
approximately $3.1 billion as compared with the FY06 projected budget 
over the same period. These cuts were primarily used to fund the 
shortfall in the Space Shuttle program.
    The following are highlights of NASA's FY07 budget for Science:

        <bullet>  The Mars Exploration program is significantly scaled 
        back compared to previous plans, primarily by cutting missions 
        that had more to do with future human exploration than with 
        science. NASA continues to operate several ongoing Mars 
        missions, including the twin Mars rovers Spirit and 
        Opportunity, and the proposed plans call for flying a robotic 
        mission to Mars approximately every two years. But the FY07 
        budget proposes cancellation of several future missions, such 
        as the Mars Telecommunications Orbiter, two Mars testbed 
        missions, and future Mars human precursor missions. The Mars 
        Sample Return mission to robotically bring back a sample from 
        the Martian surface has been indefinitely deferred.

        <bullet>  NASA is planning a Shuttle mission to service the 
        Hubble in 2008, assuming the next Shuttle flight shows the 
        vehicle can operate safely. Over the last several years, NASA 
        has implemented conservation measures to help extend the life 
        of the batteries and gyros on Hubble so that it should remain 
        operational into 2008. To pay for continued operations and 
        preparations for the planned servicing mission, the FY07 budget 
        for Hubble has been increased. (Note: the Shuttle portion of 
        the costs for the servicing mission is not included in the 
        Science budget, but is included as part of the Shuttle 
        program.)

        <bullet>  In Earth science, NASA plans to fly as independent 
        satellite missions two research instruments that were 
        previously going to ``hitch a ride'' on vehicles intended for 
        other purposes. The Committee had long questioned the viability 
        of the ``hitching'' approach. The two missions are Glory, which 
        will measures chemicals in the atmosphere, and Landsat, the 
        continuing effort to provide large-scale imagery of the Earth.

        <bullet>  The Stratospheric Observatory for Infrared Astronomy 
        (SOFIA) program is zeroed out in the FY07 budget, but is under 
        review. The SOFIA observatory, a joint program with the German 
        Aerospace Center, is significantly over budget and behind 
        schedule. SOFIA was planned to work in conjunction with the 
        Spitzer telescope but now would have little overlap with 
        Spitzer. SOFIA is still funded in FY06, but NASA has directed 
        that no new work is to be started until the review is 
        completed. A final decision on SOFIA is expected in the next 
        few months.

        <bullet>  The James Webb Space Telescope (JWST) budget is 
        increased to cope with the projected $1 billion cost growth, 
        and its launch is delayed two years to 2013. JWST, which is 
        ranked as the top priority in the National Academy's decadal 
        survey of astronomy and astrophysics programs, is designed to 
        be the follow-on mission to Hubble. To avoid damage to other 
        science programs' budgets, NASA plans to make up the remaining 
        portion of the $1 billion overrun by stretching the program out 
        and delaying the launch date to 2013. NASA is reviewing the 
        program now. Detailed cost and schedule estimates will be 
        completed in spring 2006 and will be reflected in the FY08 
        budget.

        <bullet>  The Navigator program, a series of ground-based and 
        space-based telescopes used to detect planets around other 
        stars, is cut significantly. The programs under Navigator are 
        the Space Interferometry Mission (SIM), the Terrestrial Planet 
        Finder (TPF), the Keck Interferometer, and the Large Binocular 
        Telescope Interferometer (LBTI). SIM is under review with a 
        launch date no earlier than 2015. TPF has been deferred 
        indefinitely. The Keck Interferometer is in operations, but 
        proposed upgrades to improve performance are canceled (four 
        additional ``outrigger'' telescopes will not be added to the 
        two main telescopes).

        <bullet>  NASA is reviewing the elements of the Beyond Einstein 
        program to determine priorities. The program is designed to 
        observe phenomena predicted by theoretical physics, such as 
        phenomena that would shed light on the Big Bang, black holes, 
        and the existence of a ``dark energy.'' NASA plans to proceed 
        with studies related to the missions in FY07.

        <bullet>  The FY07 budget request does not include any funding 
        for planning a mission to Europa, a moon of Jupiter that may 
        have, or may have had in the past, liquid water. A mission to 
        Europa was a top-rated mission by the National Academy of 
        Sciences decadal survey of priorities for solar system 
        exploration. NASA cannot afford such an expensive mission right 
        now and also wants to determine whether it should set its 
        sights instead on Saturn's moon Titan, which recent studies 
        have shown may be an even more promising target. However, 
        Congress directed NASA in the FY06 Science, State, Justice 
        Commerce Appropriations Act (H.R. 2862) to begin planning a 
        mission to Europa and include it as part of its FY07 budget.

        <bullet>  Funding for Research and Analysis (R&A) across the 
        entire Science program was cut. The R&A account provides funds 
        to scientists to perform the research on the data collected by 
        the various missions. The reduction was driven by the overall 
        cuts in the Science budget and the fact that fewer missions are 
        planned to be flown as a result of program cancellations.

Exploration Systems Budget Highlights:
    Since becoming Administrator, Griffin has overhauled NASA's 
approach for returning to the Moon. As a result of NASA's Exploration 
Systems Architecture Study (ESAS) completed last year, NASA hopes to 
accelerate the delivery of the Crew Exploration Vehicle (CEV) to 
minimize the gap following the Shuttle retirement in 2010. The budget 
documents state that CEV will come ``on-line by 2014, and potentially 
much sooner.'' In briefings, NASA has said that until it awards a CEV 
development contract, it cannot be sure whether it is technically or 
financially feasible to move ahead before 2014. The contract 
solicitation sets 2012 as a target launch date, and NASA officials have 
said it would be extremely unlikely in any event to launch before late 
2011.
    The plan also calls for NASA to develop two new launch vehicles to 
be derived from Shuttle elements, one to launch the CEV and one to 
launch heavier loads to return to the Moon by 2018. The preliminary 
ESAS cost estimate through 2018 is $104 billion, excluding the 
operational costs of CEV missions to the ISS, which are expected to 
cost $12 billion between FY12 and FY16. Estimates for cost and schedule 
will be refined as the program moves forward. To fund CEV development, 
NASA has virtually eliminated all of the long-term high-risk research 
and technology projects beyond what is necessary to return humans to 
the Moon for short visits.
    NASA's Exploration Systems budget request as a whole for FY07 is 
$3.98 billion, an increase of $930 million, or 30 percent, over the 
FY06 appropriated budget. Compared to projections made in last year's 
budget, however, the Exploration Systems budget is cut by nearly $1.6 
billion over the period from FY06-FY10. This cut, in addition to cuts 
in the Science program, was required to pay for the funding shortfall 
in the Shuttle and Station budgets.
    Not all the funding for CEV requested for FY07 will be spent next 
year. NASA wants to ``bank'' funding for CEV, so that it can begin to 
accumulate funds that will be needed in the peak years of development. 
NASA has not yet said how much will actually be spent in FY07.
    The following are highlights of NASA's FY07 budget for Exploration 
Systems:

        <bullet>  The funding request for the CEV and the CLV, as well 
        as the main elements needed to return to the Moon, such as 
        heavy-lift launch systems, communications and navigations 
        systems, and new space suits (collectively called Constellation 
        Systems) for FY07 is $3.1 billion, an increase of $1.3 billion, 
        or 76 percent, over the FY06 appropriated budget. To try to 
        accelerate the CEV and CLV, the FY07 budget proposes to add 
        more than $5.6 billion over the period from FY06 to FY10 over 
        what was planned in the FY06 budget projection. CEV will 
        initially be used to transport crews to and from the Space 
        Station.

        <bullet>  The ISS Crew and Cargo budget is increased slightly 
        in the near-term and reduced overall over the next five years. 
        The ISS Crew and Cargo budget contains two components, funds to 
        purchase Soyuz capsules and Progress supply vehicles from 
        Russia and funds for a commercial crew/cargo demonstration 
        project, the Commercial Orbital Transportation Systems (COTS) 
        demonstration project. Under COTS, NASA has solicited proposals 
        from private sector companies that want to demonstrate that 
        they could fly missions to supply cargo and perhaps crew to the 
        ISS. The proposals are due in March. NASA has set aside $500 
        million for the program through FY09, and the funds would help 
        the winning private company or companies develop their 
        spacecraft. Then NASA would pay the company or companies to 
        actually fly missions if they demonstrate that they can do so 
        successfully for less money than it would cost to pay the 
        Russians or Europeans.

        <bullet>  Exploration Systems Research and Technology (ESRT) is 
        dramatically cut and scaled back. The ESRT budget includes the 
        Robotic Lunar Exploration Program, and some technology projects 
        for returning to the Moon. This cutback has resulted in the 
        cancellation of more than 80 projects that were deemed not 
        essential to getting humans back to the Moon. Project 
        Prometheus, NASA's nuclear power and propulsion program, which 
        was once planned as a $400 million per year program, is now a 
        small technology initiative funded at $10 million per year. The 
        Robotic Lunar Exploration Program (RLEP), which will launch 
        satellites to learn about the Moon in advance of a human 
        landing, remains on track with the launch of its first mission, 
        the Lunar Reconnaissance Orbiter, scheduled for 2008.

        <bullet>  The Centennial Challenges prize program receives 
        little funding. At NASA's request, the NASA Authorization Act 
        included language giving the agency the authority to conduct 
        large prize contests for concepts that could contribute to 
        NASA's mission. The FY07 budget provides $10 million for the 
        program in each of FY07 and FY08 and no funding beyond that. 
        NASA does plan to move forward with several new small prize 
        programs, and will decide about future prizes after that.

        <bullet>  The Human Systems Research and Technology (HSRT) 
        budget is cut by more than 50 percent. HSRT funds life and 
        microgravity research, primarily on the ISS. Projects in all 
        areas have been cut back to the bare minimum, with the focus on 
        programs to get health data from astronauts aboard ISS. Some 
        projects will be continued to meet the requirement in the NASA 
        Authorization Act that at least 15 percent of the research 
        funded aboard the ISS be unrelated to future human space 
        missions.

Aeronautics Research Budget Highlights:
    Beginning last fall, NASA has been revamping its aeronautics 
program to move away from narrowly focused technology demonstration 
projects and toward a more fundamental research program. The NASA 
Authorization Act directs NASA to lead a government-wide effort to 
develop a National Aeronautics Policy to guide NASA's aeronautics 
research program. That policy plan is due at the end of 2006.
    NASA's FY07 Aeronautics Research budget request is $724 million, a 
$160 million reduction, or 18 percent cut from FY06. NASA's aeronautics 
research program consists of three integrated research programs: the 
Aviation Safety Program, the Airspace Systems Program, and the 
Fundamental Aeronautics Program. A new component has been added this 
year called the Aeronautics Test Program. It was created to ensure that 
critical facilities, such as wind tunnels, remain available at a 
reasonable cost to users.
    The following are highlights of NASA's FY07 budget for Aeronautics 
Research:

        <bullet>  The Fundamental Aeronautics Program budget is 
        increased in the FY07 budget. The Fundamental Aeronautics 
        Program represents a complete revamping of what used to be 
        called the Vehicle Systems Program. The Fundamental Aeronautics 
        Program will develop advanced tools and capabilities to better 
        understand the underlying physics of flight. These tools and 
        capabilities will enable new classes of aircraft to be more 
        efficient and more economical with reduced noise.

        <bullet>  The Aviation Safety Program budget is cut over the 
        next several years. The Aviation Safety Program conducts 
        research to improve safety of future aircraft and to eliminate 
        safety-related technology barriers. Areas of research include 
        the development of technologies to improve situational 
        awareness during flight and to improve vehicle health 
        management and aging-related hazards.

        <bullet>  The Airspace Systems Program budget is cut. The 
        Airspace Systems Program conducts research and development to 
        address the future air traffic management needs.

        <bullet>  The aeronautics program would move away from research 
        on ``human factors'' and from security issues. NASA argues that 
        security issues do not fit well with its expertise and 
        responsibilities.

Space Operations (Space Shuttle and Space Station) Budget Highlights:
    In developing the FY07 budget, the Administration had a clear 
choice regarding Shuttle and Station. Given that the fixed costs on the 
Space Shuttle and Space Station consume the vast majority of their 
budgets, the only choices basically boiled down to either finding the 
funds to make the program ``whole'' or ending the Shuttle program, 
thereby prevent any future assembly of the ISS. The FY07 budget 
reflects the Administration's decision to make the program whole.
    NASA's FY07 Space Operations budget request is $6.2 billion, which 
is about 40 percent of the whole NASA budget. This is about a four 
percent cut from last year's level, but an increase of $47 million over 
last year's projection for the FY07 budget. Over the period from FY06-
FY10 the Space Operations budget is increased by $3.6 billion as 
compared to the levels projected in last year's budget for the same 
period. This account includes the Space Shuttle, the International 
Space Station (ISS), and a much smaller line called Space and Flight 
Support.
    The following are highlights of NASA's FY07 budget for Space 
Operations:

        <bullet>  NASA now plans to fly the Shuttle on 16 missions to 
        complete the International Space Station and one mission, 
        probably in 2008, to service the Hubble Space Telescope. The 
        Shuttle will be retired in 2010. While the Shuttle has averaged 
        over four flights each year over the past 25 years, it will be 
        challenging to complete all 17 of these missions by 2010 
        because there are only three Shuttles instead of four, missions 
        to the ISS can be conducted only during limited launch windows, 
        and the missions must be conducted in a specific order so that 
        the ISS can be assembled. On the other hand, all three of the 
        Shuttles have been thoroughly refurbished. What can't be 
        predicted, of course, is some new problem with the Shuttle that 
        would require another significant stand down.

        <bullet>  Last November, the Space Station program marked the 
        fifth anniversary of continuous U.S. presence in space. Despite 
        the grounding of the Shuttle over the past three years, the 
        Space Station program has continued, albeit in a reduced mode 
        with only two crew members aboard and no progress on completing 
        the assembly of the ISS. NASA intends to increase the crew size 
        from two to three beginning with the next Shuttle flight, 
        currently planned for May. NASA has also been able to continue 
        the ISS program because Congress provided NASA with an 
        exception to the Iran Nonproliferation Act allowing the agency 
        to purchase Soyuz capsules and Progress supply vehicles from 
        Russia. This exception will sunset in 2012. NASA hopes to have 
        the CEV online by then to meet the U.S. commitment to provide 
        crew transportation for the program. A top concern for the ISS 
        program is resuming a regular tempo of Shuttle flights so that 
        the ISS can be completed by 2010 when the Shuttle is to be 
        retired. The Space Station budget is increased by $167 million 
        for FY07 and by nearly $1.5 billion over the period from FY06-
        FY10 as compared to levels projected in last year's budget over 
        the same period, when the transfer of the ISS Crew/Cargo 
        project to Exploration Systems is taken into account.

Other programs and issues:

        <bullet>  The Education program is cut slightly from what was 
        projected for FY07 last year and is essentially flat funded for 
        the next several years at about $150 million per year. NASA 
        proposes to spend $47 million on elementary and secondary 
        education, $54 million on higher education, $12 million for E-
        Education and informal education, and about $40 million on the 
        Minority University Research and Education Program (MUREP).

        <bullet>  As NASA shifts its focus from the Space Station and 
        Space Shuttle to the CEV and CLV, it plans to reassign workers 
        to new jobs, as well as cut back on the overall number of 
        positions. NASA plans to reduce its workforce from 18,410 in 
        FY06 to 17,979 for FY07. NASA officials have said that many 
        employees will be shifted to different positions or locations, 
        and attrition will take care of some of the problem. Some 
        layoffs maybe needed, but the NASA Authorization Act prohibits 
        a layoff (Reduction In Force, or RIF) until March of 2007. In 
        an effort to rebalance and reshape the workforce, the agency is 
        conducting buyouts at all NASA Centers and Headquarters. 
        Buyouts have been offered to employees in positions identified 
        with excess competencies. To date, 303 employees have taken 
        advantage of these buyouts in FY06. NASA's current estimate of 
        ``uncovered capacity''--personnel not directly assigned to a 
        program--is about 920 civil servants. NASA hopes to rebalance 
        its workforce and eliminate or reduce the need for a RIF. The 
        objective is to assign work among the 10 NASA Centers to 
        maintain a balance and meet the projected workforce levels. 
        Earlier this month, NASA released its draft workforce strategy 
        to its unions so that they can comment on it.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Chairman Boehlert. The hearing will come to order.
    I want to welcome everyone here. The title on my statement, 
opening statement, says opening statement for NASA hearing. The 
subtitle might be a reality check.
    I want to welcome everyone here this morning for this 
important hearing on the future of NASA, the first of a number 
of hearings the Committee will hold related to NASA's proposed 
budget. Let me start in what has almost become a ritual at 
these hearings, by praising Administrator Griffin. In tough 
times and in easy times, Mike Griffin has continued to be a 
steady model of competence and candor, to which everyone in 
government should aspire, and he has recruited to the Agency an 
impressive team, including the adept Deputy Administrator, an 
alumna of this committee, who is appearing with him here today. 
I want to thank him publicly, as the staff and I have already 
done privately, for making the Agency responsive and open to 
our inquiries, as demonstrated in this year's series of budget 
briefings for the Committee staff.
    But to understand the budget is not necessarily to love it. 
The Administrator did an excellent job of balancing the 
Agency's mission, given the box he was put in, but it is our 
job to examine the box, as well as its contents, and by the 
box, I mean both the total funding for the Agency, and the 
missions that it is being mandated to perform. I am extremely 
uneasy about this budget, and am in a quandary at this point 
about what to do with it. This budget is bad for space science, 
worse for Earth science, perhaps even worse for aeronautics. It 
basically cuts or de-emphasizes every forward-looking, truly 
futuristic program of the Agency to fund operational and 
development programs, to enable us to do what we are already 
doing or have done before. Admittedly, that is a bit of a 
caricature, but I think we face some stark choices. Now, maybe 
that is all we can do, given our options.
    I support the Vision for Space Exploration, although I 
don't see any reason to accelerate it beyond the President's 
original plans, but given that NASA is not yet sure that it can 
accelerate it, it is not clear that we can save much money on 
the Crew Exploration Vehicle and its launcher, compared to the 
proposed budget.
    As for the Space Station and Space Shuttle programs, we 
have a pretty clear decision to make. We can either have these 
programs, or we can end them. There isn't any logical way I see 
to continue those programs for less money than NASA is 
proposing, and given the costs of shutdown, it is not clear how 
much money would even be saved through cancellation. We can add 
more money to the total NASA budget, and I would be willing to 
support that, as long as any additional money went to the 
unmanned side of the program, and as long as the money didn't 
come from other science agencies. But money is not exactly 
growing on trees around here.
    So what to do is not clear. Except for one concern, I would 
even be willing to convince myself that this budget is just 
fine, a tough few years of transition to set the Agency back on 
a sensible path in all its programs, which is, I think, how the 
Administrator legitimately thinks of it, but that one concern 
is a big one. We may never escape from the pattern we set this 
year. If science becomes secondary, if scientists leave the 
Agency, if new missions don't keep young researchers going, 
then it will be hard to leave this pattern. If the lunar 
programs, like all programs run by humans, can't live within 
the original cost projections, will money keep coming from 
science? And let me point out that science isn't just good for 
scientists, and its rewards are not just psychic. Science 
programs, with their satellites and instruments, also push 
forward the technical frontiers, and Earth science programs 
help us figure out what policy choices we should be making on 
the most important planet in the universe, Earth.
    So the budget has just been out for a week, and I am still 
figuring out what to do. Again, I want to point out that given 
the requirements that Congress and others have imposed on him, 
the Administrator and his team have come up with a thoughtful 
budget, probably the best that could be expected given the 
circumstances. But now, the ball is in our court. I said when 
our authorization bill passed, that if NASA didn't receive as 
much funding as was authorized, we would all face some tough 
choices. Now, we do.
    Before I close, let me just update everyone for a moment on 
another NASA issue, one that shouldn't be as tough, and that is 
the question of scientific openness. Since the concerns of Dr. 
Hansen became known, the Administrator, the Deputy 
Administrator, and Mr. Gordon and I have been working together 
to ensure that NASA is a model of scientific openness. From the 
start, NASA has been responsive to our inquiries, and 
Administrator Griffin began taking steps to rectify the 
problems right away. NASA still has a lot of work to do to 
ensure openness. That is Administrator Griffin's view, as well 
as my own, but they have laid out a plan to do that work, 
starting with engaging in an open process to develop a clear 
policy on scientific communication. We will be working with 
NASA and following the development of that policy and its 
implementation closely, but I have high hopes that NASA will 
end up being a model of how agencies can guarantee scientific 
openness.
    When Administrator Griffin last appeared before us, I said 
that he had brought forth a Renaissance at NASA. I want him to 
follow that up with an Enlightenment. We need free and open 
inquiry, and an agency that recognizes that the greatest 
exploration takes place inside the human mind. I look forward 
to continuing to work with the Administrator and his team to 
make sure that enlightenment occurs.
    Mr. Gordon.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    I want to welcome everyone here this morning for this important 
hearing on the future of NASA, the first of a number of hearings the 
Committee will hold related to NASA's proposed budget.
    Let me start, in what has almost become a ritual at these hearings, 
by praising Administrator Griffin. In tough times and easy times, Mike 
Griffin has continued to be a steady model of competence and candor to 
which everyone in government should aspire. And he has recruited to the 
Agency an impressive team, including the Deputy Administrator, an 
alumna of this committee, who is appearing with him today. I want to 
thank him publicly, as the staff and I already have privately, for 
making the Agency responsive and open to our inquiries, as demonstrated 
in this year's series of budget briefings for the Committee staff.
    But to understand the budget is not necessarily to love it. The 
Administrator did an excellent job of balancing the Agency's missions 
given the box he was put in, but it's our job to examine the box as 
well as its contents. And by ``the box'' I mean both the total funding 
for the Agency and the missions that it's being mandated to perform.
    I am extremely uneasy about this budget, and I am in a quandary at 
this point about what to do about it. This budget is bad for space 
science, worse for Earth science, perhaps worse still for aeronautics. 
It basically cuts or de-emphasizes every forward looking, truly 
futuristic program of the Agency to fund operational and development 
programs to enable us to do what we are already doing or have done 
before.
    Admittedly, that's a bit of a caricature, but I think we face some 
stark choices.
    Now maybe that's all we can do, given our options. I support the 
Vision for Space Exploration, although I don't see any reason to 
accelerate it beyond the President's original plans. But given that 
NASA is not yet sure that it can accelerate it, it's not clear that we 
can save much money on the Crew Exploration Vehicle (CEV) and its 
launcher compared to the proposed budget.
    As for the Space Shuttle and Space Station programs, we have a 
pretty clear decision to make. We can either have these programs or we 
can end them. There isn't any logical way I see to continue those 
programs for less money than NASA is proposing, and given the cost of 
shutdown, it's not clear how much money would even be saved through 
cancellation.
    We can add more money to the total NASA budget. And I'd be willing 
to support that as long as any additional money went to the unmanned 
side of the program, and as long as the money didn't come from other 
science agencies. But money is not exactly ``growing on trees'' around 
here.
    So what to do is not clear. Except for one concern, I'd even be 
willing to convince myself that this budget is just fine--a tough few 
years of transition to set the Agency back on a sensible path in all 
its programs, which is, I think, how the Administrator legitimately 
thinks of it. But that one concern is a big one--we may never escape 
from the pattern we set this year.
    If science becomes secondary, if scientists leave the Agency, if 
new missions don't keep young researchers going, then it will be hard 
to leave this pattern. If the lunar programs, like all programs run by 
humans, can't live within the original cost projections, will money 
keep coming from science?
    And let me point out that science isn't just good for scientists, 
and its rewards are not just psychic. Science programs, with their 
satellites and instruments, also push forward the technical frontiers. 
And Earth science programs help us figure out what policy choices we 
should be making here on Earth.
    So the budget has just been out for a week, and I am still figuring 
out what to do. Again, I want to point out that given the requirements 
that Congress and others have imposed on him, the Administrator has 
come up with a thoughtful budget--probably the best that anyone could 
under the circumstances. But now the ball is in our court. I said when 
our authorization bill passed that if NASA didn't receive as much 
funding as we authorized, we'd all face some tough choices. Now we do.
    Before I close, let me just update everyone for a minute on another 
NASA issue--one that shouldn't be as tough--and that's the question of 
scientific openness. Since the concerns of Dr. Hansen became known, the 
Administrator, the Deputy Administrator, Mr. Gordon and I have been 
working together to ensure that NASA is a model of scientific openness.
    From the start, NASA has been responsive to our inquiries, and Mike 
Griffin began taking steps to rectify the problems. NASA still has a 
lot of work to do to ensure openness--that's Administrator Griffin's 
view as well as my own. But they have laid out a plan to do that work--
starting with engaging in an open process to develop a clear policy on 
scientific communication. We will be working with NASA and following 
the development of the policy and its implementation closely. But I 
have high hopes that NASA will end up being a model of how agencies can 
guarantee scientific openness.
    When Administrator Griffin last appeared before us, I said that he 
had brought forth a Renaissance at NASA. I want him to follow that up 
with an Enlightenment. We need free and open inquiry, and an agency 
that recognizes that the greatest exploration takes place inside the 
human mind.
    And I look forward to continuing to work the Administrator and his 
team to make sure that Enlightenment occurs. Thank you.

    Mr. Gordon. Thank you, Mr. Chairman, and I want to join you 
in welcoming Administrator Griffin and Deputy Administrator 
Dale, and let me once again associate myself with your remarks. 
We are on the same page completely.
    Dr. Griffin has always been forthright in his testimony to 
this committee, and I am confident that we will get straight 
answers from him again today. He demonstrated that attribute 
again in his recent statement to NASA employees on the issue of 
scientific integrity, and I think this is important, because 
unfortunately, the Hansen situation, it is becoming apparent, 
is not isolated.
    I am afraid that scientific censorship permeates this 
entire Administration, with NASA being no exception, but the 
Administrator is taking a forthright role, as Chairman Boehlert 
said, and I hope it will be a model for--as we have seen, NOAA 
has come out also recently, and others, to try to set the 
record straight.
    It is now a little more than two years since President Bush 
announced his Exploration Initiative. I think it is appropriate 
for this committee to step back and see how the implementation 
of the President's vision squares with what Congress has--was 
led to believe by the White House and NASA two years ago. As 
you will recall, when the Exploration Initiative was rolled 
out, the Administration said that the President's vision for 
space exploration would be both affordable and sustainable. In 
support of those assertions, the Administration presented a 
multi-year budget plan that demonstrated its commitment to 
providing the resources needed to carry out the President's 
Exploration Initiative, fund the Space Shuttle and Space 
Station programs, and ensure that NASA's space and Earth 
science programs would grow at a healthy annual rate.
    That was what the Administration said would happen. How 
does that compare what actually did happen? Well, since the 
simple fact--well, the simple fact is that two years since the 
Exploration Initiative was announced, the Administration has 
never sent a budget request to Congress equal to what it said 
NASA would need to carry out the Exploration Initiative and 
NASA's other programs. Specifically, the budget plan for two 
years ago that accompanied the Exploration Initiative, said 
that NASA would need $17 billion in fiscal year 2006, yet the 
Administration wound up sending over a request that was more 
than half a billion dollars lower than that level.
    Unfortunately, that wasn't an aberration. Its budget plan 
for two years ago also said that NASA would need $17.815 
billion in fiscal year 2007, yet the Administration has just 
sent over a budget request for NASA that is more than $1 
billion less than that amount. Supporters of the President's 
initiative are fond of saying that is a long-term undertaking, 
but the challenge will be to ensure that future Administrations 
and Congresses sustain the Exploration Initiative.
    I disagree. I think the real challenge is in getting the 
Administration that proposed this initiative to adequately fund 
the agency tasked with carrying it out. Why should we expect 
future Administrations to sustain a commitment to the 
Exploration Initiative when the Bush Administration has not 
seen fit to provide the resources that the Administration 
itself said NASA would need?
    Of course, it will be argued that we are at war, that we 
have a deficit to get under control, and so we shouldn't expect 
NASA to receive all the money that was promised. That argument 
has merit. However, it ignores the fact that the war and the 
deficit were already uncomfortable realities when the 
President's initiative was announced. There are also those who 
would argue that NASA did better than any other agencies in the 
competition for funds this year. That is an interesting 
observation, but largely irrelevant. The issue is not whether 
NASA got higher percentage increases than some other agencies. 
Rather, the issue is whether NASA got the funding that is 
needed to carry out the programs successfully.
    That is why I and other Members were concerned two years 
ago about the likely impact of trying to shoehorn a big new 
Moon to Mars Initiative into a NASA budget that was going to be 
under increasing pressure in the coming years for a variety of 
reasons. We were assured that we didn't need to worry, that the 
budget plan was credible, that NASA would undertake the 
advertised science programs, invest in a range of new 
technologies, and do all of the other things described in the 
budget plan that accompanied the Exploration Initiative.
    Again, what is reality two years later? Well, last year, 
the budget runout for NASA space and Earth science activities 
was cut by $1 billion. This year, the President's fiscal year 
2007 budget request for NASA would cut an additional $3.1 
billion from the space and Earth science runout relative to 
last year's plan, and NASA's new space, or rather life sciences 
and microgravity research programs have been eliminated 
altogether, or rather, all but eliminated.
    The runout for investment in new exploration-related 
research and technologies has been cut by a total of more than 
$4.6 billion, relative to last year's plan, and the runout for 
investment in human science research and technologies has been 
cut by more than $1.9 billion, relative to last year's plan. 
The budgetary runout for aeronautics bears little resemblance 
to the budget plan that accompanied the fiscal year 2005 budget 
request, with the funding proposal for aeronautics in fiscal 
year 2007 alone more than $200 million lower than what was 
planned, and according to OMB, NASA has cut its funding for 
applied research overall by 36 percent, compared with fiscal 
year 2006.
    Unfortunately, the situation is even worse than simply an 
unwillingness of the Administration to provide the needed 
resources. It turns out the budget plan sent to Congress by the 
White House to demonstrate the affordability of the vision 
underestimated the out year funding requirements of the Space 
Shuttle and the Space Station programs by billions of dollars, 
and now, bless his heart, Dr. Griffin has been left to deal 
with this shortfall. We are being assured that we only have a 
temporary problem, that once the Shuttle is retired, everything 
will work out.
    We will see, but I think we have to be guided by the hard 
data at hand, and the record of the past two years demonstrates 
that many of the assumptions underlying Congress' support for 
the President's initiative have not been borne out. That 
doesn't prove much--or provide much grounds for optimism as we 
look ahead. I certainly don't fault Dr. Griffin. I believe he 
has done his best to make responsible decisions. I can agree or 
disagree with those decisions, but I respect his willingness to 
try to make the best of the situation the Agency finds itself 
in. Nevertheless, the reality is that the glowing vision that 
Congress was given two years ago bears little resemblance to 
the situation at hand. As I have said in the past, I support 
the exploration, as long as it is paid for, and as long as it 
isn't paid for by unwisely cutting other important missions of 
NASA.
    It is becoming painfully obvious to me that we are going to 
get--that we are not going to get there from here, if we 
continue on the present course. While I have not yet decided on 
my final position, I think we have a number of alternatives to 
consider, either increase NASA's overall funding along the 
lines of the Authorization Act of 2005, slow or stop all or 
part of the Exploration Initiative until the Nation is prepared 
to provide the necessary resources, or step back and consider 
whether there are meaningful alternatives to the President's 
Exploration Initiative that might be more appropriate, given 
our overall goals for NASA, and the resources consistent, or 
constrains that we are likely to face.
    None of these options will be easy, and I don't claim to 
have the answers at this point. However, I want to make it 
clear that I do not want to see Congress signing up for another 
big, underfunded hardware program that winds up costing more, 
doing less, and cannibalizing other important NASA missions. We 
have been down that road too many times in the past, and I have 
got no desire to do that again.
    With that, I again want to welcome Dr. Griffin and Deputy 
Administrator Dale. I look forward to your testimony, and Mr. 
Chairman, I appreciate your tolerance in my--in the length of 
my statement.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    Good morning. I want to join Chairman Boehlert in welcoming 
Administrator Griffin and Deputy Administrator Dale this morning's 
hearing.
    Dr. Griffin has always been forthright in his testimony to this 
committee, and I am confident that we will get straight answers from 
him again today. He demonstrated that attribute again in his recent 
statement to NASA employees on the issue of scientific integrity.
    It is now a little more than two years since President Bush 
announced his exploration initiative. I think it is appropriate for 
this committee to step back and see how the implementation of the 
President's Vision squares with what Congress was led to believe by the 
White House and NASA two years ago.
    As you will recall, when the exploration initiative was rolled out, 
the Administration said that the President's Vision for Space 
Exploration would be both ``affordable'' and ``sustainable.'' In 
support of those assertions, the Administration presented a multi-year 
budget plan that demonstrated its commitment to providing the resources 
needed to:

        <bullet>  carry out the President's exploration initiative,

        <bullet>  fund the Space Shuttle and Space Station programs 
        and,

        <bullet>  ensure that NASA's space and Earth science programs 
        would grow at a healthy annual rate.

    That was what the Administration said would happen. How does that 
compare with what actually did happen?
    Well, the simple fact is that in the two years since the 
exploration initiative was announced, the Administration has never sent 
a budget request to Congress equal to what it said NASA would need to 
carry out the exploration initiative and NASA's other programs.
    Specifically, the budget plan of two years ago that accompanied the 
exploration initiative said that NASA would need $17 billion in Fiscal 
Year 2006. Yet the Administration wound up sending over a request that 
was more than half a billion dollars lower than that level. 
Unfortunately that wasn't an aberration.
    Its budget plan of two years ago also said that NASA would need 
$17.815 billion in Fiscal Year 2007. Yet the Administration has just 
sent over a budget request for NASA that is more than a billion dollars 
less than that amount.
    Supporters of the President's initiative are fond of saying that it 
is a long-term undertaking, and that the challenge will be to ensure 
that future Administrations and Congresses sustain the exploration 
initiative. I disagree--I think the real challenge is in getting the 
Administration that proposed this initiative to adequately fund the 
agency tasked with carrying it out.
    Why should we expect future Administrations to sustain a commitment 
to the exploration initiative when the Bush Administration has not seen 
fit to provide the resources that the Administration itself said NASA 
would need?
    Of course, it will be argued that we are at war, and that we have a 
deficit to get under control, and so we shouldn't expect NASA to 
receive all of the money that was promised. That argument has merit. 
However, it ignores the fact that the war and the deficit were already 
uncomfortable realities when the President's initiative was announced.
    There will also be those who argue that NASA did better than many 
other agencies in the competition for funds this year. It's an 
interesting observation, but largely irrelevant.
    The issue is not whether NASA got a higher percentage increase than 
some other agencies. Rather, the issue is whether NASA got the funding 
it needs to carry out its programs successfully. That is why I and 
other Members were concerned two years about the likely impact of 
trying to shoehorn a big, new Moon-Mars initiative into a NASA budget 
that was going to be under increasing pressure in the coming years for 
a variety of reasons.
    We were assured that we didn't need to worry--that the budget plan 
was ``credible,'' that NASA could undertake the advertised science 
program, invest in a range of new technologies, and do all of the other 
things described in the budget plan that accompanied the exploration 
initiative.
    Again, what is the reality two years later? Well, last year, the 
budgetary runout for NASA's space and Earth science activities was cut 
by one billion dollars. This year, the President's FY07 budget request 
for NASA would cut an additional $3.1 billion dollars from the space 
and Earth science runout relative to last year's plan. And NASA's life 
sciences and microgravity sciences research programs have been all but 
eliminated.
    The runout for investment in new exploration-related research and 
technologies has been cut by a total of more than $4.6 billion relative 
to last year's plan. And the runout for investment in human systems 
research and technologies has been cut by more than $1.9 billion 
relative to last year's plan.
    The budgetary runout for aeronautics bears little resemblance to 
the budget plan that accompanied the FY 2005 budget request, with the 
funding proposal for aeronautics in FY07 alone more than $200 million 
lower than what had been planned. And according to OMB, NASA has cut 
its funding for applied research overall by 36 percent compared to 
FY06.
    Unfortunately, the situation is even worse than simply an 
unwillingness of the Administration to provide the needed resources. It 
turns out that the budget plans sent to Congress by the White House to 
demonstrate the affordability of the Vision understated the outyear 
funding requirements of the Space Shuttle and Space Station programs by 
billions of dollars. And now Dr. Griffin has been left to deal with 
that shortfall.
    We are being assured that we only have a ``temporary'' problem--
that once the Shuttle is retired, everything will work out. We'll see--
but I think we have to be guided by the hard data at hand--and the 
record of the past two years demonstrates that many of the assumptions 
underlying Congress's support for the President's initiative have not 
been borne out.
    That doesn't provide much ground for optimism as we look ahead. I 
don't fault Dr. Griffin. I believe he has done his best to make 
responsible decisions. I can agree or disagree with those decisions, 
but I respect his willingness to try to make the best of the situation 
the Agency finds itself in.
    Nevertheless, the reality is that the glowing Vision that Congress 
was given two years ago bears little resemblance to the situation at 
hand. As I have said in the past, I support exploration--as long as it 
is paid for, and as long as it isn't paid for by unwisely cutting the 
other important missions of NASA. It is becoming painfully obvious to 
me that ``we aren't going to get there from here'' if we continue on 
the present course.
    While I have not yet decided on my final position, I think we have 
a number of alternatives to consider:

        <bullet>  Either increase NASA's overall funding along the 
        lines of the Authorization Act of 2005,

        <bullet>  Slow or stop all or part of the exploration 
        initiative until the Nation is prepared to provide the 
        necessary resources or,

        <bullet>  Step back and consider whether there are meaningful 
        alternatives to the President's exploration initiative that 
        might be more appropriate given our overall goals for NASA and 
        the resource constraints we are likely to face.

    None of these options will be easy, and I don't claim to have the 
answer at this point. However, I want to make it clear that I don't 
want to see Congress signing up for another big, under funded hardware 
program that winds up costing more, doing less, and cannibalizing other 
important NASA missions. We have been down that road too many times in 
the past, and I've got no desire to do so again.
    With that, I again want to welcome Administrator Griffin and Deputy 
Administrator Dale, and I look forward to your testimony.

    Chairman Boehlert. Thank you so much, Mr. Gordon, for a 
very thoughtful statement.
    The Chair is pleased to recognize the distinguished 
Chairman of the Subcommittee on Space and Aeronautics, Mr. 
Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. I want to welcome 
both Administrator Mike Griffin and Deputy Administrator Shana 
Dale. Welcome back to the Science Committee, Shana. This room 
is familiar to you. I know that you and Michael make a great 
team. You certainly both know NASA, you know Capitol Hill, and 
you certainly know the industry, and the American people, I 
think, is lucky to have both of you during this exciting and 
challenging time of our space program.
    Last year, as you know, the Congress passed an 
authorization bill for NASA for the first time in five years. 
That progress underscored the lack of funding, which is the key 
factor blocking the Agency from realizing its highest potential 
of all, its core mission area, space, aeronautics, and science. 
Dr. Griffin alerted the Committee during the November '05 
hearing about what is now calculated to be $2.3 billion 
shortfall in the NASA budget, which the prior speakers have 
mentioned. As a result, the Agency has had to move funding from 
science and from exploration to the Space Shuttle program. We 
understand this shortfall is a result of miscalculations and 
costs for return-to-flight activities and operations for the 
Shuttle through its retirement in 2010, and certainly, that was 
exacerbated by the hurricane-related costs, and certainly, 
those miscalculations were not done on your, on your watch, Dr. 
Griffin. I understand that, yet they need to be resolved.
    Hurricane Katrina's destructive path through the Gulf Coast 
left NASA with $760 million in damage to Stennis and the 
Michaud Assembly Facility. Recognizing the severity of this 
situation and its implications on the Agency's already strained 
budgets, this committee urged the Administration, and certainly 
the Appropriations Committee, increase recovery funds for NASA 
in the December supplemental. As you know, $349 million was 
included in the final package, which was increased from the 
initial President's request to $325 million, and we certainly 
recognize that we need to get some additional money to fix 
that. So, we will be working on that. Also, the Agency did 
receive, it was mentioned, a 3.2 percent increase on '06, or a 
1.5 increase, including Katrina funding for '06, but it is 
certainly not enough to fund all the sectors of the Agency, as 
everyone on this dais is beginning to figure out.
    Doctor, I know the hard decisions have to be made. The 
Agency has made some really difficult choices to keep the 
exploration programs optimally funded, so our nation can move 
to the Crew Exploration Vehicle, to assure the safety of the 
Shuttle program, to meet the obligations of our agreements with 
the partners of the International Space Station, to have our 
science programs working on a balanced program, and to have our 
aeronautics program producing forward-looking research and 
technology, that will keep this country globally competitive.
    I certainly congratulate you on putting together a finely-
tuned budget request. It is a much stronger budget we have had 
in the past, with the number of placeholders that we were 
given. One of the areas that is critical for you to address, as 
I know you are quite aware, is the--to get NASA's financial 
house in order. As I have mentioned before, as a businessman, I 
try to run a business without--with a credible accounting 
system. It would be a disaster if I didn't have one. And 
certainly, in all of the areas in the President's management 
agenda ratings, NASA is doing very well, except in the 
financial management area, and I know you have made 
improvements in your working in that area, and as you know, we 
need to make those improvements as soon as possible.
    Our office just received yesterday the corrective action 
plan for fiscal year 2005 financial audit. I assume that we 
have to make sure that this is implemented as soon as possible. 
But now that the NASA Authorization Act of 2005 has been signed 
into law, we can look forward to working with you to get the 
information we need to have more effective and productive 
oversight. When the Administration proposing its 
Competitiveness Initiative, I look forward to working with you 
to assure that NASA is contributing to this important national 
objective.
    I know the United States is beginning its long journey back 
to the Moon, and then, to Mars, through the exploration 
program, but I worry that we are not taking these challenges 
from other nations seriously. The United States, I believe, 
must maintain its global position. We have heard that India is 
preparing for a lunar orbital mission in '07. Japan plans to 
send a robotic rover to the Moon by 2013, and the European 
Space Agency has a probe that is orbiting the Moon. These 
countries are talking about sending people to the Moon, only 
two--I mean, only two are talking about sending people to the 
Moon, the United States and China, and have actually set dates 
for the lunar landings.
    As you know, from your schedule, we are back on--we are 
planning our first manned mission back to the Moon in 2018. 
China is heading for a landing, as I understand it, as early as 
2017. While this is generally a lean budget year, we must 
maximize every penny to keep our great nation competitive. I 
look forward to hearing from you and from Shana.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Chairman Calvert follows:]

               Prepared Statement of Chairman Ken Calvert

    Mr. Chairman, I want to welcome both Administrator Mike Griffin and 
Deputy Administrator Shana Dale. Welcome back to the Science Committee, 
Shana! You and Mike will make a great team. You both know NASA; you 
both know Capitol Hill; and you both know all facets of the industry. 
The American people are lucky to have such a well-qualified 
Administrator and Deputy Administrator for NASA during this exciting 
and challenging time.
    Last year, the Congress passed an authorization bill for NASA for 
the first time in five years. That process underscored the lack of 
funding which is the key factor blocking the Agency from realizing its 
highest potential in all of its core mission areas--space, aeronautics, 
and science.
    Dr. Griffin alerted this committee during the November 2005 hearing 
about what is now calculated to be a $2.3 billion dollar shortfall in 
the NASA budget. As a result the Agency has had to move funding from 
science and from exploration into the Space Shuttle program. We 
understand that this shortfall is a result of miscalculations in costs 
for return-to-flight activities and operations for the Shuttle through 
its retirement in 2010--and exacerbated by the hurricane related costs. 
These miscalculations were not made on Dr. Griffin's watch, yet must be 
resolved.
    Hurricane Katrina's destructive path through the Gulf Coast left 
NASA with $760 million in damage to its Stennis Space Center and 
Michoud Assembly Facility. Recognizing the severity of this situation 
and its implications on the Agency's already strained budget, Members 
of this committee urged the Administration and Appropriators to 
increase recovery funds for NASA in the December supplemental. While 
the $349 million that was included in the final package was an increase 
from the President's request of $325 million, the discrepancy only 
added more pinch to the already tight squeeze on the budget.
    So this leaves us with the Fiscal Year 2007 budget request for 
NASA. The Agency did receive a 3.2 percent increase over the FY 2006--
or a 1.5 percent increase when including Katrina funding in Fiscal Year 
2006--it is not enough to fully fund all the sectors of the Agency as 
everyone on this dais would like to see them budgeted.
    Dr. Griffin, I know that hard decisions have had to be made. The 
Agency has made some really difficult choices to keep the Exploration 
programs optimally funded so that our nation can move to a Crew 
Exploration Vehicle; to assure the safety of the Shuttle program; to 
meet the obligations of our agreements with the partners of the 
International Space Station; to have our Science programs working on an 
exciting, balanced program; and to have our Aeronautics programs 
producing forward-looking research and technology that will keep our 
nation globally competitive.
    I congratulate you on putting together a finely-tuned budget 
request. It is a much stronger budget than we have had in the past with 
the number of ``placeholders'' that we were given.
    One of the areas that is critical for you to address--as I know you 
are aware--is to get NASA's financial house in order. As I have 
mentioned before, as a businessman, if I tried to run a business 
without a credible accounting system, it would be a disaster waiting to 
happen. In all areas of your President's Management Agenda ratings, 
NASA is flying high-except in the financial management area. I know 
that you have made improvements and have provided leadership in this 
area, but improvements must be shown as soon as possible.
    Now that the NASA Authorization Act of 2005 has been signed into 
law, we look forward to working with you to get the information that we 
need to have more effective and productive oversight. With the 
Administration proposing its Competitiveness Initiative, I look forward 
to working with you to assure that NASA is contributing to this 
important national objective.
    I know that the United States is beginning its long journey back to 
the Moon and then on to Mars trough the Exploration program, but I 
worry that we are not taking these challenges from other nations 
seriously. The United States must maintain its global position.
    We have heard that India is preparing for a lunar orbital mission 
in 2007; Japan plans to send a robotic rover to the Moon by 2013, and 
the European Space Agency has a probe that is orbiting the Moon. 
Although these countries are talking about sending people to the Moon, 
only two--the United States and China--have set dates for manned lunar 
landings. NASA is hoping to schedule its first manned mission in about 
2018; China is heading for a landing as early as 2017.
    While this is generally a lean budget year, we must maximize every 
penny to keep our great nation competitive. I look forward to hearing 
from you, Administrator Griffin and Deputy Administrator Dale, on your 
plans to move forward with the FY07 budget request for NASA.

    Chairman Boehlert. Thank you, Mr. Chairman, and thank you 
very much for your outstanding leadership on the Subcommittee.
    The Chair is pleased to recognize the Ranking Member on the 
Subcommittee on Space and Aeronautics, Mr. Udall.
    Mr. Udall. Mr. Chairman, thank you. Good morning. I, too, 
want to join my colleagues in welcoming the Administrator and 
the Assistant--Deputy Administrator, Shana Dale.
    I want to thank you all for coming in and visiting with me. 
I look forward to conversations in the future, as we exchange 
views. Let me just start by saying that the fiscal year 2007 
budget clearly represents a good faith effort by Dr. Griffin to 
construct a viable set of programs within the constraints he 
has been given. That is the good news.
    The not so good news is that this budget request contains 
cuts and cancellations that will do real damage, both in the 
near-term and for years to come. I wanted to mention just a few 
items in that regard. I believe that the aeronautics 
activities, particularly the R&D area of NASA are very 
important to our quality of life and our competitiveness, yet 
this budget request ignores the direction of last year's 
appropriations and authorization legislation, and continues to 
put NASA's aeronautics program on a downward funding spiral. It 
makes a virtue of a shrinking budget by stressing its 
commitment to fundamental aeronautics research at the expensive 
of any meaningful NASA role in supporting more advanced R&D.
    Just one example of what is going on in this budget 
request. Although NASA has pledged to support the Joint 
Planning and Development Office in developing the next 
generation air traffic management system, this budget request 
would cut the funding for air traffic management R&D from $146 
million to--in fiscal year 2006--to $71 million in fiscal year 
2011. That is, it would cut the funding in half. That makes 
little sense to me. The situation facing the space and Earth 
sciences is equally troubling. More than a billion dollars was 
removed last year from the budgetary runout for space and Earth 
science that had been in the fiscal year 2005 NASA outyear 
budget plan. An additional $3 billion is removed from the 
runout in this year's budget request. So, just two years after 
Science Advisor Marburger lauded the robust science program 
that would be undertaken if the Exploration Initiative were 
approved, we have seen more than $4 billion taken out of NASA's 
space and Earth science accounts.
    One of the most inexplicable aspects of those cuts is 
NASA's plan to cut between $350 to $400 million from the 
research and analysis funding over the next five years. As we 
all know, that is the funding that helps develop the next 
generation of scientists and engineers at our nation's 
universities. I am puzzled that the same Administration that 
announced its American Competitiveness Initiative with such 
fanfare would turn around and cut research funding important to 
our universities' educational and research missions.
    And of course, the fiscal year 2007 budget request would 
continue the dismantling of NASA's life and microgravity 
research programs. Coupled with the cuts to NASA's long-term 
technology programs, the effective elimination of life and 
microgravity science programs is a troubling indicator of an 
agency being forced to eat its seed corn to address near-term 
funding issues, and in the process, weaken NASA's ability to 
achieve the Nation's long-term exploration objectives.
    Mr. Chairman, in that regard, I would like to ask unanimous 
consent that a statement by the Exploration, Life, and Medical 
Sciences be entered into the record of this hearing.
    Chairman Boehlert. Without objection, so ordered. All your 
eloquent words will be entered into the record.
    Mr. Udall. I appreciate the Chairman's tolerance.
    In closing, I want to reiterate that we, Congress and the 
White House, need to take the time to get it right, whether we 
are talking about NASA's human space flight, science, or 
aeronautics programs, and we need to be willing to pay what it 
takes to get it right, or not do it at all.
    Thank you, Mr. Chairman, and I yield back any time I have 
remaining.
    [The prepared statement of Mr. Udall follows:]

            Prepared Statement of Representative Mark Udall

    Good morning. I'd like to join my colleagues in welcoming 
Administrator Griffin and Deputy Administrator Dale. I enjoyed our 
recent conversation, and I look forward to more opportunities to 
exchange views.
    Given the interest of all of us in hearing from the Administrator, 
I'll be brief in my opening remarks.
    I would simply say that I believe the FY 2007 NASA budget request 
represents a good-faith effort by Dr. Griffin to construct a viable set 
of programs within the constraints he has been given. That's the good 
news.
    The ``not-so-good'' news is that this budget request contains cuts 
and cancellations that will do real damage both in the near term and 
for years to come.
    Let me mention just a few items.
    You may be aware of my interest in NASA's aeronautics programs and 
my belief that NASA's aeronautics R&D activities are vitally important 
both to our quality of life and our competitiveness. Yet this budget 
request ignores the direction of last year's appropriations and 
authorization legislation and continues to put NASA's aeronautics 
program on a downward funding spiral.
    It makes a virtue of a shrinking budget by stressing its commitment 
to ``fundamental aeronautics research'' at the expense of any 
meaningful NASA role in supporting more advanced R&D.
    Just one example of what is going on in this budget request:

    Although NASA has pledged to support the Joint Planning and 
Development Office (JPDO) in developing the next generation air traffic 
management system, this budget request would cut the funding for air 
traffic management R&D from $146.4 million in FY 2006 to $71.7 million 
in FY 2011--that is, it would cut the funding in half! That makes 
little sense to me.

    The situation facing the space and Earth sciences is equally 
troubling. More than a billion dollars was removed last year from the 
budgetary runout for space and Earth science that had been in the FY 
2005 NASA outyear budget plan. An additional $3.1 billion is removed 
from the runout in this year's budget request.
    So just two years after OSTP director Marburger lauded the 
``robust'' science program that would be undertaken if the exploration 
initiative were approved, we have seen more than $4 billion taken out 
of NASA's space and Earth science accounts.
    One of the most inexplicable aspects of those cuts is NASA's plan 
to cut between $350 to $400 million from research and analysis funding 
over the next five years. As you may know, that is the funding that 
helps develop the next generation of scientists and engineers at our 
nation's universities.
    I am puzzled that the same Administration that announced its 
American Competitiveness Initiative with such fanfare would turn around 
and cut research funding important to our universities' educational and 
research missions. And of course, the FY 2007 budget request would 
continue the dismantling of NASA's life and microgravity research 
programs.
    Coupled with the cuts to NASA's long-term technology programs, the 
effective elimination of NASA's life and microgravity science programs 
is a troubling indicator of an agency being forced to ``eat its seed 
corn'' to address near-term funding issues--and in the process, weaken 
NASA's ability to achieve the Nation's long-term exploration 
objectives.
    In that regard, I would like to ask unanimous consent that a 
statement by the Exploration Life and Medical Sciences be entered into 
the record of this hearing. [See Appendix 2: Additional Material for 
the Record.]
    In closing, I want to reiterate that we--Congress and the White 
House--need to take the time to ``get it right,'' whether we are 
talking about NASA's human space flight, science, or aeronautics 
programs.
    And we need to be willing to pay it takes to ``get it right''--or 
not do it at all. Thank you, and I yield back the balance of my time.

    [The prepared statement of Mr. Ehlers follows:]
         Prepared Statement of Representative Vernon J. Ehlers
    I understand that the budget request for NASA reflects some very 
difficult funding decisions. In order to align the agency with the 
President's challenge to travel to the Moon and Mars, NASA has 
reorganized and streamlined its structure again this year under new 
Administrator Griffin. Despite a 3.2 percent requested increase in FY 
2007, in order to fund the next generation human space vehicle and to 
retire the Shuttle by 2010, $1.5 billion has been transferred from the 
science mission budget at NASA. At this time, NASA has been forced to 
prioritize the completion of the International Space Station and the 
development of the Crew Exploration Vehicle above the science missions.
    While I realize that the impacts of unanticipated budget 
constraints--on the order of $3 to $5 billion--have been felt across 
the entire agency, I remain concerned that we will finance the return 
to the Moon and travel to Mars at the cost of other critical scientific 
discovery. Basic science and engineering research underpin all of 
NASA's major accomplishments as well as many of the technologies you 
and I use everyday. Furthermore, basic research at NASA will support 
the future exploration endeavor; if we continue to reduce basic 
research in the outyears, our astronauts will be implementing the 
Vision with outdated technology, or the implementation will be delayed.
    I know that Administrator Griffin is committed to balancing all of 
these priorities and look forward to working with him and the Committee 
to do so. However, I continue to be skeptical about the path and 
timeline being followed, especially in view of the limited funding 
available at this time.

    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank Administrator Griffin for appearing 
before our committee to discuss the NASA's FY07 budget proposal. 
Today's hearing serves as an opportunity for oversight of certain 
departmental programs.
    NASA continues to be our gateway to the universe. It is through 
NASA's efforts that we will understand our planet, our solar system and 
beyond. NASA's budget should reflect a strong commitment to, and 
emphasis on, continuing to build the Agency's core foundation of 
aeronautics and aerospace research and development as well as its 
missions of exploration and discovery to educate and inspire.
    There are two points implicit in the FY07 budget request. First, 
this budget request confirms suspicions that the ``affordable and 
sustainable'' Vision for Space Exploration (VSE) presented by the 
President in 2004 was based on assumptions and budgetary planning that 
were not realistic. In the two years since the President announced his 
Vision for Space Exploration the White House has sent three NASA budget 
requests to Congress. The first of those budget requests (FY05) laid 
out a multi-year funding plan for NASA that the Administration said 
would demonstrate the affordability and sustainability of the 
President's initiative. However, last year the Administration sent over 
an FY06 budget request that under-funded NASA by more than a half-
billion dollars relative to what it had said NASA would need. This year 
the Administration has submitted an FY07 budget request that cuts NASA 
programs by over a billion dollars, despite the growth in the cost 
estimates for Shuttle Return-to-Flight, the International Space Station 
(ISS), and the James Webb Space Telescope, and the desire to accelerate 
the development of the Crew Exploration Vehicle.
    The Administration has argued that the exploration initiative will 
be carried out on a ``go as you can pay'' basis, but it is unclear how 
such an approach would work once large procurement contracts have been 
awarded. Further, I am concerned that delays in program execution 
likely would lead to significant cost growth due to the ``standing 
army'' costs of the contractor and civil service workforce.
    Second, the FY07 budget continues to shift a significant amount of 
funding from science and aeronautics to human space flight (Shuttle, 
ISS, and Exploration). However, it is unsettling to learn that even 
that shift in funding has not helped NASA prioritize or narrow the 
scope of what it seeks to accomplish within the VSE. As a result, there 
is a sizable reduction in the funding for research and development into 
advanced technologies, such as nano-materials and electronics, 
intelligent robotic systems, flight experiments for technology 
validation, and nuclear power and propulsion, that could support 
longer-term exploration goals.
    The President's exploration initiative continues to move forward 
with a high price tag, but should not come at the cost of our 
commitment to our children, our veterans, our seniors, and our other 
important domestic priorities. The federal deficit for 2006 will be a 
record $377 billion and the case is going to have to be made to this 
committee and the American people why the space exploration initiative 
should be supported in the face of that deficit.
    I welcome our witnesses and look forward to their testimony.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman and Ranking Member.
    I welcome Administrator Griffin to today's hearing on the NASA 
budget for fiscal year 2007.
    NASA is important to Texas.
    The space and aeronautics research and other related research have 
touched Americans' everyday lives like few other federally-funded 
initiatives.
    However, I am concerned that the President's plans for space 
exploration are hurting aeronautics and Earth science research.
    Frequently-shifting priorities have led to the decision to transfer 
$3.1 billion from the space and Earth sciences over the next five 
years, to severely cut funding for International Space Station 
research, to continue to cut aeronautics funding, and to cut $4.6 
billion from NASA's exploration technology research program.
    I believe that NASA is a good agency, and it has my support and 
admiration for the fruits of its research over the years.
    It is my hope that the Administration will enact a sensible budget 
that places strong emphasis on technology, aeronautics and Earth 
sciences. Investment in these areas creates jobs here on Earth.
    Thank you, Mr. Chairman. I yield back.

    [The prepared statement of Mr. Honda follows:]

         Prepared Statement of Representative Michael M. Honda

    I thank Chairman Boehlert and Ranking Member Gordon for holding 
this important hearing today, and I thank our distinguished witnesses 
for making the time to be here.
    I remember when Administrator Griffin said that the President's 
space exploration program would not cost science a thin dime, and 
looking at this budget, I have to marvel at how things have changed. 
The future of scientific activities within NASA, be it the science that 
falls within the Science Mission Directorate or that which supports 
exploration within the Exploration Systems Mission Directorate, looks 
bleak.
    The list of things that are going away is long. The Deep Space 
Climate Observatory, which contributes not only to climate and climate 
change research but also to our understanding of the solar wind, which 
will have significant impacts on humans taking part in a mission to 
Mars. The Stratospheric Observatory for Infrared Astronomy (SOFIA), 
which successfully passed what amounted to three termination reviews in 
the Fall of 2004. And the Explorer Program, where missions like the 
NuSTAR Explorer face termination.
    These are but a few of the programs that this budget shortchanges, 
all in the name of extending tax cuts for the wealthiest Americans. At 
a time when the President is hyping a competitiveness initiative and 
trying to attract students to science and engineering, NASA is sending 
the message that it is an unreliable partner to the research and 
university communities, driving potential students away from fields 
that they cannot trust will still be viable in the coming years.
    We have had this debate before, and unfortunately it looks like we 
will be having it again. I just don't agree with the short range view 
you are taking to implementing a very long range program, where you are 
setting aside the work that will be essential to our understanding of 
what will be needed for humans to survive a trip to Mars. You say you 
want to get on with the business of building the Crew Exploration 
Vehicle, but I just don't see how you can design it properly if you 
don't know what systems are going to be needed to sustain those 
astronauts it will be carrying. And if your answer is that we are just 
rushing to build a vehicle to get to the Moon, and we know what it will 
take to get people there and back, then I have to ask, is all of this 
investment worth it to replicate what we were able to do over 35 years 
ago?

    [The prepared statement of Mr. Davis follows:]

           Prepared Statement of Representative Lincoln Davis

    Good morning. Thank you, Mr. Chairman and Ranking Member, for the 
opportunity to discuss the current status of NASA. Thank you, 
Administrator Griffin, for your presence today.
    I think we can all agree that NASA has provided the United States 
with invaluable research over the years. The scientific information 
NASA has provided, has advanced our country in every aspect. We can see 
the results of this research in our homes, in our cars, at work, and in 
our everyday lives. It could be argued that NASA and its scientific 
breakthroughs is one of the biggest reasons why our country is where it 
is today.
    With that in mind I believe we are at a turning point with NASA and 
its programs. At a time when the United States has seen a decline in 
research dollars and a decline in students studying math and sciences 
at our universities we are at a great risk of losing our scientific 
advantage over other nations. It is my hope that the programs operating 
in NASA will solve these issues. However, I do not see how NASA can 
expect to do all of this with a smaller budget in the coming years.
    In and around my district there are several facilities such as NASA 
Marshall Space Center and Arnold Air Force Base that benefit from NASA 
programs, so you can image why I am concerned about the White House's 
proposed budget for NASA. It is my hope that today's hearing will give 
us insight into how NASA is going to operate during these times of 
shrinking budgets.
    Mr. Chairman, thank you and I yield back the balance of my time.

    Chairman Boehlert. Thank you very much, and now, to our 
distinguished witnesses, the Administrator of NASA, the 
Honorable Michael Griffin, and the Deputy Administrator, an 
alum of this prestigious committee, the Honorable Shana Dale.
    Mr. Administrator, you are up.

 STATEMENT OF DR. MICHAEL D. GRIFFIN, ADMINISTRATOR, NATIONAL 
AERONAUTICS AND SPACE ADMINISTRATION; ACCOMPANIED BY HON. SHANA 
  DALE, DEPUTY ADMINISTRATOR, NATIONAL AERONAUTICS AND SPACE 
                         ADMINISTRATION

    Dr. Griffin. Thank you. Thank you, sir. Actually, Shana, I 
think I have a pressing engagement. Do you think you could take 
this hearing? There might be somewhere else I would rather be.
    With that aside, sir, good morning, Chairman Boehlert, 
Ranking Member Gordon, Members of the Committee. Deputy 
Administrator Shana Dale and I are before you today to present 
NASA's Fiscal Year 2007 budget and answer questions like you 
have asked about how NASA is implementing the priorities of the 
President and the Congress within the resources provided.
    Let me thank this committee, especially Chairman Boehlert, 
Ranking Member Gordon, as well as Congressmen Calvert and 
Udall, the Subcommittee Chair and Ranking Member, for your 
leadership in shepherding through Congress the NASA 
Authorization Act of 2005. This seminal endorsement of the 
Vision for Space Exploration will help us to sustain this 
journey, fulfilling our commitments with the International 
Space Station, retiring the Shuttle in 2010, developing the 
Crew Exploration Vehicle to journey to the Moon, Mars, and 
beyond. We are now poised to carry out a balanced portfolio of 
space exploration, scientific discovery, and aeronautics 
research. We must balance these competing interests of time, 
resources, and energy within the budget provided, so setting 
priorities is vitally important.
    The President's budget request for NASA is $16.8 billion in 
Fiscal Year 2007. This is a 3.2 percent increase over the 2006 
appropriation, not counting our emergency supplemental for 
Hurricane Katrina recovery at NASA's Michoud and Stennis 
facilities. This request demonstrates the President's 
commitment to carrying out the Vision for Space Exploration, 
and the more so in view of all the other pressures on the 
Federal Government.
    Our budget is roughly seven tenths of a percent of the 
overall federal budget, and it is a modest investment that our 
nation can afford. Formulating a budget requires discipline, 
making difficult decisions based on the best facts and analysis 
available, and one very plain fact is that we cannot afford to 
do everything that each of our constituencies would like us to 
do. The President and Congress have set those priorities, and 
we at NASA have adjusted our plans to match them within the 
resources provided. At the same time, we must leverage the 
investment of others, government agencies such as National 
Science Foundation, Department of Defense, as well as those of 
other spacefaring nations with whom we have common interests, 
and commercial industry.
    We are applying lessons from what has worked and what has 
not in managing our programs. We are applying the lessons 
learned in how to conduct aeronautics research from the 
National Advisory Committee on Aeronautics, NASA's predecessor, 
in the '40s and '50s, and NASA itself in the '60s and '70s. We 
are applying lessons from NASA's Apollo program. There are many 
fundamental questions to be answered in the aeronautical 
sciences, that must be answered to benefit the American public. 
Our aeronautics research efforts, funded at $724 million in 
Fiscal Year 2007, will return us to our roots, mastering the 
intellectual stewardship of subsonic, supersonic, and 
hypersonic flight.
    While some vested interests will focus solely on the budget 
for aeronautics, it is more important to focus on the desired 
outcomes from this research, and how it benefits the public, by 
supporting a broadly-based community of researchers. I have 
also adapted the management model of the Apollo era to 
establish clear lines of reporting for NASA's mission 
directorates and our ten field centers. We have many challenges 
in the Agency, but none are more important than the technical 
excellence of our workforce in carrying out NASA's missions.
    The challenge of the Apollo era is not one whit less 
daunting than that of our own. Friends of mine from that era 
have opined that space station assembly is even more complex 
than an Apollo mission. Completing the International Space 
Station, retiring the Shuttle by 2010, managing the effective 
transition from the Shuttle to the new Crew Exploration and 
Crew Launch Vehicles, are fully the equal of the tasks which 
were set before any earlier generation. So, while we have our 
hands full, this budget provides the necessary resources to 
achieve these objectives.
    I understand that many of you will question whether NASA 
has the wherewithal to carry them out. I believe we can. I 
believe that we can demonstrate that our nation will keep its 
commitments to our partners on the International Space Station 
project through thick and thin, so that they will join us for 
future exploration endeavors. By completing the ISS, we can 
finally achieve the research objectives for this facility.
    This budget provides the resources to bring the Crew 
Exploration and Crew Launch Vehicles online by 2014, and 
potentially sooner. The budget also provides the funds 
necessary to conduct a fifth and final servicing mission to the 
Hubble Space Telescope with the Space Shuttle. The decision to 
carry out this mission will be made after we have the results 
from the next Shuttle test flight, STS-121, commanded by 
Colonel Steve Lindsey. This budget provides $5.3 billion for an 
armada of Earth and Space Science missions to explore the 
universe with telescopes more advanced than Hubble, with 
satellite probes of our Solar System like Deep Impact, 
Messenger, the Mars Rovers, Spirit and Opportunity, and with 
Earth Science missions for global climate research, weather 
prediction, and land resource use.
    However, we simply cannot afford all of the missions that 
our scientific constituencies would like us to sponsor. My 
decision to slow the rate of growth for NASA's Science missions 
in order to pay for the Space Shuttle and Space Station budget 
shortfall should not be taken to indicate a lack of 
appreciation for the world-class achievements of NASA's Science 
missions. It is simply a matter of timing and resources. NASA's 
Science program remains one of our nation's greatest 
achievements. We are a world leader, with 54 satellites and 
payloads currently operating, in concert with the science 
community and our international partners. Our science portfolio 
remains robust. In fact, NASA's science budget has grown more, 
as a percentage of the Agency's budget, than has NASA's top 
line grown over the past 15 years. In 1992, the Science budget 
was 24 percent of the NASA budget. Today, the Science budget is 
32 percent of the Agency's budget. Within the NASA top line, 
Science has grown by fully one-third of its base 15 years ago.
    Over the next several years, we are simply moderating that 
rate of growth for Science, and especially so at a time when 
overall non-defense discretionary spending in the Federal 
Government is actually a half a percent lower than last year. 
Just as NASA's exploration mission is a go as you can afford to 
pay strategy, so, too, must NASA's Science missions be go as 
you can afford to pay. We are delaying some missions, but we 
are not abandoning them.
    At the same time that we are servicing Hubble, and 
developing the James Webb Space Telescope and other missions, 
NASA cannot afford a robust budget for other astronomy missions 
like the Space Interferometry Mission or Terrestrial Planet 
Finder, or a satellite mission to Jupiter's moon Europa. We 
plan to do these missions, but not just now.
    I truly wish that it could be otherwise, but there is only 
so much money. We must set priorities. This is a once in a 
generation or more transition period from Shuttle to CEV. I 
believe that it would be strategically more damaging to our 
nation to delay any further the development of the CEV than it 
would be to delay these Science missions. This is a judgment to 
be made carefully, and I believe that I have done that. We have 
established the best possible balance within our overall 
portfolio for the next few years, and we need your help to 
maintain it. If we cannot maintain this priority, we will 
further extend the gap between Shuttle retirement and CEV 
capability. This will increase the risk and the overall cost of 
bringing new systems online, helping to create a self-
fulfilling prophecy of not being able to manage our programs 
within budget.
    As a younger engineer in this business, I lived through a 
six year gap in human space flight, between the end of Apollo 
and the first Shuttle flight in 1981. I know firsthand that our 
nation's space program suffered from this loss of critical 
expertise. Some capabilities withered, and some died. We must 
not repeat this mistake again.
    Chairman Boehlert, your words of concern about sacrificing 
capabilities in Space Science, I could change those words, I 
could substitute the nouns and leave the verbs the same, and I 
would have exactly the same concerns about an extended gap in 
human space flight. Our human space flight program is not an 
optional program. We are already strained to the limit.
    Moreover, the U.S. risks both a real and a perceived loss 
of leadership on the world stage, if we are unable to launch 
our own astronauts into space for an extended period of time, 
when other nations possess their own capabilities to do so. Put 
simply, human space flight is one of those strategic 
capabilities that in the 21st Century, define a nation as a 
superpower. An extended gap in U.S. human space flight 
capability also increases the risk that we will not be able to 
maintain the International Space Station, which requires 
capability beyond that presently available to our international 
partners or with commercial capability.
    Again, I understand these are difficult decisions that 
require a very careful balance of priorities and resources. I 
stand by the approach we have presented. We are implementing 
the priorities of the President and the Congress within the 
resources provided in the budget.
    Mr. Chairman, America is a frontier nation. We at NASA 
carry on that heritage through our journeys into space, and 
exploration of the cosmos is the most technically challenging 
thing that any nation can do. This is rocket science, and 
America, through NASA, must lead the way.
    I would like now to turn it over to Shana. She has some 
comments about the reforms underway within NASA and her recent 
discussions with some of our international partners. Thank you 
for your time.
    [The prepared statement of Dr. Griffin follows:]

                Prepared Statement of Michael D. Griffin

    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to appear today to discuss NASA's plans as represented in 
the President's FY 2007 budget request for NASA. I will outline the 
highlights of our budget request and discuss the strategic direction 
for NASA in implementing the priorities of the President and Congress 
within the resources provided. The President's FY 2007 budget request 
for NASA of $16,792 million demonstrates his commitment to the Vision 
for Space Exploration and our nation's commitment to our partners on 
the International Space Station. The FY 2007 budget request is a 3.2 
percent increase above NASA's FY 2006 appropriation, not including the 
$349.8 million emergency supplemental for NASA's recovery and 
restoration efforts following Hurricane Katrina. However, let me put 
NASA's budget into perspective. NASA's budget is roughly 0.7 percent of 
the overall federal budget. This is a prudent investment to extend the 
frontiers of space exploration, scientific discovery, and aeronautics 
research. With it, we enhance American leadership, our safety and 
security, and our global economic competitiveness through the 
technological innovations stemming from our space and aeronautics 
research programs. Our nation can afford this investment in NASA.
    On January 14, 2004, President George W. Bush announced the Vision 
for Space Exploration to advance U.S. scientific, security, and 
economic interests through a robust space exploration program. NASA is 
grateful to the Congress for endorsing this Vision last December in the 
NASA Authorization Act of 2005 (P.L. 109-155) as well as providing 
guidance and expectations for us in carrying out the Agency's missions 
of space exploration, scientific discovery, and aeronautics research. 
To that end, NASA is implementing the priorities of the President and 
Congress within the resources available. NASA's Strategic Plan and FY 
2007 Congressional Budget Justification, provided to the Congress last 
week, reflect those priorities and describe how NASA is implementing 
those policies into practice describing our programs, projected 
resources, and workforce needs.

Implementing the Vision

    Later this year, NASA will continue the assembly of the 
International Space Station (ISS) with the minimum number of Space 
Shuttle flights necessary to fulfill our commitments to our 
international partners before the Shuttle's retirement in 2010. With 
the commitment of resources in the President's budget, my hope is that 
our international partners will view NASA and the United States as good 
partners through thick and thin and will team with us in future 
endeavors of space exploration and scientific discovery. NASA has 
consulted with our international partners on the configuration of the 
International Space Station, and is working closely with them to 
determine the crew size and logistics necessary during and after 
assembly. The FY 2007 budget request provides the necessary resources 
to purchase Soyuz crew transport and rescue for U.S. astronauts as well 
as minimal Progress vehicle logistics support for the International 
Space Station from the Russian Space Agency. Likewise, the FY 2007 
budget request provides necessary funds for U.S. commercial industry to 
demonstrate the capability to deliver cargo and/or crew to the 
International Space Station. If such cost-effective commercial services 
are successfully demonstrated, NASA will welcome and use them.
    The next return to flight test mission, STS-121 commanded by 
Colonel Steve Lindsey, will help us determine whether we can safely 
return the Space Shuttle to its primary task of assembling the 
International Space Station. We continue to develop a fix to eliminate 
the risk associated with the release of foam debris from the liquid 
oxygen protuberance air load ramp. We are continuing to work towards 
the May launch window. The next available window is in July. NASA will 
launch when we are ready. Pending the results of this test flight, I 
plan to convene my senior management team for space operations as well 
as my Chief Safety and Mission Assurance Officer and my Chief Engineer 
in order to determine whether the Space Shuttle can safely conduct the 
remaining ISS assembly missions as well as a fifth servicing mission to 
the Hubble Space Telescope in 2007-08. NASA's FY 2007 budget provides 
the necessary resources to conduct this mission.
    In previous budget requests, NASA reported only placeholder budget 
estimates for the Space Shuttle for FY 2008-10. The Agency's management 
focus on return-to-flight efforts of the Space Shuttle resulted in NASA 
deferring this analysis until the FY 2007 budget. As I testified to 
this committee, NASA's estimates of the budget shortfall required to 
safely fly out the Space Shuttle with the minimum number of flights 
necessary to complete ISS assembly and meet our international partner 
commitments were $3-$5 billion. With the FY 2007 budget runout, NASA 
has added $2.4 billion to the Space Shuttle program and almost $1.5 
billion to the international Space Station in FY 2008-10 compared to 
the FY 2006 budget runout. There is no ``new money'' for NASA topline 
budget within the budget projections available given our nation's other 
pressing issues, so working with the White House, NASA provided 
sufficient funds for the Space Shuttle and ISS programs to carry out 
their missions by redirecting funds from the Science and Exploration 
budgets.
    There are several strategic implications behind this decision. 
Foremost among them is that our nation will keep its commitment to our 
international partners on the International Space Station and maintain 
goodwill with them. Thus, with limited resources, we need to make some 
difficult decisions. Leadership means setting priorities of time, 
energy, and resources, and I have tried to make these decisions with 
the best available facts and analysis. As I have previously stated to 
this committee, the plain fact is that NASA simply cannot afford to do 
everything that our many constituencies would like the Agency to do. We 
must set priorities, and we must adjust our spending to match those 
priorities. NASA needed to take budgeted funds from the Science and 
Exploration budget projections for FY 2007-11 in order to ensure that 
enough funds were available to the Space Shuttle and the ISS. Thus, 
NASA cannot afford the costs of starting some new space science 
missions, like a mission to Jupiter's moon Europa, or the next-
generation space astrophysics missions beyond the James Webb Space 
Telescope, at this time. It is important to know that NASA is simply 
delaying these missions, not abandoning them. NASA will still proceed 
with the Space Interferometry Mission and the Global Precipitation 
Measurement Mission, as well as conduct a mission to Europa. However, 
with the limited resources available, I believe that fulfilling our 
commitments on the International Space Station and bringing the Crew 
Exploration Vehicle (CEV) online in a timely manner, not later than 
2014 and possibly much sooner, is a higher priority than these science 
missions during this period.
    There are several reasons not to delay the CEV further. First and 
foremost is increased risk to the Vision due to an extended gap in our 
nation's ability to launch humans into space. I lived through the gap 
in human space flight between the end of the Apollo program to the 
first flight of the Shuttle in 1981, and I know firsthand that our 
nation's space program suffered greatly from the unintended loss of 
critical expertise. Our nation's space industrial base withered. A 
longer gap in U.S. human space flight capabilities will increase risk 
and overall costs and lead to even more delays. In addition, the U.S. 
may risk a perceived, if not a real, loss of leadership in space 
exploration if we are unable to launch our astronauts into space for an 
extended period when other nations are establishing or building on 
their own abilities to do so. An extended gap in U.S. human space 
flight capabilities also increases our risk posture to adequately 
maintain and utilize the International Space Station. Further, unless a 
commercial capability arises to transport our astronauts, NASA would 
continue to be reliant on the Russian Soyuz.
    Thus, further delays in the CEV are strategically more damaging to 
our nation's space program than delays to these other science missions. 
I stand by my decision for how to implement the priorities of the 
President and Congress within the resources provided, and I will work 
closely with our stakeholders in Congress and the scientific community 
to make sure they understand my rationale. Some of our stakeholders may 
not agree with my position, but it is important for everyone to 
understand the rationale. These are difficult decisions, but we must 
balance the competing priorities for our nation's civil space and 
aeronautics research endeavors with the limited resources available.
    If the funds budgeted for Exploration Systems were to be used to 
provide additional funds for these Science missions, additional 
Aeronautics Research, or other Congressionally-directed items, I must 
advise the Congress that such redirection of already-budgeted funds 
will directly impact NASA's ability to safely, effectively, and 
efficiently transition the workforce and capabilities from the Space 
Shuttle to the new Crew Exploration Vehicle (CEV) systems. Funds 
available to carry out this transition are already lean, with little 
management reserve or margin for error. This transition from the 
Shuttle to the CEV is NASA's greatest management challenge over the 
next several years, and we will need everyone's help within NASA, 
industry, and our stakeholders to make the transition successful.
    Beyond fulfilling our existing commitment, NASA's FY 2007 budget 
provides the necessary resources to carry out the next steps of the 
Vision for Space Exploration. The FY 2007 budget provides $3,978 
million for Exploration Systems. Last summer, NASA defined the 
architecture for the exploration systems that will be necessary in 
carrying forth that Vision, and we notified the Congress of NASA's need 
to curtail several research and technology activities not directly 
contributing to the near-term priorities of timely development of the 
CEV and Crew Launch Vehicle (CLV) based on the results of that 
exploration architecture study and the limited funds available. I want 
to thank the Congress for its endorsement of the general architecture 
plans in the NASA Authorization Act of 2005 (P.L. 109-155) as well as 
the FY 2006 Appropriations Act for NASA (P.L. 109-108).
    The FY 2007 budget request is sufficient to bring the CEV online no 
later than 2014, and potentially much sooner. The Agency is continuing 
with its ``go-as-you-can-afford-to-pay'' strategy toward space 
exploration. NASA is currently seeking industry proposals for the CEV, 
and we have considerable incentives for an industry bidder to propose a 
planned development for the CEV as close to 2010 as possible. However, 
NASA cannot begin evaluating those proposals until next month, with a 
currently planned contract award in late summer/early fall 2006. NASA 
plans to select one industry contractor team for the design and 
development of the CEV. Concurrently, NASA will refine its independent 
cost estimates for the CEV and launch systems as well as find cost 
savings through workforce synergies and contract efficiencies between 
the Shuttle and CEV launch systems within the budget profile projected 
in FY 2007. We believe that synergies and contract efficiencies between 
subsystems, personnel, resources, and infrastructure can be found 
between the Space Shuttle propulsion elements and the CEV, CLV, and 
Heavy-Lift Launch Vehicle. I believe that with the FY 2007 budget, NASA 
and industry have a real opportunity to make the CEV operational much 
sooner than 2014. I should be able to report a more definitive date for 
bringing the CEV online by the time we award the CEV contract. Until 
then, NASA is in source selection for the CEV procurement, and we are 
limited in our ability to provide information in this competitive 
environment involving a multi-billion dollar procurement.
    For the CLV, NASA has funded two industry teams to begin initial 
development of the vehicle's propulsion systems and develop designs for 
the CLV upper stage; the Agency also plans to award design, 
development, test, and evaluation contracts later this year. NASA is 
planning a systems requirements review for this project in the fall 
with a preliminary design review in 2008 in order for this new launch 
vehicle to be ready for when the CEV comes on-line.
    While NASA needed to significantly curtail projected funding for 
biological and physical sciences research on the International Space 
Station as well as various research and technology projects in order to 
fund development for the CEV, the U.S. segment of the International 
Space Station was designated a National Laboratory in the NASA 
Authorization Act. Thus, NASA is seeking partnerships with other 
government agencies like the National Science Foundation, Department of 
Defense, Department of Energy, and the National Institute of Standards 
and Technology as well as the commercial sector to conduct research on-
board the ISS. However, the research utilization of the ISS is limited 
primarily due to limited cargo and crew transportation. Thus, NASA's 
investment to spur a commercial cargo and/or crew transportation 
service is even more compelling.

Scientific Discovery

    In 2005, NASA's science missions enjoyed a year of significant 
achievements. Deep Impact traveled 268 million miles to meet comet 
Tempel 1, sending its impactor to collide with the comet and providing 
researchers with the best-ever comet data and images. The Mars twin 
rovers continue studying the harsh Martian environment, well beyond 
their expected mission life. Cassini's Huygens probe successfully 
descended through the murky atmosphere of Saturn's largest moon, Titan, 
revealing some of its ``Earth-like'' features. The Mars Reconnaissance 
Orbiter successfully launched, and beginning in March 2006 will help us 
better understand the history of water on Mars. The Voyager I 
spacecraft entered the vast, turbulent expanse of the heliosheath, 8.7 
billion miles from the sun, where no human-made object has traveled 
before. The Hubble Space Telescope continues its successful mission of 
discovery and exploration. Among its many achievements was the 
discovery that Pluto may have three moons, offering more insights into 
the nature and evolution of the Pluto system and Kuiper Belt. Through 
coordination of observations from several ground-based telescopes and 
NASA's Swift and other satellites, scientists solved the 35-year-old 
mystery of the origin of powerful, split-second gamma-ray bursts. The 
Tropical Rainfall Measuring Mission provided data to aid our 
understanding of the changes inside a hurricane, helping scientists re-
create storms on computer forecast models, which can assist in the 
forecasting of future tropical cyclone transformations. And on January 
19, 2006, the New Horizons Mission successfully launched, beginning its 
nine year journey to Pluto. Truly a successful year of science 
achievements--a trend I expect to continue.
    NASA's FY 2007 budget request provides $5,330 million for the 
Agency's Science portfolio to explore the universe, solar system, and 
Earth. My decision to curtail the rate of growth for NASA's Science 
missions is not intended in any way to demonstrate a lack of respect 
for the work done by the NASA Science team. On the contrary, NASA's 
science missions remain one of the Nation's crowning achievements, and 
NASA is a world leader with 54 satellites and payloads currently 
operating in concert with the science community and our international 
partners. My decision to slow the rate of growth for NASA's Science 
missions is simply a matter of how the Agency will use the available 
resources within the overall NASA portfolio. In fact, the Agency's 
Science budget has grown much faster than NASA's total budget since FY 
1993. In 1992, the Science budget represented 24 percent of the overall 
NASA budget while today 32 percent of the Agency's budget is allocated 
to Science in FY 2007. NASA's Science budget is moderated to 1.5 
percent growth in the FY 2007 budget request compared with the amount 
appropriated for NASA in FY 2006 (in accordance with NASA's Initial 
Operating Plan provided to the Committee) and then one percent per year 
thereafter through FY 2011.
    In the FY 2007 budget, there are some additional budget shifts 
within the Science portfolio to rebalance the program to reflect our 
original science priorities and consistent with the FY 2006 Budget 
Amendment. Within the Science budget, the Solar System Exploration 
budget provides $1,610 million to fund missions to all solar system 
bodies, and to maintain the Deep Space Network. Mars exploration is 
kept at roughly its current level of funding which allows missions 
every 26 months when the Earth and Mars are in the proper alignment. 
Mars is and will continue to be the most thoroughly studied planet 
besides our own Earth. NASA continues a series of openly competed 
missions for Discovery, New Frontiers, and Scout missions to various 
planetary bodies in the solar system. Juno, a competitively-selected 
mission to study Jupiter, is slated to be the next New Frontiers 
mission, following the New Horizons mission on its way to Pluto after a 
successful launch in January.
    After an extensive review, NASA has extended the mission operating 
life of several Earth Science missions including TRMM and Terra, 
Heliophysics missions such as both Voyager spacecraft, and Astrophysics 
missions including Chandra and WMAP.

Aeronautics Research

    NASA's FY 2007 request for the Aeronautics Research Mission 
Directorate is $724 million. Proper stewardship of this funding 
requires a coherent strategic vision for aeronautics research, which we 
are working to develop. While I am concerned that our nation's aviation 
industry not lose market share to global competitors, NASA's research 
must benefit the American public by supporting a broad base of 
aeronautics research. NASA's aeronautics research cannot and will not 
directly subsidize work to specific corporate interests. There are 
fundamental questions in aeronautics research needing to be answered, 
and NASA will focus its aeronautics research on those issues. NASA will 
take responsibility for the intellectual stewardship of the core 
competencies of aeronautics for the Nation in all flight regimes, from 
subsonic through hypersonic flight. We will also conduct the 
fundamental research that is needed to meet the substantial challenges 
of the Next Generation Air Transportation System (NGATS), and we intend 
to work closely with our agency partners in the Joint Planning and 
Development Office (JPDO).
    Across our aeronautics portfolio, NASA is taking a long-term, 
strategic approach to our research plans to ensure that we pursue the 
cutting-edge across the breadth of aeronautics disciplines that will be 
required to support revolutionary capabilities in both air vehicles and 
the airspace in which they fly. NASA's commitment to technical 
excellence requires a commitment to rigor and discipline and will not 
focus on demonstrations that lack the traceability and scalability that 
are required for true scientific and engineering advancement. Hence, we 
are turning away from the four-demo approach proposed last year under 
the Vehicle Systems Program. Instead, our Fundamental Aeronautics 
Program will focus on fundamental research that addresses aeronautics 
challenges in areas such as aerothermodynamics, acoustics, propulsion, 
materials and structures, computational fluid dynamics, and 
experimental measurement techniques. The Fundamental Aeronautics 
Program will generate data, knowledge, and design tools that will be 
applicable across a broad range of air vehicles in subsonic (both fixed 
and rotary wing), supersonic, and hypersonic flight.
    In the Aviation Safety Program, NASA is taking a proactive approach 
to developing our strategic research plans, ensuring that the research 
conducted will lead to capabilities and technologies for improving 
safety consistent with the revolutionary changes anticipated in air 
vehicles foreseen in the future. The focus will be vehicle-centric, 
with areas of research that include vehicle health management, 
resilient aircraft control, aging and durability challenges, and 
advanced flight deck technologies.
    In the Airspace Systems Program, NASA will conduct the fundamental 
research required to bring about the revolutionary capabilities 
articulated in the JPDO's vision for the NGATS. Our research will focus 
on the development of future concepts, capabilities, and technologies 
that will enable major measurable increases in air traffic management 
effectiveness, flexibility, and efficiency.
    In addition to the Aeronautics Research Mission Directorate's three 
research programs, NASA is committed to preserving as national assets 
those aeronautics test facilities which are deemed mission critical and 
necessary to meet the needs and requirements of the Agency and the 
Nation. NASA has established the Aeronautics Test Program (ATP), a 
component of the Shared Capability Assets Program (SCAP), as a long-
term, funded commitment by NASA to retain and invest in test 
capabilities that are considered important to the Agency and the 
Nation. ATP's purpose is to ensure the strategic availability of a 
minimum, critical suite of wind tunnel and ground test facilities which 
are necessary to meet immediate and future national requirements.
    As part of our overall portfolio, NASA program managers and 
researchers will work closely and constructively with industry, 
academia, and other government entities to enhance our nation's 
aeronautics capability. In this vein, as a principal member of the 
interagency JPDO, NASA has established investment priorities that 
directly address the research and development needs of the NGATS which 
will enable major increases in the capacity and mobility of the U.S. 
Air Transportation System. NASA also plans to collaborate closely with 
industry and academia through the use of competitive research awards 
and Space Act agreements on prospective research work in line with the 
critical thrust areas of the Aeronautics program that will enable 
numerous commercial aviation and scientific applications. Our goal is 
to focus our total research investments on fundamental aeronautics 
questions that need to be answered, and that will benefit the broader 
community of academia, industry, and government researchers. The 
results from the research and technology developments achieved by 
NASA's Aeronautics program will be transitioned for use by both 
government and industry. Additionally, and in line with the refocused 
program's priorities, NASA will leave to others work more appropriately 
performed or funded by other agencies or the private sectors.
    In accordance with the NASA Authorization Act of 2005, NASA and the 
Office of Science and Technology Policy have been jointly developing a 
National Aeronautics Policy which will establish a long-term policy and 
guidance for future aeronautics research and development activities. 
This policy will establish the appropriate role for federal investment 
in U.S. aeronautics research: near- and far-term, high-priority 
objectives; roles and responsibilities of the multiple agencies 
involved; and, guidance on related infrastructure and workforce 
challenges.

Cross-Agency Support Programs

    In the FY 2007 budget, NASA proposes a new direct budget category 
for programs that cut across NASA's portfolio of space exploration, 
scientific discovery, and aeronautics research. These Cross-Agency 
Support Programs include: NASA's Education programs funded at $153.3 
million; Advanced Business Systems, or more commonly known as the 
Integrated Enterprise Management program, is called out as a separate 
program rather than being budgeted from within Corporate and Center 
General and Administrative accounts and is funded at $108.2 million; 
NASA's Innovative Partnership Program, including Small Business 
Innovation Research (SBIR) and Small Business Technology Transfer 
(STTR), has been transferred from Exploration Systems so that these 
partnerships may better address Agency-wide needs and is funded at 
$197.9 million; and the Shared Capabilities Assets Program is funded at 
$32.2 million (with additional funding located in the Mission 
Directorates) and will ensure that NASA's unique facilities (e.g., wind 
tunnels, rocket engine test stands, high-end computing, thermal vacuum 
chambers, and other capital assets) are adequately managed with agency-
level decision-making to address NASA's and our national needs.
    NASA's Education budget request sustains our commitment to 
excellence in science, technology, engineering and mathematics (STEM) 
education to ensure that the next generation of Americans can accept 
the full measure of their roles and responsibilities in shaping the 
future and meeting the workforce needs to implement the Vision for 
Space Exploration. NASA will continue to provide innovative programs 
that use STEM resources (NASA content, people and facilities) to 
inspire the next generation of explorers and innovators. I have 
outlined three primary goals for our education investments: (1) 
strengthening NASA and the Nation's future workforce; (2) attracting 
and retaining students in the STEM pipeline; and, (3) engaging 
Americans in NASA's mission. The greatest contribution that NASA makes 
in educating the next generation of Americans is providing worthy 
endeavors for which students will be inspired to study difficult 
subjects like math, science, and engineering because they too share the 
dream of exploring the cosmos. These students are our future workforce 
and our education investment portfolio is directly linked to our 
overall workforce strategy.

NASA Workforce Strategy

    The Vision for Space Exploration is a unique endeavor that will 
last many generations. The NASA management team has been working on the 
issues and means to build NASA as an institution having ten healthy 
field Centers known for technical excellence. We continue to define 
program management and research roles and responsibilities for each 
Center in order to carry out NASA's missions of space exploration, 
scientific discovery, and aeronautics research. All of our centers must 
contribute to NASA's primary missions. We are beginning the process of 
assigning specific research programs and projects to appropriate NASA 
Centers. We are not done, but we are taking steps in the right 
direction.
    We have many challenges in the Agency, but none more important than 
the technical excellence of NASA's workforce. Likewise, we are 
beginning to address the problems posed by the aging of NASA's 
facilities and physical assets. The overall objective is to transform 
the composition of NASA's workforce so that it remains viable for the 
long-term goals of NASA's missions. We have a lot of work cut out for 
us in the coming months and year ahead in assigning these program 
responsibilities and re-building the Agency's technical competence in 
performing cutting-edge work. NASA has been addressing the challenge of 
mitigating the number of civil servants in the field that are not 
currently assigned to NASA programs (the so-called ``uncovered 
capacity'') through a number of means recently addressed in a draft 
report shared with the Committee in compliance with the NASA 
Authorization Act of 2005. NASA will conduct a reduction in force of 
our civil servants only as an action of last resort consistent with our 
statutory constraints. Instead, NASA is focusing its efforts to solve 
its uncovered capacity workforce problems through a number of other 
actions, including the assignment of new projects to research Centers 
that will strengthen their base of in-house work, the Shared Capability 
Assets Program that should stabilize the skills base necessary for a 
certain specialized workforce; the movement of certain research and 
technology development projects from certain centers not suffering from 
uncovered capacity problems to centers that are; retraining efforts at 
field centers so that the technical workforce can develop new skills; 
and the pursuit of reimbursable work for projects and research to 
support other government agencies and the private sector through Space 
Act Agreements.

NASA's Financial Management

    NASA must accurately account for the taxpayer's money, and we must 
change the way we have done business in the past in order to achieve 
this goal. NASA continues to face significant challenges in improving 
the quality of its financial reporting. In order to address this, NASA 
developed a Corrective Action Plan based on the expert advice of NASA's 
Inspector General, the General Accountability Office, and a Senior 
Advisory Group composed of senior government executives from several 
federal agencies. Data reconciliation issues to the conversion from ten 
separate accounting and reporting systems to the Integrated Enterprise 
Management Program presented challenges in preparing the Agency's FY 
2003-FY 2005 financial statements. NASA is implementing an aggressive 
action plan to correct these deficiencies, and NASA senior management 
is regularly reviewing Agency progress on the corrective actions. 
Although these corrective actions will require some time to implement, 
NASA is committed to improving its financial reporting.

NASA's Neat Steps

    For over three decades, NASA and the Nation's human space flight 
program have been focused on the development and operation of the Space 
Shuttle and the Space Station. In its final report, the Columbia 
Accident Investigation Board (CAIB) was very forthright in its judgment 
that these goals are too limited to justify the expense, difficulty, 
and danger inherent to manned space flight, given the limitations of 
today's technology. The CAIB was equally forthright in calling for a 
national consensus in the establishment of a program having broader 
strategic goals. The Vision for Space Exploration is that endeavor. The 
Congress has endorsed it, the public supports it, and NASA is working 
to implement it. But to effect these changes, NASA must engage in a 
major transformation--taking the capabilities we have throughout the 
Agency and restructuring them to achieve a set of goals for the 21st 
Century that we have outlined earlier this month in our 2006 NASA 
Strategic Plan. This is an enormous challenge, but we have begun to 
transform our entire organization to foster these changes and to 
enhance a positive, mission-driven culture.
    The CAIB was also clear in its assessment that the lack of open 
communication on technical and programmatic matters was a direct cause 
of the loss of Columbia. We have understood and embraced this 
assessment, and are absolutely and completely committed to creating an 
environment of openness and free-flowing communication. However, NASA 
must still make improvements in its internal communications as well as 
our external communications with our stakeholders, the scientific 
community, and the public. We are making a concerted effort to address 
any problems in this area.
    For America to continue to be preeminent among nations, it is 
necessary for us also to lead in space exploration, scientific 
discovery, and aeronautics research. It is equally true that great 
nations need allies and partners. The spirit of innovation and muscle 
of government and industry are needed to turn the Nation's Vision for 
Space Exploration into reality. These journeys to the International 
Space Station, the Moon, Mars, or even Pluto are the most difficult 
things our nation does. June Scobee Rodgers, the widow of Dick Scobee, 
Commander of the Space Shuttle Challenger on that ill-fated day twenty 
years ago, recently noted, ``Without risk there's no discovery, there's 
no new knowledge, there's no bold adventure. . .the greatest risk is to 
take no risk.'' We must continue our journey. America, through NASA, 
leads the way.
    Once again, thank you for the opportunity to testify today. Mr. 
Chairman and Members of the Committee, I would be pleased to respond to 
any questions that you may have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Dale. Chairman Boehlert, Ranking Member Gordon, and 
other Members of the Committee, it is an honor to be back here 
in front of the Committee, among so many friends and 
colleagues. I look forward to working collaboratively and 
cooperatively with some of our most important stakeholders, and 
that includes the Members and staff of this committee.
    In working with Mike to establish and implement overall 
Agency objectives, one of my chief duties is to manage the 
institutional support offices of the Agency. Those offices are 
represented on the Agency's Operations Management Council, a 
body that I chair, and that is concerned with NASA's capital 
investments, human resource planning, budget guidance, and 
institutional policies.
    Part of that institutional responsibility is the Agency's 
workforce. I want to emphasize that we appreciate the guidance 
that was given to us in the NASA Authorization Act of 2005 to 
develop a human capital strategy, defining the workforce that 
the Agency will need through Fiscal Year 2011 to effectively 
implement the Vision. I am pleased to report that, pursuant to 
the requirements of the Act, we have shared our draft workforce 
plan with our union stakeholders. After this consultation, we 
will formally submit the plan to Congress. The plan identifies 
specific competency gaps and surpluses anticipated in NASA's 
civil service workforce between now and 2011. It also addresses 
the strategies that NASA is taking to respond to its most 
critical challenges, and outlines the Agency's recruitment and 
retention approaches.
    Addressing our future workforce is also a primary focus of 
NASA's Education programs. NASA's education portfolio is geared 
to engage students in NASA's science, aeronautics, and 
exploration missions, provide hands-on experience to educate 
these youths interested in STEM fields, and support the 
training of undergraduates, graduates, and faculty necessary to 
supply the workforce to achieve the Vision for Space 
Exploration.
    I am also working closely with our international partners 
to ensure that we meet our obligations on the International 
Space Station and other cooperative projects, and that we 
engage potential partners in the exploration of the Moon, Mars, 
and beyond. I was in Europe, and met with a number of the heads 
of space agencies last month, and I can tell you, based on 
these discussions, there is definitely interest on the part of 
future collaboration in the exploration mission.
    Mike and I are committed to not only strengthening the 
Agency's financial management, but also, the entire foundation 
that enables NASA to do its business. Our CFO has just approved 
an Agency Corrective Action Plan reviewed by NASA's Inspector 
General and OMB, which was delivered to your committee, I 
believe yesterday. We understand that our credibility in this 
area is particularly vital as we embark on complex projects.
    Thank you for your time today, and I look forward to your 
questions.

                               Discussion

    Chairman Boehlert. Thank you very much.
    Mr. Administrator, I think NASA is doing a better job than 
ever before in cost estimating, and your partner at the table 
is, in large measure, responsible for that. But still, new 
programs tend understandably to have cost increases, and in the 
case of the CEV, the current cost estimate has to be soft, 
because NASA hasn't heard yet from the contractors that develop 
the vehicles, so I have a few questions.

                   Accuracy of the CEV Cost Estimate

    First, what level of certainty can you put on the current 
CEV cost estimate, and how have you concluded the level of 
certainty? Just let me add that you said elsewhere, that first 
time development programs that have historically--have cost 
overruns of about 30 percent. How does your CEV estimate take 
into account that history?
    Dr. Griffin. Yes, sir. It is, and I would not want to be 
shot if I don't have this accurate to the second decimal place, 
but it is broadly true that in first time aerospace development 
programs, it might be said that the average program overruns by 
30 percent. So, if I could rephrase that, I would say you have 
a 50 percent chance of overrunning by 30 percent or more, and a 
50 percent chance of not overrunning by as much as 30 percent.
    We have in fact, this is not new, there is nothing I have 
said which is a surprise to anyone in the business--some years 
ago, in fact, this topic was a subject of discussion by a 
committee that the esteemed former NASA Center Director and 
Martin Marietta CEO Tom Young ran, and pointed out that 
government space acquisition programs in general, NASA, DOD, 
across the board, did not budget for adequate--did not have a 
history of adequately budgeting for cost growth.
    I believe that message was resoundingly heard throughout 
the community, and we have tried to react to it, so our budget 
for the CEV and for the exploration program generally, all new 
hardware, has been budgeted so that statistically, we believe 
we have a two out of three chance, and you appreciate it, all 
this is using backward-looking cost models. We cannot, of 
course, predict the future, but our backward-looking cost 
models would predict that we have a two out of three chance of 
underrunning, and a one of three chance in overrunning on all 
of our stuff, so we have budgeted at what I would call the 65 
percent confidence level.

               The Effects of CEV Costs on Other Programs

    Chairman Boehlert. The--our Authorization Act requires a 
report by April of this year on how different levels of 
spending on the CEV will affect other NASA programs, and you 
know of our interest on other NASA programs.
    Dr. Griffin. I do, sir.
    Chairman Boehlert. You think you are going to be able to 
make that deadline by April 1?
    Dr. Griffin. I don't think we will make the April deadline 
on how different levels of spending on the CEV will affect 
other programs. We will get it to you as soon as we possibly 
can.
    Chairman Boehlert. Well, can you give us sort of a gut 
estimate on when we might realistically expect something? April 
1 might not be the best day, April Fool's Day, but I mean----
    Dr. Griffin. If you don't mind, I would like to get back to 
you on that. With all respect, there are 52 reports, if I count 
correctly, that I owe you this year, and we are struggling a 
little bit.

                      The ``Banking'' of CEV Funds

    Chairman Boehlert. I understand that, and one thing you 
haven't struggled with is candor, and I really appreciate that. 
You are looking at banking funds for the CEV, so it has enough 
funds reserved for the peak development years, and how much of 
the fiscal year 2007 request for CEV is reserve, and how did 
you decide the pace at which reserves should be built up, and 
what will be the peak year of development spending, and how 
would that change if the CEV were accelerated? A lot of 
questions in one.
    Dr. Griffin. Yes, there are. Let me try to be responsive to 
the intent of the question. When we plan real programs in the 
real world, there are two considerations. One is the overall 
magnitude of the money required, per our estimates, and I would 
like not to get into specifics, because we are, after all, in 
the middle of source selection here. But so one consideration 
is the total amount of money required, and the other 
consideration is the rate at which that money might be made 
available to us, the so-called funding profile.
    The plain fact is that when we have to buy aerospace stuff, 
there are long lead times for acquisition, and contractors and 
subcontractors have to be forward funded to buy that. If we 
don't give them the money that they need when they need it, 
the--we do incur delays, and we do absolutely, and it is a 
demonstrated fact, we incur--we run the risk of incurring cost 
overruns, and we just plain incur higher costs.
    Chairman Boehlert. I understand all that, and----
    Dr. Griffin. So----
    Chairman Boehlert.--that is good planning, but I am just 
trying to get a feel for----
    Dr. Griffin. So----
    Chairman Boehlert.--you know, what percent--how much this 
year for reserve, and----
    Dr. Griffin. I really don't have that number. I can get it 
for you. I would not like to air it publicly, even so. I just 
do not, I cannot get into discussing in public in the middle of 
source selection NASA's total estimates, or our year by year 
estimates for----
    Chairman Boehlert. But you can understand our desire to 
have----
    Dr. Griffin. Absolutely.
    Chairman Boehlert.--to be guided by this information.
    Dr. Griffin. Absolutely, and I would be happy to discuss it 
with your staff in private, but this is a procurement integrity 
issue, and so, while I can say that we have tried to adjust our 
budget to reflect our internal cost modeling predictions of 
what money we will need, and when we will need it, we have 
tried to do that, I----
    Chairman Boehlert. Yeah, because that is very important for 
us to be guided, because as you know, we are trying to, I 
think, we are trying to do too much with the resources we have, 
and so, I am trying to figure out just what flexibility we 
have, too. We want to work with you, as you understand.
    Dr. Griffin. I fully understand. You don't want us to bank 
money now, and causing the cancellation or the delay of some 
other important project----
    Chairman Boehlert. Exactly right.
    Dr. Griffin.--when we could have got by without that money 
right now, if money is appropriated later.
    Chairman Boehlert. That is very perceptive.
    Dr. Griffin. But I would again--you know of, if anyone in 
this room knows, that if we at NASA come in with a funding peak 
or a funding spike later on, reflecting a requirement that we 
did not tell you about in advance, because we did not properly 
estimate the funding profile, that frankly you will and you 
should ding us for that.
    Chairman Boehlert. Yeah.
    Dr. Griffin. So, we are trying to plan a program that will 
have, inevitably, peaks and valleys in time, and we are trying 
to smooth those out with smooth funding requests, so that we do 
not have to come back to you, and say we made a mistake.
    Chairman Boehlert. Understand. But I hope, and my time is 
expired, but I hope you appreciate that we are not against 
banking. We think that is a prudent way to go.
    Dr. Griffin. You just want to make sure----
    Chairman Boehlert. But don't try to get it all in one year. 
We just--we'd like to know the rate of banking, and know what 
flexibility we have.
    Dr. Griffin. Offline, we will be happy to work with you and 
your staff.
    Chairman Boehlert. Thank you so much.
    Dr. Griffin. But I cannot discuss those numbers in public.
    Chairman Boehlert. Understand.
    Dr. Griffin. Thank you, sir.
    Chairman Boehlert. Thank you very much. Mr. Gordon.

                        Slowing Down the Vision

    Mr. Gordon. Thank you, Mr. Chairman. Dr. Griffin, you had 
mentioned the good vote that the authorization bill received, 
and how it was an endorsement of the Exploration Initiative, 
and I think that is correct, but let me also remind you that 
the reason that we have got that good vote was a part of that 
bill also set up firewalls that said that you could not poach 
into other areas of NASA, and I think that is an important 
thing to remember.
    Now, I am not going to belabor, you know, the budget 
numbers. We have done that enough. They speak for themselves. 
We know that there is a shortfall, and even with your best 
estimates trying to give today, I am concerned that the 
Administration could give you additional shortfalls to have to 
deal with. You know, this could very well be reminiscent of 
``trust me on the prescription drug costs,'' or ``don't worry 
about the cost of Iraq, the oil revenue will take care of it.'' 
And so, I think we have to be thinking of our contingencies, 
and I want to quote to you who the person who I think is the 
most authoritative, thoughtful expert in the area of 
exploration, and that is you. ``Within the community of 
spacefaring nations today, America alone can bring to bear the 
discretionary financial resources to provide man-related heavy 
lift exploration requirements.'' In other words, we are the 
only one that we can do it any time in the near future.
    So, quoting President Bush, this is not a journey, or 
rather, this is a journey, it is not a race, and so here is my 
dilemma, and I want you to try to help me with that. If we 
assume for budgetary purposes that it is going to probably be 
worse than better, and that there could be this potential of, 
again, cannibalizing other programs in NASA, and really doing 
great harm to the NASA overall, being we have to think about 
contingencies. Now, I know you, and I appreciate you wanting to 
go full speed ahead, and that you want to stick with the 
exploration program, and get there as quickly as we can. That 
may put some of us in an awkward position of either, you know, 
all or nothing, and I would not like to be there.
    So with your expertise, can you give me some suggestions, 
even though it is not what you want to do, about how we could 
slow down or modify, you know, why is 2018 a magic date, rather 
than 2020 or later, so that we could take a more prudent 
approach here, and not put some of us into an all or nothing 
situation. So, if we were to look at an alternative, what would 
that alternative be?
    Dr. Griffin. Fair enough.
    Mr. Gordon. Of slowing down or modifying the program.
    Dr. Griffin. Fair enough, sir. Let me try to comment, and 
again, get to the intent of your question. First of all, you 
made the point about one piece of the NASA portfolio not 
cannibalizing another, and you are referring to human space 
flight cannibalizing science, but in fairness, I would ask, as 
someone who supports both portfolios, why was it not considered 
cannibalizing when the science budget in NASA grew from 24 
percent to 32 percent of the Agency's top line? When that was 
happening, no one complained, and yet, human space flight was 
suffering. But our constituency groups didn't find a problem 
with that.
    Mr. Gordon. Well, let me tell you something.
    Dr. Griffin. Yes, sir.
    Mr. Gordon. No one complained, and they are complaining 
now.
    Dr. Griffin. Touche. But I am complaining. The human space 
flight portion of our portfolio, as fully revealed in the wake 
of the loss of Columbia, has been damaged, and it has been 
damaged for three decades. Nowhere was those--were those points 
made more eloquently. We had the wrong goals. We had goals that 
were plainly stated by the Columbia Accident Investigation 
Board not to be worthy of the cost and the risk of the 
enterprise, and yet it was plainly stated that the enterprise 
was viewed by that Commission to be strategically important for 
this nation, and so it needs to be fixed, and what I am----
    Mr. Gordon. I know you are doing your best, and I know you 
have strong feelings about this, but again, with our limited 
amount of time here----
    Dr. Griffin. Yes.
    Mr. Gordon.--if we had to make--again, I don't want to be 
put into an all or nothing situation, because it may be 
nothing. So, if we were to make a thoughtful approach to trying 
to modify, slow down, our Exploration Initiative, so that we 
could better handle potential underfunding, how would we 
approach that?
    Dr. Griffin. The only responsive answer I can give you is 
that we have, before we started slowing down any Science 
missions, we had already slowed down the development of the 
CEV, which is the Shuttle replacement, to the 2013-2014 
timeframe. That is where we are sitting. We already have a 
Lunar Return Program which, sitting here today, will return 
humans to the Moon by 2018, without allowing for any possible 
program slips in the future. To slip out beyond that is, I 
think, to court lack of credibility. We took our slips up front 
in planning this effort. We took our slips in the human space 
flight program first.
    Mr. Gordon. Would we save--or I don't know that we would 
save money on the whole, but would we--we would spread out the 
cost if we went beyond 2018?
    Dr. Griffin. Well, of course, in any given year, if we 
reduced--if we extended the dates, we would save money for 
our----
    Mr. Gordon. And it would be less----
    Dr. Griffin.--bank deposits.
    Mr. Gordon. I want to close, because I don't want to take--
I want Ken to have a chance to rebut or ask questions.
    Chairman Boehlert. Thank you very much. Mr. Calvert.

                          NASA/DOD Cooperation

    Mr. Calvert. Well, I am one of those folks that did 
complain, so I want to be put on the record. I think you are on 
the right track, Mike. I think you do have to have priorities, 
and I think if you ask most people in America what NASA 
represents, I suspect most people would say human space flight. 
I think that is what they associate NASA with. Science is 
certainly important. I don't discount that a bit, but you are 
faced with a difficult budget, and you have to prioritize and 
manage money, and do the things you need to do, and I think you 
are doing a good job.
    One thing that I had mentioned earlier in my opening 
testimony is that why--somebody said why--Mr. Gordon mentioned 
why 2018? Well, China is going to be on the Moon in 2017. I 
think that is something we ought to be concerned about. I think 
we ought to be concerned about other competitors that want to 
get access to outer space for various reasons. I also serve on 
the Armed Services Committee, and I, you know, there was just a 
report that was in the Washington Post last week, which we were 
aware of earlier, but nevertheless, that China is doubling 
their expenditures on space programs. And of course, that is 
all wrapped up into their military budget, which brings me to 
my question.
    In the past, NASA had a relatively close association with 
the Department of Defense, and obviously, we spend quite a bit 
of money in space for various reasons, and I want to know, 
since you have become the Administrator, if there are any more 
details on stronger partnerships developing between NASA and 
the Department of Defense on attempting to more efficiently and 
effectively use limited dollars to--for exploration and other 
purposes?
    Dr. Griffin. Yes, sir. We, as I am sure you know, but I 
will state for the record, I mean, I have defense and 
intelligence community clearances, because I have worked in 
those arenas in my own past, and I enjoy what I like to believe 
are very good relationships with my defense counterparts. As a 
matter of fact, within the last couple of weeks, I have had, I 
believe three principals level meetings with senior DOD and 
intelligence community officials to make sure that we are 
working as synergistically as possible.
    Synergies are possible at the technology level, individual 
component parts of our rocketry, our, in many cases, highly 
fungible between our man-rated systems and DOD systems, and we 
are trying to take advantage of that. And operational 
capabilities, at Cape Canaveral, as you know, for our Science 
program, we purchased the same rockets that DOD makes 
available. So there are opportunities for synergy. We have 
excellent working relationships, and we are trying to make them 
better. I think that is a good news story.

                            Shuttle/CEV Gap

    Mr. Calvert. Good. I wanted--you had mentioned the gap, and 
the difficulties that you had between the Apollo program and 
when we were able to finally get the Shuttle operational. 
Obviously, we have had difficulties with the Shuttle, and it is 
a very complex machine, obviously very successful in certain 
parameters, but it is getting old, and you have been very 
public and open about the fact that we need to retire the 
Shuttle no later than 2010, and in your budget, you pretty much 
outline pretty precisely how many more Shuttle missions are 
left between now and retirement.
    Could you explain to me and to the Committee why it is, you 
know, in more detail, why it is extremely important that we do 
not have a gap, you know with the workforce both at Kennedy and 
Houston, and what would happen if there was a significant gap, 
and how long could that gap grow, and our access into space, 
and what could occur?
    Dr. Griffin. Yes, sir. Let me first give a few details, and 
then I will mention what I believe to be the strategic issues. 
At the detail level, we have a gap, okay. It will be several 
years, at least a couple. The issue is not having it be 
extended any more than absolutely necessary, because here is 
what will happen.
    We cannot retain everybody in the workforce through that 
gap, because if we do, we save no money. All of our money goes 
either to pay people or to buy things, so therefore, we must 
terminate subcontractors, or we save no money. We must 
terminate people, or we save no money. Since saving money is 
the goal, it follows that we will do those things. If we 
terminate people, those people will go into other lines of 
activity. We will not get them back. This is what happened, in 
very substantial measure, between 1975 and 1981. When we 
terminate subcontractors, because, quite frankly, the human 
space flight business in this country is a niche business. As a 
venture capitalist might say, it is a boutique firm. There are 
a few tens of thousands of people, in the low tens of thousands 
at most, engaged in it in this country. If we get rid of a 
substantial fraction of those people, whether they work for our 
subcontractor tier or directly in our launch and mission 
operations segment, or in our development activities, we will 
not get them back. We will then, when we choose to resume human 
space flight at some later date, we will have to retrain this 
cadre of people. We will have to create new subcontractors. We 
will resume our progress in a very stumbling and halting way. 
We will increase the risk of flight.
    When the Space Shuttle Challenger was lost, the failure 
board of that time identified one of the difficulties of the 
whole several years of operation leading up to Challenger was 
that even five years after the resumption of human space 
flight, by the time of the Challenger loss, we were still 
pulling parts and subsystems off of one orbiter, cannibalizing 
one orbiter to put parts and subsystems on another orbiter, 
because we didn't have an adequate supply of people and things 
to do the job. I have become convinced that with a slender 
reed, this is not an activity like making automobiles, that 
engages hundreds of thousands of people in the country. This is 
a very slender industrial base that we have, and it must be 
protected and preserved. It has been damaged. It is not all 
that we want it to be. You have given me, this Congress and the 
Senate and the President, this President, have given me the job 
of attempting to fix it. I cannot fix it by first destroying 
it.
    At the strategic level, I absolutely believe that human 
space flight is a strategic activity of the United States, as 
is our Science program, and I meant it when I said we took our 
delays, we took our delays in the human space flight program 
first, and when I got to the point where I believed we had 
taken all of the delay that we could reasonably tolerate, then 
I delayed some science missions, and that honestly was my last 
alternative. I had no other.
    Mr. Calvert. Thank you.
    Chairman Boehlert. Thank you. Mr. Administrator, we have a 
call of the House, so I think we are going to have two votes, 
which means that we are probably going to have to recess for 
about 20 to 25 minutes, and our lounge is available to you and 
the Assistant Administrator, and when we come back, Mr. Udall 
will be first up.
    Mr. Hall. Mr. Chairman.
    Dr. Griffin. And I am at your service, as you know.
    Chairman Boehlert. Thank you.
    Mr. Hall. Mr. Chairman.
    Chairman Boehlert. Mr. Hall.
    Mr. Hall. I have a unanimous consent that, inasmuch as we 
have probably the two best leaders of any administrative agency 
on this Hill, and it is a shame we can't all be here to ask our 
questions, but we have those votes, and we are going to be 
adjourning pretty soon, people are going to be running for 
planes, could we have asked the Administrator to allow us to 
submit questions to him, and----
    Chairman Boehlert. By all means.
    Mr. Hall.--in a reasonable time, get an answer back?
    Chairman Boehlert. Without objection, so ordered, and Mr. 
Administrator, there will be several questions that we will 
submit to you, and we would appreciate your response in a 
timely manner, which has always been the case under your watch, 
and we do thank you for that.
    With that, the Committee stands in recess.
    [Whereupon, at 11:15 a.m., the Committee was recessed, to 
reconvene at 11:50 a.m. the same day.]
    Chairman Boehlert. The hearing will resume, and the Chair 
is pleased to recognize the distinguished Ranking Member of the 
Subcommittee on Space and Aeronautics, Mr. Udall.

                            Aeronautics Cuts

    Mr. Udall. Dr. Griffin, again thanks for being here, and 
just to clarify the record, when the--most people think when 
the bells go off here, it signals that we have votes, but it is 
actually to identify the fact that various Members of Congress 
have escaped from the Hill. Thanks for your patience.
    We talked earlier, before the hearing, particularly about 
aeronautics and what I believe are cutbacks that are of some 
real significance in that budget area. I want to give you a 
chance to respond to that, but I wanted to lay out a couple of 
particular numbers, and--so that the record is clear. By my 
reading, it looks like the Administration is proposing to cut 
$175 million from NASA's aeronautics program, and as I said in 
my statement, I just--I don't see the logic of such a move, 
given that aeronautics is making a positive contribution to our 
trade balance, and the other benefits that accrue.
    So I wanted you to respond to that, and then particularly, 
if you would, I mentioned the Joint Planning and Development 
Office, and the runout of the Next Generation Air 
Transportation System, and I think you and I have differing 
points of view on this, and I wanted to give you as much of the 
five minutes that is given to me to respond to those two 
questions that I have presented.
    Dr. Griffin. Let me take the second first, Next Generation 
Air Transportation System (NGATS). Our new Aeronautics 
Associate Administrator, Dr. Lisa Porter, and I have sat with 
Marion Blakely and Secretary Mineta, and it is--I can always be 
wrong, it happens many times every day, but it is my 
understanding that we at NASA are doing, on NGATS, what they 
believe we should do, that we are--it is a multiple--a multi-
agency program, but we believe we are meeting our commitments.
    Now, for the record, I will take your question. We will go 
back, we will answer it for the record, and we will make 
certain that that is the case, but it was our intent to meet 
the agreed upon obligations of that program, and if we are not, 
I will figure it out, and we will get back to you.
    With regard to the $175 million cut in Aeronautics, that is 
versus last year's appropriated amount. The President's 
submission for aeronautics this year does not have such a cut. 
In fact, the President's submission is up slightly compared to 
last year's submission. I think the question before us in 
aeronautics is reorienting the program to do the right 
strategic things. For good or ill, Lisa and I simply believe we 
need a different aeronautics strategy than the one that has 
been in play at NASA for the last couple of decades. We think 
NASA's proper contribution to aeronautics is the doing of 
fundamental aeronautical science. I am an aero guy. I mean, 
this is what I was trained in, as a young engineer. I want to 
do it, but some of the demonstrations, and some of the ways in 
which we have been spending our money do not, to me, seem to be 
strategically appropriate ways to spend NASA's aeronautics 
money, and we are re-vectoring the program, and for now, I 
think we have enough money to do that.
    Mr. Udall. As the Chairman has mentioned, we all appreciate 
your candor, and I do in that response. My concern is not so 
much in the short-term, but it is in the runout over the next 
five years, and I think you can't, at least ask the question, 
where does this leave us, when you look at the trends. And I 
know you are operating in good faith, and trying to do more 
with less, but I would welcome a response to that concern, as 
well, when you look out on that five year timeframe.
    Dr. Griffin. We think we have enough money in the five year 
runout to make NASA great again in aeronautics, and that is 
what we are going to try to do. I appreciate that all of us, 
the comments that are made about aeronautics, again, to use a 
phrase I used earlier in the hearing, if we change the nouns 
from science, the verbs are the same. We are all worried about 
the fact that we are, as a nation, not just as NASA, as a 
nation, we are not able to afford, within the domestic, non-
defense discretionary portion of the budget, all that we would 
like to do. And so, we are looking at priorities. I think our 
aeronautics program is properly prioritized.
    Mr. Udall. We will continue to have the conversation, and I 
will continue to project my point of view, and you will yours. 
Could I just, in the time remaining to me, I have got two other 
areas I wanted to touch on, but particularly, this really 
exciting and unfolding area of remote sensing, and in the NASA 
reauthorization bill, there was a provision that would 
establish a program of pilot projects for the use of this data 
for State, local, regional, and tribal agency needs.
    Could you give us an update, if not today, certainly in the 
near future, on where NASA is, and what preparations you are 
making to bring that program to the public's attention?
    Dr. Griffin. We will take that one for the record, if that 
is okay.
    Mr. Udall. That would be tremendous, and there are, as you 
know, a wide variety of applications, and there is a lot of 
interest in widely disseminating this data. Mr. Chairman, with 
your always gracious tolerance of me, I would just ask one 
other question.

                            Science R&A Cuts

    The--back to the budget. It looks like there is a cut in 
the research and analysis accounts in the Science Mission 
Directorate, of about 15 percent, and that adds up to about 
$400 million over five years, and particularly, it is 
concerning me, because it funds university research, and we are 
trying to bring more people in in the STEM disciplines, and I 
would appreciate an answer into why those cuts are being made.
    Dr. Griffin. Yes, sir. We took a look at our overall 
Science budget, and wanted to make a change in the balance of 
R&A versus doing actual missions, and as everyone has seen and 
talked about here today, we are no longer able to project the 
kind of growth in Science that was projected before. The rate 
of growth has slowed somewhat dramatically. And so, we chose 
also to slow, or to cut back on R&A, in order that we could do 
as many missions as possible.
    In fact, I have received a lot of stakeholder comment to 
the effect that the level of funding in Science is one thing, 
but people are concerned, working scientists are concerned 
about the balance of R&A versus missions, and I have asked Mary 
Cleave, our Associate Administrator for Science, to rethink 
that issue. We will be working it with our advisory committees, 
and we will get back to you on whether or not we continue to 
believe that that is the right balance. But again, the balance 
within the Science portfolio is something that we thought we 
have right, but if we don't quite have what the community would 
most like to see, we are willing to consider changes.
    Mr. Udall. I very much appreciate your willingness to take 
another look, and I know you and I both await some further golf 
analogies from the Chairman. Thank you for being here today.
    Chairman Boehlert. Thank you very much.
    Dr. Griffin. The Chairman will have to struggle to keep up 
with us on the golf course, I believe. But on the baseball 
diamond, he reigns supreme.
    Chairman Boehlert. Thank you very much. You saved yourself 
on that one. Mr. Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman. I want to--budgets 
are really about priorities. I mean, ultimately, you know, we 
can all argue there is not enough money for this, there is not 
enough money for that. But ultimately, as it used to say in the 
Pepsi Cola ads, life is a series of choices, and one of the 
things that I am concerned about, and I want to at least get an 
update from your perspective.

                    Costs of a Human Mission to Mars

    The President sort of dropped this on us about a year and a 
half ago, about sending human beings to Mars. How are we doing 
on that, and what is your latest estimate of what that might 
cost?
    Dr. Griffin. We have not got as far as looking at missions 
back--or missions to Mars. We are still coping with the issues 
of how to reclaim the capabilities we once had to take our 
astronauts to the Moon.
    As a matter of fact earlier in the hearing, the Chairman 
made the remark that questioning the--or concerns of the wisdom 
of cutting or damaging other programs in order to redo what 
America had done before, and I am not quoting, but that was the 
essence of it, and----
    Chairman Boehlert. I will accept that as pretty accurate.
    Dr. Griffin. Thank you, sir. And that would be--I think 
that is a very telling point. The United States did have these 
capabilities. We allowed them to atrophy. We proactively made 
decisions as a country that caused those capabilities to go 
away. If we were sitting here today with the capabilities that 
this nation had purchased as of the end of the Apollo Program, 
we could go to Mars within a decade.
    We have a decade's worth of hard work in front of us just 
to be able to get back to where we were, and then Mars will be 
the decade after that. I don't have a cost estimate for you at 
this time.

               Prioritizing ``The Vision'' in the Budget

    Mr. Gutknecht. Well, the reason I ask the question, and I 
think we need to have this discussion with you and with Members 
of this committee, with the Congress and with the American 
people, in terms of, I mean if this is just--and no pun 
intended, an astronomically expensive program, we have to 
decide, I think, at some point, whether that is the priority, 
or if there are a whole lot of things we could do a lot closer 
to our own little planet here that might yield much bigger 
results and dividends, not only for the American people, but 
the people of the planet.
    Dr. Griffin. Yes, sir. We have been having that debate for 
the last two years, and I honestly believe that it has been 
settled with the 2005 Authorization Act, and with this 
President's budget. We are not zeroing out those other 
activities. They are in the budget, and we are not forecasting 
for the long-term huge increases in manned space flight. What 
we are doing is--we are doing two things, and it is a delicate 
balance. We are trying to retire an old system, and finish up a 
legacy program where we have international commitments, and at 
the same time, we are trying to bring about a new capability 
and a new system, in such a way that we don't lose all of the 
experience base and all of the industrial base that has been 
created to do these sorts of things. It is a difficult and 
delicate juggling act, and it does create some broken china, 
and the--I guess the pledge I have made, and the promise I have 
made is to do that with every bit of care and concern, and 
every bit of respect for the different portfolios within NASA 
that I steward, as can be done. But I believe that we are--that 
the human space flight portion of our portfolio is the one that 
is in the most need of nurturing and care right now, and that 
is what I am trying to do.
    Mr. Gutknecht. Well, we could--we look forward to 
continuing this discussion, because I think it is one that--I 
think the jury is still out, in terms of what the American 
people really want to do. I know we hear from people who are 
very enthusiastic about putting more humans in space, and 
perhaps sending them back to the Moon, and ultimately to Mars, 
and maybe beyond, but I think there is a growing chorus saying 
wait a second, you know. For all the money we are going to 
spend on that, it could be better spent somewhere else, and it 
strikes me that we have to give the American people a strong 
argument, and more importantly, you know, we all saw huge 
dividends from the early days of the space agency. I mean, 
transistors and microcomputers, and----
    Dr. Griffin. Right.
    Mr. Gutknecht.--all kinds of amazing technologies that grew 
out of the research. The bottom line, I think, for the average 
American today, is we are not seeing those kinds of returns 
today. You know, we all know what Tang is. We all know what 
transistors are. We all know about microcomputers. But in the 
last ten years, I think it is hard for most Americans to put 
their finger on a result that we have gotten for the billions 
of dollars that we have spent, and so, as you participate with 
us in this discussion, try to include the American people in 
there, because ultimately, what they want is what everybody 
wants, and that is what--they want results, and they want to 
see real scientific breakthroughs that matter to them in their 
lives.
    I yield back. You may respond to that.
    Dr. Griffin. Yes, sir. I do try to--it is of vital interest 
to me what the American people want with their tax dollars. I 
would emphasize again that we are already spending this money 
on NASA, and primarily, what we are talking about here is 
revectoring the money that we already spend on manned space 
flight to more productive goals.
    I would quote, however, I do want to quote for this 
committee what I thought was a stunningly interesting Gallup 
poll that was done at the end of last year, and I had made the 
comment in a public venue, that questions about public support 
of American space flight were often not properly posed, that 
the proper way to pose the question would be to note first, the 
budgetary levels that are assigned to NASA, and then, given 
those budgetary levels, what do you think about what we are 
doing? And so, the Gallup people asked the question, given that 
the NASA budget remains at or below one percent, do you support 
the goals of returning humans to the Moon and going to Mars, 
and 75 percent of people, across party lines, across genders, 
responded with either support or strong support. That is a 
stunning statistic. It echoes the fact, as I have often talked 
about in casual conversations with many of you, that if I do 
engage, you know, an average person on the golf course, and I 
start talking about what we each do for a living, then they 
find out I am in the space business, and then I ask them, well, 
how much money do you think NASA has, relative to DOD, and 
people commonly think NASA has half of what DOD has, or 20 
percent of what DOD has, and I will say four percent. How much 
money do you think NASA, you know, is spent as a percentage of 
the budget, and they will say oh, 15 or 20 percent of the 
budget is NASA, right. And I say no, seven tenths of one 
percent of the budget is NASA. People are stunned. So when 
properly conditioned, when they understand that this is a small 
investment in the Nation's strategic future, to maintain its 
stature among nations in the 21st Century, people are very 
supportive of this endeavor.
    Chairman Boehlert. Thank you very much, but I can't help 
but observe that you ask that in isolation, but when you begin 
to tell the American people in a poll of that nature that we 
have to make some choices, because we don't have unlimited 
resources, and if the choice is A or B, then what would you do, 
then you might get a different answer. For example, I would 
suggest if you asked the American people the basic investment 
in science, which has produced such handsome dividends for 
society on the most important planet in the universe, Earth, or 
investment in some of the other activities that are not related 
to human space flight, or would you invest in human space 
flight, then you might get a little bit different answer.
    So we are all--we are with you. I mean, I will answer yes 
to the question you, 75 percent of the people answered yes to. 
I agree, but we can't do it in isolation. It has to be in 
context with everything else.
    Dr. Griffin. Well, and I certainly agree with that, and I 
would remind the Committee again, we are not slashing Science 
to the bone here with this proposal. It is a pretty strong 
budget for Science.
    Chairman Boehlert. Well, and then, I also would observe, to 
give a point to your side of the argument, that we are 
conditioned, as people, to accept the arguments that we are 
slashing away at some program, when in fact, we are slowing the 
rate of growth, and nothing typifies this more than I was 
facing back home, during the recent recess, the public saying 
why are you people slashing away at Medicaid. That is a 
necessary program to provide for the healthcare needs of the 
most disadvantaged in our society. And I said well, I tried to 
figure out how to put it in perspective so they might 
appreciate it better, and I said all right, Washington is the 
only town in the world, where if you ask for a $73 raise, and 
you get a $70 raise, you say slashed away at my projected 
income. I mean, which happened in the case of Medicaid, slowed 
the rate of growth from 7.3 to seven percent, but--well, for 
another time.
    Dr. Griffin. Certainly take your point.
    Chairman Boehlert. Well, let us provide some further 
enlightenment from Mr. Green. The Chair recognizes you.
    Mr. Green. Thank you, Mr. Chairman. I thank you for your 
kind introduction. I thank the Ranking Member as well, and I 
would like to thank you, Mr. Administrator, and the Deputy 
Administrator, for being here with us today.
    Just a quick comment from a person who is concerned about 
space flight. I think that we do have to go to the Moon. I do 
think that we have to go to Mars. I think we have to go beyond. 
I think we have to do it not because it is a part of our 
manifest destiny as homo sapiens, not because of the technology 
that we will acquire as a result of doing it, but simply 
because we cannot allow people who may not have our best 
interests at heart to control space. I really believe that we 
have to be wherever others are going, and it is in our own best 
interests that we be there first, if at all possible.

                                  COTS

    Now, having said that, let me come back to Earth, and talk 
about the budget and some of these programs. I have a concern 
that I would like to visit with you about, with reference to 
the $500 million, the half billion dollars set aside that will 
stimulate commercial transportation, ultimately pass on the 
task of resupplying the International Space Station to private 
industry.
    My first question is how, if you can, as tersely as 
possible, how will this $500 million be used, and the followup 
is, the timeline for this transfer, what is that timeline 
anticipated to be? Thank you.
    Dr. Griffin. Yes, sir. It is the Administration's belief 
and my belief, and I believe, the belief of many here, that 
NASA and, indeed, other federal agencies, research and 
development agencies, should concentrate on the cutting edge of 
their technology. For NASA, the cutting edge of our technology 
is exploration beyond low Earth orbit. Almost 45 years after 
the first human space flight, we believe it ought to be 
possible for American industry to step, if not fully, at least 
partially up to the task of resupplying crew and doing--I am 
sorry, resupplying cargo and doing crew rotation to the Space 
Station in low-Earth orbit. That capability has not yet been 
demonstrated, but we have received, this committee has received 
many assertions from entrepreneurs in American industry, as 
well as well-established companies in American industry, who 
will say that if NASA will deal with us in a commercial manner, 
if NASA will establish an arm's-length transaction with us, 
that we can supply the Space Station logistics market.
    My Deputy and I are among the very strongest supporters of 
trying to transition some of what should be very routine 
activities to the commercial sector. Accordingly, we are 
putting up $500 million in this budget, over this next five 
years, we are putting up that amount of money as, if you will, 
I won't say seed capital, because that is not the correct term, 
but it is an incentive for American industry to bring their own 
funds to the table to produce and provide, first demonstration, 
and then possibly later, operational systems to NASA for the 
resupply of cargo to the International Space Station, and then, 
when able, the crew rotation. That is what we hope to----
    Mr. Green. Because my time is going to run out, can you 
quickly just address the timeline on that, in terms of how you 
expect----
    Dr. Griffin. We would expect to see, we would hope to see 
initial demonstrations in the 2008, 2009, 2010 timeframe, and 
then, depending on how well those go, the ability to provide 
real service post-2010.
    Mr. Green. Final question, and I will make this very brief. 
Is there any way to provide incentives for the persons who will 
implement this to help us with our persons that may be 
displaced as a result of some of your budget cuts, because I 
understand the relationship between contractors and employees, 
and the NASA employees? Can we find a way for people to move 
from one side of the street to the other side of the street as 
efficaciously as possible?
    Dr. Griffin. Well, yes, sir. I think the market will take 
care of that. If--we don't have a net budget cut. We have a net 
budget increase, and so, for those activities which are being 
slowed, and if people become free as a result, there are other 
activities which are continuing or increasing, and I think the 
natural employment market in aerospace will take care of that.
    Mr. Green. Well, my hope, of course, is that we will have a 
minimum disruption in this, what I am calling an interlocking 
relationship between all of these various contractors and 
agencies that work together. Through the years, we have 
developed this web, and hopefully, we can maintain the web to 
the extent that it can continue to be effective for us. Thank 
you.
    Dr. Griffin. Yes, sir.
    Mr. Green. I yield back. Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you very much. Dr. Schwarz.

                      Manned Space Flight vs. R&A

    Mr. Schwarz. Administrator Griffin, I am going to add that 
you are going to repeat yourself when you respond to this, but 
I need to take what you say back to some of my constituents in 
Michigan who are, in part, large components of the University 
of Michigan and Michigan State University, and the question is, 
or the request for you to repeat yourself in terms that I can 
carry back to those folks, is they will ask me why the emphasis 
now seems to be going back to manned space flight, and all of 
the appurtenances thereto, as opposed to unmanned scientific 
missions, or bent science. Why the emphasis now, again, hard 
emphasis on manned space flight? And I don't think it will be a 
question that is asked that has any edge on it. I think the 
research community in universities like that, who receive 
millions and millions of dollars of federal research grants 
every year, like to know what is NASA--what NASA is doing, and 
how they are thinking. So, maybe in two or three paragraphs, 
you can just kind of imbue that message in this chip I have 
behind my ear here, and I will take it back to them, but they 
ask that question frequently, and I have large thousands of 
people in my district who work for both the University of 
Michigan and, up further north, for Michigan State, which as 
you know, are superb research universities.
    Dr. Griffin. I do. I am very familiar with both. Sir, I 
would start out with my three paragraphs by saying first of 
all, the change in emphasis that we are talking about here is, 
with respect to the Science community, is very slight. We still 
have a huge Science program at NASA. The sum and substance of 
these so-called cuts, which are not cuts, that are being 
applied in the Science community, is that we are delaying the 
Space Interferometry Mission, the Terrestrial Planet Finder, 
and the Global Precipitation Monitoring. That is, those are the 
major impacts. They are not being cut. They are being delayed 
by a couple of years. As I said, we advocated a strategy in 
which we would cut back on R&A, research and analysis, by about 
15 percent, so that we could continue to do missions. We are 
going to re-look at that.
    The change in emphasis on manned space flight is primarily 
associated with doing different things with the money we are 
already spending on manned space flight. We are bringing the 
Shuttle program to an orderly and disciplined close, which I 
yield to no one in my desire to do. We are finishing up the 
Space Station, consistent with obligations made earlier, and 
then, we plan to take those moneys which have been allocated to 
human space flight, and return to the Moon, and go beyond.
    The reason for that is that this is a strategically 
important, hugely significant activity for a great nation like 
ours to do. This is the paradigm of what the Nation's Civil 
Government Space Program ought to be doing. In order to get 
from where we have been for the last 30 years to where we need 
to be, we have a speed bump in the road for the next three or 
four years, because we have to get out of what we have been 
doing, and into, onto this new path, and we have to do it while 
creating as little collateral damage as we can, and that is not 
to say that there is no collateral damage, because there is 
some. But we must do the best we can to arrange it in an 
orderly and disciplined way, and that is what we are trying to 
do.
    Mr. Schwarz. Thank you, sir. I yield back, Mr. Chairman.
    Chairman Boehlert. The Chair recognizes Mr. Costa for five 
minutes.

                       International Cooperation

    Mr. Costa. Thank you very much, Mr. Chairman.
    Mr. Griffin, on the last point you made, and I think we 
touched upon this previous hearing, but it just is not clear to 
me whether or not there is due diligence that is taking place 
with regards to the Moon mission that you just spoke of. As 
to--I mean, it is clear we are a great nation, and there are 
responsibilities, and I think a lot of good reasons and 
justification on why we should pursue that effort, but what is 
not--what doesn't seem evident to me is exploring in a 
thoughtful way how we can cost-share these efforts with our 
European alliances, with the Russians, and others. I mean, 
frankly, notwithstanding the experience of the Space Station, I 
do think that it is not just our nation's responsibility to 
explore the universe, and for all the benefits that come from 
that, but I think there are a lot of dividends that can come 
with sharing the costs of such an endeavor in the 21st Century, 
and I just would like to know what effort NASA is really 
focusing on to see what opportunities might lie in terms of 
that cost-sharing?
    Dr. Griffin. Sir, if you don't mind, I am going to let the 
Deputy Administrator take that one, because she has been 
spending a good bit of time on that recently.
    Ms. Dale. I would emphasize first that the Vision for Space 
Exploration actually makes a very strong statement in support 
of international cooperation on our future exploration missions 
to the Moon and Mars.
    A couple of weeks ago, I did go to Europe to meet with the 
head of ESA, as well as the heads of agencies for Italy, 
Germany, and France. My intentions are to go on to our other 
traditional international partners of the Space Station, 
Canada, Russia, and Japan, and I did initiate the dialogue when 
I went to Europe about the potential cooperation on the Moon, 
Mars, Exploration Initiative, and there was interest expressed. 
We are planning on having an exploration workshop at the end of 
April, that NASA is putting together, where we will include 
commercial industry, academic community, scientific community, 
as well as our international partners, both traditional and 
nontraditional.
    So, there is very much a desire on the part of NASA to 
engage with our international partners now, to bring them into 
this, to bring them into the planning stages early, for what we 
are going to do on the lunar surface, and also, what our 
desires are for both robotic and human exploration of Mars.

                          ISS: Lessons Learned

    Mr. Schwarz. Well, if I may, Mr. Chairman, I would suggest 
that, at the appropriate time, that you report back to the 
Committee to let us know how that effort has gone, what kind of 
process you are anticipating, in terms of breaking down those 
costs, and I might ask you one other question here that either 
one of you might want to address, based upon our experience 
with the Space Station, what lessons, and if you can't answer 
it here, I think that needs to be provided down the road, what 
lessons are there to be learned as it relates to the prospects 
of cost-sharing on these kinds of very large challenges that 
you face when you are talking about a Space Station or a lunar 
mission, or onto Mars.
    Ms. Dale. I think one of the lessons and one of the things 
that we actually did with International Space Station, there is 
usually a no exchange of funds basis, in terms of cooperation, 
so different partners bring different elements to the table, in 
terms of our cooperation. I think that is probably the primary 
lesson, one of the primary lessons that is learned in terms of 
international cooperation, and that will be the basis, as well.
    The other part of the equation is the United States human 
space flight capability. Our replacement of Shuttle is going to 
take place with the Crew Exploration Vehicle, and as Mike has 
stated on many occasions, we need to make sure that that 
strategic asset is a United States capability, although there 
may be potential for components to be delivered from 
international industry, that is an industry to industry 
relationship. But we need to make sure, when we have a key 
strategic asset like space transportation capability, that we 
don't have other individuals on the critical path. So, that is 
another key part of the equation.
    Mr. Schwarz. Thank you very much, Mr. Chairman. I reserve 
the balance of my time, and I will submit further questions 
afterwards.
    Chairman Boehlert. Thank you. You have 17 seconds in 
reserve. Mr. Feeney.

               International Influence and ``Soft Power''

    Mr. Feeney. Thank you, Mr. Chairman, Mr. Administrator, Ms. 
Dale. Thanks for being here today.
    Number one, I want to compliment you on the extraordinarily 
talented workforce you have put around you in the last year and 
a half or so. You know, I think that that is going to be really 
important, as we get a bang for our buck out of NASA in 
general, and I really want to compliment you.
    Secondly, the fact that you have been incredibly 
transparent and honest with this committee. There are some 
folks on this committee, understandably, that get heartburn, 
because there are some wonderful programs this year that you 
are talking about delaying. I think the Chairman laid out some 
arguments about why that is a very troubling idea, and I think 
he represents a big portion of the science community, when he 
says that. The fact that we do have, you know, we have gone 
since 1992, from 24 percent of the NASA budget to science, up 
to about 32 percent, I think, is important, but trying to find 
ways to set priorities in tough times is something that is your 
job, and living up to the President's Vision is your mission, 
and I appreciate the way you have done that.
    I want to focus on something that sometimes, you are able 
to, and sometimes, you are not. I just got back from China, 
where I was the first American ever to be permitted to see the 
Human Space Launch Facility, or the Vehicle Assembly Building 
in China. Congressman Mark Kirk and Congressman Rick Larsen 
joined me. No Western official has ever been permitted to do 
that. They threw our embassy people off the bus. The Chinese 
space program, as you know, is entirely within their Defense 
Department, actually, the procurement agency of the Defense 
Department, so there is a lot of non-transparency that goes 
there. We don't know exactly what they are spending, or what 
they are doing, or what their goals are, except what they show 
us or tell us. And I found it very interesting, as you talked 
about how human spacefaring, in large part, is one of the 
definitions nowadays of superpower status. It is very clear to 
me that the Chinese believe that, and they believe it very 
deeply, and I was appreciative of you saying that.
    I think space predominance, including human space flight, 
is absolutely critical to peace throughout the globe, and 
extraterritorial. As long as peaceful, democratic nations have 
space predominance capabilities, including human space flight, 
I think we are in for a period of potential long-term world 
peace. U.S.-Sino relations, in my view, in large part, will 
write the history of the 21st Century, whether we get it really 
right or really wrong, or somewhere in between. But having said 
that, you talked about the potential to have a disastrous 
impact, if we have too much of a gap in time between human 
flight in the Shuttle and the CEV. You talked about the 
potential for losing the niche businesses of subcontractors 
that are serving our community. You talked also about human 
potential, and I am very interested in that.
    I can tell you that while the Chinese claim they have only 
spent about $2.2 billion since 1995 when they started their 
space program, they have spent it very effectively. They have 
some 100 universities that are focused on human space research 
on behalf of their national space agency. Whether that is 
included in their budget or not, I don't know. Secondly, 
assuming that they are spending about a billion in human space 
flight today, a billion dollars goes a long way in China. You 
can purchase roughly the expertise of eight engineers for the 
cost of one engineer in America. Other work, skilled and 
unskilled, is even a greater ratio. They don't have the 
regulatory burdens that we do. In many ways, while the Chinese 
will humbly say that they are 30 or 40 years behind us in human 
space, it is like being, the Japanese were 30 or 40 years 
behind us in TV sets. These guys have stripped straight to the 
space equivalent of HDTV plasma type sets, and they are doing a 
remarkable job. They have got six successful Shenzhou missions, 
including two human space flight missions.
    I believe deeply that China can either be a cooperative 
competitor, or they can be a dangerous adversary, much more 
powerful and much more capable to deliver serious harm to the 
United States than Imperial Japan and Nazi Germany were 100 
years ago today combined, and I believe that our leadership in 
space is absolutely requisite, including human space.
    Can you comment on the opportunities that space provides to 
continue American leadership, as we are currently the sole 
superpower on the planet with respect to space capabilities, 
for example, but that is not going to be true for long, and can 
you comment on how the loss of that workforce, if we extend 
that gap from two or three or four years, to six or eight or 
ten years, may undermine a lot of absolute strategic 
requirements for the safety of our country?
    Dr. Griffin. Yes, sir. There is much you have said that I 
agree with, particularly, the desire to focus on the 
opportunities, rather than the problems, and I certainly would 
agree. I believe that the record shows that nations that find a 
way to cooperate on great enterprises and great adventures find 
reasons not to quarrel, and I think we are all better off, we 
know which of those two alternatives we prefer, and space is--
the conquest of space is the greatest enterprise of all.
    But with regard to the gap, again, returning to that 
question, I am tempted to make another of my little jokes here, 
and say look, this is the part of all this that is not rocket 
science. If we have an extended gap in any of our enterprises--
I would not allow an extended gap in our science enterprise to 
take place either--a gap in any of our enterprises is about one 
thing and one thing only. We are trying to save money, so we 
are trying not to pay people, and we are trying not to buy 
things. That is what a gap is.
    If we don't pay people to be engaged in the manned space 
flight business, they won't. They will go elsewhere. Engineers 
are pretty employable. When they go elsewhere, we won't get 
them back. Similarly, the robotic plus the human space flight 
business is not a high volume business. It is, in the overall 
sweep of American industry, it is a niche business. It is at 
the cutting edge of what we do in American industry, American 
capabilities. If we want to own that enterprise, we must take 
care of it. It is not something that can be just left to 
founder, and so, if we incur a three, four, five, your words, 
six year gap, the people who are engaged in those enterprises 
and the subcontractors who are engaged in those will go 
elsewhere, or they will wither and die, and then, we will have 
to recreate that capability when we say we want it later, and 
we will be disadvantaged.
    I don't have a better story than that. I have seen it occur 
in the past. I don't want it to occur again. I think we should 
try to prevent it. I do appreciate your comments about the 
quality of the team that I have been able to put together. In 
my case, I found that to be an absolutely essential 
requirement, since I couldn't really do anything by myself.
    Chairman Boehlert. Thank you very much.
    Mr. Feeney. Thank you.
    Chairman Boehlert. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman, and again, welcome----
    Dr. Griffin. Mr. Honda, good to see you.

                                 SOFIA

    Mr. Honda. Good seeing you again. I have a lot of concerns 
and questions around life science, but in the interests of 
time, I am just going to address myself to SOFIA, the SOFIA 
Project. And I am really curious about the decision to include 
no funding for the SOFIA Project until whole review in early 
'06, to determine the best course of action for this project. I 
think that was the conclusion.
    As you may know, I visit Ames on a fairly regular basis, 
and I recall from one of those visits that in the fall of '04, 
three independent review committees chartered by NASA, NASA 
headquarters, conducted what were essentially termination 
reviews. My impression is that SOFIA passed each one of those 
reviews and in the process of implementing the recommended 
restructuring of that program. The administration program was 
approved by the Science Mission Directorate in April of '05, 
and it is my understanding also that the restructuring process 
is nearly complete, so why would NASA cancel SOFIA at this time 
when it has nearly completed a program restructuring, and has 
followed the advice of its own independent review?
    Ms. Dale. Thank you, sir. What I would say about SOFIA is 
we are planning on doing an intensive project review. There 
have been difficulties with the program that include 
significant schedule delays of approximately two years. There 
has been cost growth, and there are also technical issues 
related to SOFIA. All of those issues are actually going to go 
into the project review. The Science Mission Directorate will 
also be looking at other competing science missions.
    As we embark upon this project review, we intend to do it 
in full cooperations with the German Space Agency DLR. They 
will be observers in this process, which is traditional for 
U.S. project review. Also, at the conclusion of the review, we 
will be faced with the decision whether it is putting funds 
back into the Fiscal Year 2007 operating plan, and out-year 
budgets, or potentially initiating a termination. Either way, 
we will be resolving that situation closely with the German 
Space Agency, again.
    Mr. Honda. Well, I appreciate the mention of the German 
space agency, but what you are telling me is that there are 
some unresolved problems, but this project has gone through a 
variety of reviews, and are these the same issues that the past 
reviews have identified and made recommendations to address?
    Ms. Dale. My understanding is that as the program continues 
to encounter significant technical issues related to the 
airplane, again, fairly significant cost growth and schedule 
delays, that those need to be put into the project review, and 
we need to review it against the other competing Science 
missions within NASA. We have a limited budget.
    Mr. Honda. I understand that, but you mentioned airplane. I 
mean, is it about the vehicle that is an issue, or the costs of 
having a vehicle, contracting a vehicle for taking the lens up, 
or what? Your comments are real general, and it doesn't----
    Ms. Dale. Okay.
    Mr. Honda.--tell me anything, except----
    Ms. Dale. Okay.
    Mr. Honda.--the significant problems.
    Ms. Dale. Let me just say briefly that my understanding is, 
it seems fairly straightforward what we--what you have to do to 
the airplane, in terms of cutting a hole in it, so you can put 
the telescope in. Apparently, that is much more difficult than 
had been anticipated, and I think Mike wants to make a couple 
of comments.
    Dr. Griffin. I don't really, but I will. The----
    Mr. Honda. He was hiding behind your shoulder.
    Dr. Griffin. Yeah.
    Chairman Boehlert. And that is called a surprise lateral.
    Dr. Griffin. Yeah, the issue--in fact, the question that we 
are getting at--the Chairman just brought the nub of the issue 
up to the table--is we are cutting a big hole in a large 
airplane, and we have to be able to put a telescope inside it, 
and have laminar flow over that hole and that telescope with 
that airplane, or we don't get good Science. That task has 
proven to be much harder than people thought. Now, the question 
before the House is are those folks, in fact, at the end of 
their technical problems, as they would claim, or are they 
still in the middle of them, and we face, you know, just an 
unending string of more money and more time spent trying to get 
the program to where we can do the Science. No one is 
questioning, at this point, no one is questioning the value of 
the Science, but we have got to be able to make it work.
    Mr. Gordon. Would my friend yield quickly? Let me just 
quickly say that the head of the German space agency came by to 
see me. They are very concerned about this. They have made a 
major investment in this program. I think they feel that if it 
is canceled, that it will be an embarrassment, and make it very 
difficult to go back to the German people for additional funds 
in these kinds of partnerships.
    The other problem I see here, even it is peer reviewed and 
decided to be worthwhile, you have already taken the money out, 
so then you have got to, you know, get into something else for, 
to fund it. I would just want to make a comment. If you--if I 
didn't say anything accurate, you can correct it otherwise when 
you move on.
    Ms. Dale. I would just add that there is significant 
interest from both me and Mike, in terms of what is going on 
with this project review, and there is every intention, if we 
get to the end of the project review, and it is determined that 
SOFIA should continue, that there is definitely a commitment 
from both of us that funding will be put back into the Fiscal 
Year 2007 operating plan and in future budget requests. We have 
both had discussions with Professor Wittig. We know of the 
great concern in Germany, and we take that very, very 
seriously.
    Mr. Honda. Just to reclaim my time for 30 seconds, if I 
may. Thank you for the question. I am not a rocket scientist, 
but it seems to me that all the decades that we have been 
studying this, the issue of it being airborne would have been 
one of the first things that would have been taken care of, and 
you know, someone needs to convince me that this is a problem 
that is so significant that, you know, funding is not--funding 
is, you know the reason for funding set aside, that that is the 
only reason. I mean, it just doesn't make any sense to me. I 
mean, you know, we are talking about NASA, you know, that is 
airborne, and to have that as an issue, the only issue, it 
passes my understanding, so I hope that you will be able to get 
back to us in a timely manner, to you know, so that we don't 
lose face with Germany, as we have done in other countries.
    Ms. Dale. And we do plan to have continuing dialogue with 
the Committee about this issue----
    Mr. Honda. Thank you very much.
    Ms. Dale.--as we go on.
    Mr. Honda. Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you, Mr. Honda.
    Mr. Honda. And thank you, Dr. Griffin.
    Chairman Boehlert. Mr. Akin.

                              Hypersonics

    Mr. Akin. Thank you, Mr. Chairman. I had questions that are 
different, but similar, to some degree, and I had several 
different questions that Administrator Griffin--maybe I will 
just run through and try and give you a flavor of what I am 
concerned with.
    The National Aeronautics and Space Act obligates NASA to 
conduct research and development, including developing 
experimental vehicles. However, NASA's new fundamental 
aeronautics program focuses only in fundamental research 
leading to, perhaps, some baby step flight experiments after 
2013, but no development of hypersonic demonstrator vehicles at 
all. Please explain why NASA is seemingly ignoring this 
important provision of the NASA Space Act. That is the first 
one.
    And then, along the same lines, the Boeing ATK team 
competed and won the X-43C program, and yet after successfully 
the X-43A flights in 2004, NASA canceled the X-43C program, and 
then--so I guess the question is a couple. Then, Senator Talent 
again added $25 million to the budget to support the X-43C, and 
then, NASA claimed that the conference report language was 
ambiguous, so that NASA could take the money and use it 
somewhere else. I guess the question I have is, do you have a 
commitment to hypersonics, in developing that as a method of 
trying to get up.
    And then, the second thing is, is you mentioned you have 
put all this number of million dollars in a pot, wanting 
companies to come and partner with you. If the companies put 
millions of their own money into something, and then, the 
program gets canceled, that certainly doesn't encourage them to 
want to make the same mistake a second time, does it?
    Dr. Griffin. That is probably right. On the other hand, if 
we are not doing the right things with the money that we are 
asking the companies to partner with us, then continuing to put 
more money onto things that we don't believe are correct, is 
also not a good path. We----
    Mr. Akin. Could you unpack that a little bit? In other 
words, you are saying it isn't working, or----
    Dr. Griffin. No, I am saying I will reiterate what I have 
said before, is that in certain areas, we feel that the prior 
strategy for aeronautics was inappropriate. It was an 
inappropriate way to spend money, and whether we are doing it 
ourselves, or asking people to partner with us in spending 
money in those directions, is kind of a second order issue. The 
first order issue is what should we be doing?
    Mr. Akin. And you are saying hypersonics really just 
doesn't fit in your----
    Dr. Griffin. No, quite the contrary. I am quite enamored of 
hypersonics, but some of the particular programs that you are 
talking about may not have been the ones that we would care to 
pursue. Hypersonics is part of fundamental aeronautical 
science, and we do want to pursue it. We are, as I said 
earlier, reworking our aeronautics strategy to focus on these 
fundamental issues. Some of these particular vehicle 
demonstrations, that had been done, or were planned, are not 
things that we believe really should be done.
    I understand that Boeing is annoyed. They lose no 
opportunity to tell me that they are annoyed. At this point, 
they have to get in line. I don't know what else to say.
    Mr. Akin. What was the problem? This particular vehicle 
just doesn't meet your needs?
    Dr. Griffin. I would like to take that for the record, and 
get back to you with a fully detailed answer on where we are 
there.
    Mr. Akin. Okay. Thank you. Thank you, Mr. Chairman.
    Dr. Griffin. Thank you.
    Chairman Boehlert. Mr. Administrator.
    Dr. Griffin. Mr. Chairman.
    Chairman Boehlert. Thank you so much. I appreciate your 
indulgence. I am sorry that we were rudely interrupted by the 
House, and so we had to take about a 40 minute break, but I 
really appreciate it, and I do, once again, want to restate how 
much we welcome your style, and the substance you bring to that 
style.
    Thank you very much. Hearing adjourned.
    Dr. Griffin. Thank you, sir.
    [Whereupon, at 1:42 p.m., the Committee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Michael D. Griffin, Administrator, National Aeronautics 
        and Space Administration

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  Section 102(b) of the NASA Authorization Act of 2005 directs NASA 
to provide a report on the expected budgets for NASA as a whole under 
various assumptions. The report is due on April 30, 2006. However, you 
testified that the report would not be completed by the required due 
date. Please provide a date when the report will be provided to the 
Committee.

A1. NASA anticipates providing the report to the Committee on June 30, 
2006.

Q2.  Last October, NASA provided the Committee with a cost estimate of 
$104 billion to return to the Moon by 2018. Is this number an average 
of a range? If so, what is the range in the cost estimate? What 
technical content is included in the scope of this estimate? Does this 
include CEV support to the International Space Station (ISS)? If not, 
how much is it expected to cost for CEV to support the ISS?

A2. The cost estimate from last fall was generally developed using 
parametric cost models. The estimate reflects the conceptual designs of 
the various architectural elements defined by the Exploration Systems 
Architecture Study (ESAS). The estimate of $104 billion covered the 
Design, Development, Test, and Evaluation (DDT&E) and early operations 
costs from FY 2006 through FY 2018. It included the funds for 
government management of the Constellation Systems program and the 
costs for Crew Exploration Vehicle (CEV). This total did not include 
CEV support to the International Space Station (ISS). If those costs 
are included, the total through 2018 would be $124 billion. This 
includes $104 billion for the non-recurring cost of all the Vision for 
Space Exploration (VSE) systems and the recurring cost of the lunar 
program through 2018, and another $20 billion booked for ISS support 
through 2016. It is important to note that NASA now hopes to use more 
cost-effective commercial services to transport crew and cargo to the 
ISS. The orbital cargo and crew transport demonstrations are scheduled 
to take place as early as 2008 and 2010 respectively.
    The ESAS estimate for Constellation Systems included the 
development costs of the CEV, Crew Launch Vehicle (CLV), new EVA suits 
and crew equipment, launch and missions systems and infrastructure 
needed to support the CEV and CLV, and the Exploration Communications 
and Navigation Systems (ECANS) needed to support lunar missions. The 
cost estimate was based on enabling a first crewed launch no later than 
2014, and potentially sooner, as well as a lunar surface expedition as 
early as 2018, but no later than 2020. All of these elements are 
necessary to the success of the exploration architecture and all are 
major cost drivers.
    To arrive at the average value in the estimate, NASA used the NASA/
Air Force Cost Model (NAFCOM). NAFCOM calculates the probable costs for 
a project as compared to previous and similar projects. The model can 
be run with a confidence level ranging from 35 percent to 50 percent 
(the confidence level represents the likelihood that the project will 
be completed at or below the estimated cost). NASA used the mean (50 
percent) NAFCOM values, then increased the estimates to provide a 
higher confidence level of 65 percent.
    Currently, the Constellation Program is refining cost estimates 
against a requirements review cycle for Constellation Systems as part 
of the overall FY 2008 budget formulation process. These cost estimates 
will be refined over the next six to eight months as we begin to 
definitize the contract costs for Constellation systems. The next 
estimates will provide the basis for the FY 2008 President's Budget 
Submit for NASA next fall.

Q3.  The Defense Science Board recommended that space programs be 
budgeted to an 80 percent confidence level cost estimate, including 
reserves. What confidence level will NASA use to develop its next set 
of updated cost estimates for the Constellation program? Please provide 
a justification for the confidence level selected. Also, we understand 
the current 65 percent confidence level assumes a budget profile 
different from the one actually proposed in the fiscal 2007 budget 
request. Is this correct? How much does the actual funding profile 
lower the confidence level?

A3. NASA is currently formulating its risk policy for new programs. 
Once the risk policy is determined, it will be codified in NPR 7120.5D 
and the NASA Cost Estimating Handbook. However, we will not be 
budgeting to the 80th percentile for individual projects across-the-
board. Doing so, especially in Mission Directorates such as the Science 
Mission Directorate (SMD), where there are many individual projects and 
less correlation across projects, would result in a total SMD portfolio 
confidence level of 85 percent to 95 percent, which ties up too much 
money in reserves. Budgeting to a confidence level of 60 percent to 70 
percent in SMD will yield a more reasonable portfolio confidence level 
of about 80 percent. There are numerous other considerations as well. 
For example, budgeting to ``high'' confidence levels for the Phase C/D 
work while still in Phase A would tend to eliminate potentially 
promising projects before they have had time to accomplish the risk 
reduction that is a natural part of Phase A.
    In summary, the selection of a confidence level is multi-faceted, 
and should be decided on a project-by-project basis. For Category I and 
II projects, the NASA Headquarters Program Analysis and Evaluation 
Office will be performing independent cost estimates and recommending 
budget levels to the Program Management Council that reflect 
appropriate confidence levels. It may take several years for NASA to 
achieve revised budgetary confidence levels for ongoing programs.

Q4.  Last fall at a hearing before the Committee, you stated that you 
had directed two teams to examine the minority reports in the Stafford-
Covey report. One team, headed by the Associate Administrator for Space 
Operations was to develop a set of specific actions to address issues 
raised by the minority reports. Another team, headed by the Program 
Analysis and Evaluation Directorate, was asked to assess the Safety and 
Mission Assurance program within NASA. What progress have these teams 
made? What specific results and recommendations have they made? What 
are your plans to implement their recommendations?

A4. The Space Shuttle program is actively implementing the core 
observations made from several of the Task Group members. The Vision 
for Space Exploration clearly defined the mission of the Space Shuttle 
program as the completion of the International Space Station. It also 
specified that this mission would be complete by the end of fiscal year 
2010. NASA has developed a clear, unambiguous plan to execute this 
direction that enables our exploration activities. NASA and the Space 
Shuttle program leadership are being held accountable to these goals.
    Similarly, the Space Operations Mission Directorate leadership has 
reinforced the systems engineering rigor established prior to return-
to-flight by ensuring that testing will be used to verify the results 
of analysis and modeling used in space flight programs. For example, 
the Space Shuttle program has established a plan for verifying the 
integrity of the external tank that will be flown on the second return-
to-flight mission, STS-121, and subsequent missions. This plan involves 
both analysis and testing to verify analytical results.
    NASA is working to ensure that not only our engineering but also 
our management practices are rigorous and appropriate. In keeping with 
this commitment to management excellence, the Space Shuttle program has 
a new management team with a strong mix of skills and experience. This 
management team, led by Mr. Wayne Hale, is uniquely suited to managing 
the particular challenges of concurrently operating and shutting down 
the aging Shuttle system while supporting transition of those elements 
necessary for exploration.
    The Space Shuttle program continues to learn from its experiences 
and is finding ways to share those experiences both within and outside 
of the Program. At management status reviews, managers share decisions 
made and the information available at the time of those decisions to 
assess effectiveness. This approach was successfully applied to the 
International Space Station Program and, as a lesson learned from that 
activity, is being employed in the Space Shuttle program. The Space 
Operations Mission Directorate is working closely with the Exploration 
Systems Mission Directorate as the latter develops its new vehicles and 
systems for exploration to ensure the knowledge base of the current 
operation programs is applied.
    With respect to the assessment of the Safety and Mission Assurance 
program, the NASA Exploration Safety Evaluation Study (NESS) team was 
established in October 2005. A copy of the memo establishing the team 
follows.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Process and Status

    The team leadership organized the study, the NESS into two Phases. 
The first Phase, which was completed this past January, involved a 
small team of selected experts visiting the ten NASA Centers, the NASA 
Engineering and Safety Center and HQ, to ``establish the current `on 
the ground' situation of the Safety and Mission Assurance Organizations 
across NASA.'' The findings of the first Phase were used to establish 
the core team for a Second Phase effort to develop recommendations for 
improvements to the current safety organizations.
    The core team members, consisting of a dozen specialists, were 
assigned areas of investigation. Each core team member in turn 
assembled a sub-team of additional civil servants and consultants to 
assist them in their investigations. The core team and sub-teams have 
conducted additional Center visits as required to assemble their 
observations and resulting findings in each of their areas.
    In addition, the study leadership has selected a diverse team of 
senior advisors consisting of former NASA, NASA associated, non-NASA 
government personnel and noted academics. This Senior Advisory Group 
(SAG) was chartered to review the study as it developed and to provide 
suggestions for the study effort. The SAG has already met twice with 
the core team. The purpose of the first meeting was to introduce the 
SAG members to the study and the core team. The purpose of the second 
meeting was to engage the SAG in a review of the observations obtained 
and the findings developed. The SAG comments helped to further focus 
the activity of particular safety concerns, and they suggested 
additional areas for data collection or investigation.
    The core team is now focused on the development of recommendations 
that can be implemented and that are directly supported by the 
observations collected and the subsequent findings. A draft set of 
recommendations are expected to be completed by the end of March. The 
recommendations will then be discussed in a third meeting with the SAG, 
which is scheduled for March 27. These recommendations will be briefed 
to the Administrator on March 28.
    Upon completion of these reviews, the core team will incorporate 
final suggestions made by the SAG and the Administrator, as it deems 
appropriate, and then focus on the development of the final set of 
recommendations. Additionally, a draft final report and associated 
presentation will be developed to document the NESS study.
    The core team activity is scheduled for completion at the end of 
April and a final report is currently scheduled for delivery to the 
Administrator in May 2006.

Q4a.  What specific results and recommendations have they made?

A4a. At present, no results have been finalized and no recommendations 
have been made.

Q4b.  What are your plans to implement their recommendations?

A4b. At present, no recommendations have been made.

Q5.  Last year, Congress provided an exception to the Iran 
Nonproliferation Act (INA) to allow NASA to make purchases through 2012 
for Russian Soyuz capsules and Progress logistics supply vehicles. What 
is a rough estimate of how much money NASA plans to send to Russia 
through 2012? In the 1990s, money sent from NASA to Russia did not 
always make it into the hands of the people doing the work and the 
deliveries fell behind. For example, the Russian Service Module was 
delivered 27 months late. What controls are in place to make sure the 
money goes to the proper people?

A5. Due to the current INA legislation, as amended NASA cannot contract 
with the Russian Space Agency for ISS services past December 31, 2011, 
although the requirement for Crew & Cargo services is expected to 
continue beyond 2011. There is a possibility that a U.S. commercial 
cargo delivery capability may exist by the end of 2009, therefore NASA 
is not currently contracting for Russian cargo services past 2009. 
Within those limitations and consistent with current laws and 
regulations, NASA intends to contract with the Russian Space Agency for 
roughly $725 million through 2010 for crew rotation and rescue, cargo 
delivery services, and some accompanying hardware development and 
integration services.
    Although delivery of the Service Module was late, its development 
and delivery was not part of the Russian contract with NASA. The 
Service Module element was a part of the Russian contribution to ISS 
and Russia was wholly responsible for the entire funding of that 
module. During the time the Service Module was being developed 
complications resulted from, among other things, a lack of appropriated 
funds from the Russian government.
    Under NASA contract 15-10110 there are control mechanisms in place 
such as a milestone billing arrangement and audits. Milestone billing 
events are used to track RSA progress through the entire contract 
effort and each milestone is based on work completed and found 
acceptable for payment. Each contract line item is subdivided into 
numerous milestone events in order to ensure appropriate insight is 
maintained with respect to contract performance. Since the award of 
NAS15-10110, NASA has performed three audits to assess the Russian 
Space Agency and subcontractor financial processes. The primary focus 
of the audits was the flow-through process from receipt of the money 
from its bank in the United States to the disbursement to the first 
tier subcontractors. Our audits revealed traceability of the funds from 
the prime to the subcontractor. We continue to work closely with our 
Russian counterparts and the first tier subcontractors and should we 
encounter any issues with respect to flow down of monies to the 
subcontractors, NASA would perform another audit.
    NASA has experienced reliable performance of those Russian 
deliverables that are on the contract, such as Androgynous Peripheral 
Docking System (APDS), Airlock Depress Pumps, and Soyuz Anthropometric 
modifications.

Q6.  NASA estimated that it needs $760 million to address damage 
sustained as a result of hurricanes in 2005. Congress provided $350 
million in supplemental funding. Please provide a list of projects that 
will be completed with the current funding and a prioritized list of 
projects that will not be funded.

A6. NASA's early estimate was $760 million, but the Agency has 
continued to refine cost estimates for all Hurricane Katrina recovery 
activities. After a detailed review by the Katrina Headquarters 
Recovery Team, as of April 25, 2006, the Agency reduced its total 
estimate of all costs for responding to Katrina and for catastrophic 
risk mitigation projects that would protect against future hurricanes 
to $483.8 million. Review of the content in this estimate is ongoing 
and will continue to be revised; NASA will keep the Committee informed 
of future adjustments to the estimate.
    As has been discussed during hearings and in briefings with 
Committee staff, NASA borrowed $100 million in FY 2005 funds from the 
Space Shuttle and International Space Station (ISS) cargo/crew programs 
to provide immediate support of hurricane recovery efforts in the Gulf 
region before any supplemental funds were provided. The intent was to 
eventually repay these programs for this initial outlay of funds, and 
NASA repaid $20 million of the amount borrowed in the May update to the 
FY 2006 Operating Plan.
    NASA currently has available $384.8 million in FY 2006 funding from 
two emergency supplemental appropriations and $80 million in FY 2005 
funding that was borrowed from the Shuttle and ISS crew/cargo programs. 
NASA may repay approximately $20 million in additional borrowed FY 2005 
funds that are not yet spent in a future Operating Plan update. The 
Agency continues to require transfer authority to use up to $60 million 
in available FY 2006 supplemental funding to repay the balance of funds 
borrowed and expended in FY 2005 to allow the Agency to adequately fund 
the requirements of the Space Shuttle and ISS programs.
    Hurricane-related Center recovery and operations costs, along with 
real property repairs and programmatic recovery requirements are 
accommodated within the current funding availability. Catastrophic loss 
mitigation projects will be addressed on a priority basis depending on 
the availability of funding.
    The following center recovery operations, real property repairs, 
and programmatic recovery activities are likely covered within 
available funding:
STENNIS SPACE CENTER Estimated Cost (in $millions)

Center Recovery Operations Support    17.0

IT/Communications/Environmental/Other    6.0

Programmatic Recovery    3.0

Real Property Repairs    82.61*

        <bullet>  Repair Site wide Electrical Distribution System    
        7.79

        <bullet>  Repair/Replace Roofing Various Administration 
        Buildings    7.95

        <bullet>  Replace Bldg 2204 Roof    7.91

        <bullet>  Repair Administration Building 1100    7.65

        <bullet>  Repair and Replace Perimeter Fencing    7.95

        <bullet>  Replace Bldg 1100 North Wing & Bldg 1105 Roof    1.03

        <bullet>  Repair Bldg 2205 High Bay Roof (complete)    0.73

        <bullet>  Repair Building 1100 North Wing--Interior    2.70

        <bullet>  Site wide Mold Remediation and Asbestos Abatement    
        2.44

        <bullet>  Replace Bldg 2201 Roof    3.50

        <bullet>  Repair/Replace Roofing Various Industrial Complex 
        Buildings    1.74

        <bullet>  Repair/Replace Roofing Various Test Complex Buildings  
          1.99

        <bullet>  Site wide Debris Cleanup    1.59

        <bullet>  Replace Bldg 8100/8110 Roofs    3.04

        <bullet>  Site wide Lightning Protection Repairs (Multiple 
        Projects)    0.80

        <bullet>  Relocate Roads and Grounds Building    0.87

        <bullet>  Repair and Pave Roads for Heavy Vehicles    2.88

        <bullet>  Education Center (Replacement for Bldg 1200)    1.93

        <bullet>  Site wide Electrical Panel Enhancements and Database  
          1.06

        <bullet>  Local Projects (<$500K) and Maintenance Items    7.06

* Does not include $13.7M in program manager reserve

MICHOUD ASSEMBLY FACILITY Estimated Cost (in $millions)

Center Recovery Operations Support    20.9

IT/Communications/Environmental/Other    2.4

Programmatic Recovery    42.5

Real Property Repairs    69.00*

        <bullet>  Hazardous Materials Investigation    0.05

        <bullet>  Repairs of B103, Phase 1    2.50

        <bullet>  Repairs of B451, Phase 1    0.75

        <bullet>  Repairs of B114    0.60

        <bullet>  Repairs to Damaged Elevator B110    0.10

        <bullet>  B303 Temporary Roof Repair    0.09

        <bullet>  TBD Projects during test and checkout    0.50

        <bullet>  MSFC-COSS Contractor Support for damage assessment    
        0.04

        <bullet>  MSFC--M1 Yard Roof Repairs    0.01

        <bullet>  MSFC--Remove Damaged Trees and Repair B4707 Tower 
        Roof    0.02

        <bullet>  Work Plans for B420, 110, 114, 103, 303, 451, 220, 
        101, 102, 173, 175, 320, 404    0.94

        <bullet>  Local Projects (<$500K) and Maintenance Items    5.21

        <bullet>  Repairs of B110, Phase 2    6.40

        <bullet>  Repairs of B173    2.02

        <bullet>  Repairs of B175    0.68

        <bullet>  Repairs of B220    1.37

        <bullet>  Repairs of B303    6.60

        <bullet>  Repairs of B320A    1.54

        <bullet>  Repairs of B320B    0.94

        <bullet>  Repairs of B404    1.49

        <bullet>  Repairs of B420    5.63

        <bullet>  Repairs of B103, Phase 2    4.77

        <bullet>  Repairs of B451, Phase 2    1.50

        <bullet>  Repairs of B101    5.04

        <bullet>  Repairs of B102    8.22

        <bullet>  Repairs B75, 105, 106, 107, 109, 113, 119, 127, 130, 
        131, 135, 140, 171,176, 177, 178, 179, 201, 203, 206, 207, 221, 
        232, 239, 301, 302, 304, 305,307, 308, 318, 321, 327, 329, 359, 
        351, 360, 361, 406, 409, 421, 423, 424, 419, 450, 480, 485    
        12.00

* Does not include $10.0M in program manager reserve

NASA SHARED SERVICES CENTER Estimated Cost (in $millions)

Recovery/Workarounds    7.7

OTHER NASA CENTERS/HQ SUPPORT/RESERVE Estimated Cost (in $millions)

Center Recovery Operations Support    2.2

Other General Support    4.0

FEMA Volunteers    1.9

Program contingency/Reserves    39.2

    The following potential catastrophic loss risk mitigation projects 
have been identified. Unless noted, the majority of these projects have 
not yet been approved for funding. Projects for each Center are listed 
in order of priority.

STENNIS SPACE CENTER Estimated Cost (in $millions)

        <bullet>  Hurricane Proof Emergency Operations Center    14.90*

        <bullet>  Replace and Enhance Backup Generator Capability Site-
        wide    3.00

        <bullet>  Enhance Site-Wide Electrical Distribution System 
        Hardening    18.65

        <bullet>  Add Additional Bulk Diesel Storage    0.50

        <bullet>  Enhancement to Potable Water Pump Houses    0.10

        <bullet>  Emergency Communications and EMCS Enhancements    
        0.90

        <bullet>  Hurricane Proof Record Retention Facility    2.50

        <bullet>  Relocate Electrical Equipment Building 1200    1.00

        <bullet>  Expand and Enhance Communication Ductbank    3.00

        <bullet>  Inspect Bridge and Locks    1.00

        <bullet>  Dredge Canal    3.00

        <bullet>  Enhance Administration Building 1100    3.00

        <bullet>  Test Complex High Pressure System Uninterruptible 
        Power    30.00

        <bullet>  Design Cost (six percent)    4.89

                                                                        
                                  Total    $86.44

*  Project is approved for funding. The total project cost is $21.4M; 
the remaining $6.5M will be funded with FY 2005 Institutional CofF 
funds.

MICHOUD ASSEMBLY FACILITY Estimated Cost (in $millions)

        <bullet>  Upgrades to Pump House    11.00*

        <bullet>  Install levee floodgate at barge dock    0.70

        <bullet>  Upgrades to Emergency Operations Building    3.30*

        <bullet>  Rewire security cameras to operate on emergency power  
          0.70*

        <bullet>  Replace electrical feeders on poles below ground    
        5.00

        <bullet>  Reconfigure computer servers to provide critical ops 
        during severe weather    5.00

        <bullet>  Replace main manufacturing building exterior siding    
        7.00

        <bullet>  Levee improvements (requires Corp of Engineers 
        coordination and app)    5.00

        <bullet>  100 percent increased labor, materials, and 
        transportation costs    37.7

                                                                        
                                  Total    $75.4

*  $1.7M in funding has been approved for MAF projects as follows: 
$300K for designs and studies, $600K for remote controls for the 
existing Pump House, $500K for relocating the MAF Emergency Operations 
Building, and $300K for security cameras. The ``Install levee floodgate 
at barge dock'' project will be approved for funding as soon as design 
is complete.

Q7a.  What is the current estimate for building and launching a free-
flying Landsat mission?

A7a. The FY 2007 President's Budget Request shows a life cycle cost for 
the Landsat Data Continuity Mission (LDCM) of $554.1 million. The 
Operating Plan sent to Congress on May 31, 2006 transferred $5.7 
million out of LDCM for the Orbiting Climate Observatory (OCO). The 
present life cycle cost includes $17.2 million for the Data Buy Mission 
that ended in 2003 and $22.7 million for the development of the 
Operational Land Imager (OLI) instrument for flight on National Polar-
orbiting Operational Environmental Satellite System (NPOESS) mission. 
The revised estimate for building and launching a free-flying Landsat 
mission is still being worked as part of the FY 2008 Budget Request.

Q7b.  Please also provide an estimate for the annual operating costs 
for such a mission.

A7b. NASA is responsible for acquiring the LDCM free-flyer, launch, on 
orbit checkout and delivery acceptance. Following the prescribed on-
orbit acceptance period, NASA plans to transfer ownership of the 
observatory and the associated contract to the U.S. Geological Survey 
(USGS) who will then operate the spacecraft and manage the data. 
Operating costs are reflected as a DOI/USGS responsibility and are 
reflected in the Department of Interior (DOI)/USGS Budget Requests.

Q7c.  Will the sensor requirements for a free-flying Landsat mission be 
the same as for the previously planned Landsat Data Continuity Mission?

A7c. The Landsat Data Continuity Mission performance requirements are 
consistent with the previously identified performance requirements and 
are commensurate with the definition of data continuity as prescribed 
in Sec. 5602, Public Law 102-555.

Q7d.  Will these requirements include the thermal band, which has been 
included in previous Landsat satellites, but was dropped from the 
Landsat Data Continuity Mission requirements?

A7d. The acquisition approach for the LDCM free-flyer will include an 
option for the thermal band.

Q8.  In implementing its plans for returning to the Moon, how will NASA 
avoid the cost growth, schedule delays and technical problems 
experienced by other space programs, such as Space Station, the James 
Webb Space Telescope and others? If the program's cost grows, will NASA 
live within the projected FY 2007 budget (so-called ``go-as-you-can-
pay'' as stated in the Vision) or will it seek to redirect funds from 
other programs?

A8. The FY 2007 President's Budget Request for NASA provides the 
resources necessary to bring the Crew Exploration and Crew Launch 
Vehicles online by 2014, and potentially sooner.
    Our cost estimates will be refined in an iterative process over the 
coming year as NASA more fully engages its field Centers and 
contractors, receives industry proposals, and as the architecture 
design is refined. Program requirements and costs are being refined 
through a series of design cycles--with high-level trades and costing 
occurring in early cycles, and complete, more refined analysis in later 
cycles. Definition of the exploration architecture in July 2005, as 
part of the Exploration Systems Architecture Study (ESAS), was the 
first cycle in this process. The President's FY 2007 Budget Request is 
the basis of the second analysis cycle. The results from this analysis 
represent NASA's best understanding of program costs. Refinement will 
continue until the program is baselined at its preliminary design 
review. NASA believes the current cost estimate includes sufficient 
cost contingency to address the normal developmental problems of 
complex projects.
    NASA has been careful to use conservative assumptions were used in 
generating the cost and schedule for Constellation. Cost modeling was 
done using the NASA Air Force Cost Model (NAFCOM), the government 
standard for generating parametric estimates for complex space systems. 
The architecture has been based on mature, known technologies, 
maximizing the utilization of heritage systems from Shuttle and design 
data from Apollo. Costs were estimated conservatively and assume an 
appropriate amount of NASA oversight with reserves added ensuring a 65 
percent confidence factor.
    In addition, NASA is taking a more rigorous approach to the 
requirements definition and formulation than in some previous programs. 
Programmatic and technical decisions will be weighed by their impact on 
total life-cycle costs as opposed to their short-term budget 
implications. We are also implementing management tools such as Earned 
Value Management, a thorough Risk Management process, and are using a 
single Integrated Collaborative Environment to facilitate the 
coordination of work across the Centers.
    Other factors to take into consideration:

        <bullet>  No credit was taken for potential outside investments 
        from international partners and industry.

        <bullet>  Extra effort has been put into developing sound 
        requirements.

        <bullet>  Design cycle goals:

                  Baseline requirements at system requirements review 
                (SRR) in fall 2006

                  Complete independent review of requirements and cost 
                estimate in spring 2007

                  Baseline technical design, cost, and schedule at 
                preliminary design review (PDR) in 2008

        <bullet>  In the case of CEV, NASA has incorporated existing 
        designs for the first stage engine and upper stage engine, 
        which is allowing more accurate explanation of costs.

        <bullet>  Synergies between ESMD and SOMD activities will lead 
        to efficiencies in capacity utilization; lowering the cost of 
        future operations.

        <bullet>  NASA intends to actively pursue commercial 
        participation in Exploration, which could reduce the cost, 
        accelerate the schedule or increase the capability of the 
        program.

    Constellation program will continue to make the most optimal trades 
between schedule, content and risk to ensure the most robust program 
possible is done within the budget available. Two essential ingredients 
to effectively manage a major multi-decadal program are funding 
stability and management performance.

Q9.  A mission to Jupiter's moon, Europa, has been ranked as the 
highest priority by the National Academy of Sciences. It is also a 
mission that has earned Congress' interest, as expressed in NASA's FY 
2006 appropriations bill (Science, State, Justice and Commerce, now 
Public Law 109-108), directing the agency to begin planning a mission, 
and ``to incorporate a new start for a non-nuclear Europe mission as 
part of its FY 2007 budget request.'' Why did NASA choose to ignore 
this direction by omitting any funding request for Europa?

A9. There are insufficient funds available in FY 2007 to begin a Europa 
mission. Further, based on recent scientific discoveries and 
discussions on budget priorities, a Europa mission may no longer be the 
top priority. We intend to discuss this issue further with the NASA 
Advisory Council, with representatives of the science community and the 
Space Studies Board of the National Academy of Sciences, and will seek 
their advice to ensure that we maintain an appropriate mix within each 
SMD Division between R&A, small-, medium-, and large-class missions.

Q10a.  What impact will the reduction in Radioisotope Power Systems and 
related technology developments have on U.S. exploration and science 
capabilities?

A10a. The reduction in budget for Radioisotope Power Systems (RPS) and 
related technology developments is not likely to impact science and 
exploration capabilities within the planning horizon. The RPS budget 
reductions were accommodated by delaying flight qualification of 
advanced technologies. Since many future science missions (such as the 
next Outer Planets Mission and selection of the next New Frontier 
Mission) have now been delayed, the budget reduction has no immediate 
impact on these missions. With a reduced budget, we are currently 
focused on developing and demonstrating advanced RPS technologies with 
the goal of increasing power conversion efficiency (which will reduce 
consumption of nuclear fuel) and specific power in terms of watts/kg 
(which will enable larger science payloads) to meet the needs of future 
science missions. The technologies, although being developed for future 
science missions, have potential for future exploration missions. For 
example, one of the technologies being developed in the RPS program, an 
advanced stirling radioisotope generator (SRG) with a potential for 
six-fold increase in efficiency, is of interest for lunar surface power 
applications in support of the exploration missions. The advanced 
technologies could potentially be transitioned to flight system 
development after a decision is made on the launch date for future 
science and exploration missions.

Q10b.  We have been told that without radioisotope power systems we 
will not be able to do missions beyond Jupiter and that there are no 
more radioisotope power system units in production. Is this true? If 
this is not restarted, will it still be possible to conduct future 
robotic missions beyond Jupiter?

A10b. For most space exploration missions where sunlight is abundant, 
solar power has been the preferred choice. But RPSs enable missions 
where solar and battery power would be inadequate. RPSs can operate at 
vast distances from the Sun, and have little or no sensitivity to cold, 
radiation or other space environmental effects. They are ideally suited 
for long-lived missions involving autonomous operations in the extreme 
environments of space and on planetary surfaces. RPSs have enabled 
exploration of the Sun, Mars, Jupiter, Saturn, Uranus and Neptune, and 
soon, Pluto.
    Therefore, we agree that scientifically meaningful missions beyond 
Jupiter cannot be accomplished without RPS. Even at Jupiter, long-
duration missions would require RPSs because of its radiation 
environment. It may be possible to conduct missions beyond Jupiter 
without RPS, but the goals and the results would be quite limited in 
scope. Mission requirements such as mission lifetime, energy required 
to operate scientific instruments, and the operating environment for 
the spacecraft would result in a continuing need for these systems.
    RPSs would be required for the exploration of numerous high-
priority science destinations in the solar system. The next RPS-powered 
mission will be the Mars Science Laboratory (MSL) that is scheduled to 
launch in 2009. Beyond MSL, NASA is considering several radioisotope 
powered missions, such as the Mars Astrobiology Field Laboratory, Solar 
Probe, and the Europa Geophysical Explorer. In addition, NASA is 
studying the potential of various lunar surface power capabilities that 
may require RPS to enable extended robotic and human exploration; 
however, the specifics of the missions and timelines are not yet firmly 
established.
    Most of the past NASA deep space missions (such as Galileo, 
Cassini, and Pluto) have used an RPS system, called General Purpose 
Heat Source Radioisotope Thermoelectric Generator (GPHSRTG), which is 
no longer in production. However, there are enough spare thermocouples 
left over from the past missions to fabricate at least two (can power 
two more New Horizon Pluto type missions) and possibly three more 
GPHSRTG units (with capability to power one Cassini type mission). We 
have recently initiated efforts to refurbish these thermocouples, which 
would enable us to fabricate these if a decision was made for the next 
outer planets mission and if advanced technologies have not been 
demonstrated.
    Within the Mars program, we are currently developing a Multi-
mission Radioisotope Thermoelectric Generator (MMRTG) system that is 
capable of operating in the deep space of vacuum as well as in 
planetary atmospheres. The MMRTG has the same conversion efficiency as 
the GPHSRTG (which cannot operate in Mars atmosphere), but is heavier. 
The MMRTG is targeted to be used for the Mars Science Laboratory that 
will be launched in 2009, with production capability established by 
2008. An MMRTG could be used for future Mars missions and near-term 
lunar missions.
    In summary, while advanced technologies are being developed in the 
RPS program to meet long-term science and exploration needs, we have 
several options available for meeting our near-term needs.

Q11.  NASA is the Federal Government's lead R&D organization for air 
traffic management, and the future success of the Joint Planning and 
Development Office (JPDO) hinges on NASA's ability to research and 
develop new technologies to accommodate an expected tripling in the air 
traffic system by the year 2025. Given the huge role played by NASA in 
this endeavor, why did the agency propose reducing Airspace Systems 
Research by almost one-third for FY 2007? How could this cut be 
implemented without jeopardizing the JPDO's mission?

A11. NASA is putting in place a strategic plan for Aeronautics research 
that addresses many of the research challenges facing the successful 
realization of the JPDO vision for the Next Generation Air 
Transportation System (NGATS). While Air Traffic Management (ATM) is a 
significant element of that vision, it is not the only challenge that 
must be addressed. The future air vehicles of the system will need to 
address substantial noise, emissions, efficiency, and performance 
challenges. These challenges will be addressed in our Fundamental 
Aeronautics Program.
    Furthermore, as we develop increased capabilities in our future air 
vehicles and airspace system, we must continue to conduct the research 
necessary to ensure that our high safety standards are not compromised. 
Our Aviation Safety Program will address aircraft safety technological 
barriers that would otherwise constrain the full realization of the 
NGATS. Thus, in addition to the fact that the entirety of the Airspace 
Systems Program is devoted to ATM research in support of NGATS, a 
substantial amount of research conducted in the Fundamental Aeronautics 
Program and the Aviation Safety Program will also directly address 
NGATS challenges. NASA has constructed a balanced research portfolio 
that draws upon our NASA-unique capabilities to address ATM, 
environmental, and safety-related research challenges, all of which 
must be worked in order for the NGATS vision to be realized in the JPDO 
mission.
    It should also be noted that the decline from FY 2006 to FY 2007 in 
the Airspace Systems program is due in part to the phasing out of 
certain projects. The Small Aircraft Transportation Systems (SATS) was 
scheduled to be completed in FY06 after a successful demonstration in 
June 2005. UAVs in the (NAS) has been transitioned to the FAA, per 
direction from the FY 2006 NASA Appropriations language. The Space-
Based Technologies Project has also been phased out, because it was 
duplicative of research being conducted by the Department of Defense 
(DOD). The sum total of these FY 2006 budgets was $13.6 million. In 
addition, $8.0 million of site-specific earmarks were not included in 
the FY 2007 budget. These items represent over 12 percent of the FY 
2006 Airspace Systems budget.
    Finally, it is important to recognize that while the NGATS vision 
is a very important element of NASA's aeronautics research portfolio, 
NASA has an obligation to ensure that it applies its unique research 
capabilities to other national needs. This obligation includes 
partnerships with the DOD and industry in support of cutting-edge 
research in hypersonics, supersonics, and rotorcraft. This obligation 
also includes a commitment to support the Vision for Space Exploration 
by conducting fundamental, cutting-edge research in such areas as 
hypersonics, aerothermodynamics, advanced materials, and integrated 
vehicle health management.

Q12.  The FY 2007 budget transfers more than $3.5 billion to Space 
Shuttle and Space Station over the next five years. Are the Space 
Shuttle and Space Station programs now fully funded for the next five 
years? Do the projected budgets include adequate reserves? What 
additional funding, if any, might be necessary to make the Space 
Shuttle and Space Station programs whole?

A12. With the $3.5 billion transfer to the Space Shuttle and 
International Space Station programs over the next five years, these 
programs are now fully funded. The FY 2007 budget provides adequate 
reserves for the Space Shuttle program to support the program baseline, 
cover technical uncertainties for operations, and any residual Shuttle 
Return to Flight (RTF) requirements. As tasks are completed, any 
remaining funds will be ``recovered'' and applied to other tasks or 
held as reserve to support program phase-out and severance/retention 
activities as needed. The ISS program does face a reserve management 
challenge in FY 2006 and FY 2007 due to institutional impacts and 
overhead. NASA does not anticipate needing any additional money for the 
programs over the next five years.

Q13.  When do you expect to increase the Space Station crew size to 
six? How important do you consider a larger crew size, now that NASA 
will not be conducting the broad research program that was originally 
planned?

A13. NASA expects to have the capability to increase the ISS crew to 
six in the 2009 timeframe. It is essential that the ISS be staffed with 
six crew members to complete the final stages of ISS assembly and 
achieve the science goals set by the U.S. and our international 
partners.

Q14.  NASA has dropped the requirement for the Crew Exploration Vehicle 
(CEV) to use a U.S. docking system, called the Low-Impact Docking 
System,which is now under development. Why was this done? Without a 
U.S. docking system, won't the U.S. continue to be reliant on Russia 
for these systems? What are you doing to ensure that the U.S. is not 
dependent on foreign suppliers for critical items?

A14. The Low Impact Docking System (LIDS) was recommended by NASA's 
Exploration Systems Architecture Study (ESAS) as the docking mechanism 
of choice for the CEV, and NASA is continuing to develop this 
technology for use by the CEV and other exploration spacecraft. NASA 
recognizes, however, that deploying the LIDS adaptor to the 
International Space Station (ISS) would require that an extra Space 
Shuttle mission be manifested, and that development of the LIDS be 
accelerated to accommodate the Space Shuttle retirement schedule of 
2010.
    NASA is currently conducting detailed analysis and is aggressively 
seeking more cost-efficient approaches to incorporating LIDS on the 
ISS, including options that do not require an additional Space Shuttle 
flight. NASA recognizes the importance of avoiding reliance on foreign 
suppliers for mission-critical items for which there is no domestic 
alternative, and plans to incorporate domestic capabilities for 
exploration systems in a manner that is both technically sound and 
fiscally responsible. Consistent with the objective of creating an open 
architecture whereby NASA can use non-U.S. capabilities for added 
programmatic robustness, NASA has analyzed alternatives and identified 
the Russian Androgynous Peripheral Attachment System (APAS) docking 
mechanism as a workable option for Crew Exploration Vehicle (CEV) 
missions to the ISS. If technical and fiscal issues require that APAS 
be retained, NASA would plan to purchase units from Russia in 
furtherance of our obligations under the international space station 
agreements. However, LIDS remains the baseline system and NASA fully 
intends to develop that system.

Q15.  NASA plans to fly the Shuttle on 16 missions to the Space 
Station, plus one to service the Hubble. NASA has also said it has 
plans for two Shuttle logistics missions that it might fly as a 
contingency. What is the likelihood that these contingency missions 
will be necessary? What are the factors that will be used to determine 
whether these contingency missions will be needed? When will a decision 
be made on whether these contingency missions will be flown or not? 
Could the contingency missions delay retirement of the Shuttle beyond 
December 31, 2010?

A15. NASA intends to fly only 16 more Shuttle missions to the Space 
Station. The budget is sufficient to fly two logistical contingency 
missions, but those hypothetical missions will fly if and only if (1) 
they are absolutely needed to complete the ISS or bring up critically 
needed supplies and (2) can be safely launched without jeopardizing the 
Shuttle's 2010 retirement date. NASA expects that the 16 Shuttle 
flights planned to the Space Station through 2010, plus international 
and commercial services, will be sufficient to meet our international 
commitments and support Space Station research.

Q16.  NASA has decided to alter its implementation of the Independent 
Technical Authority (ITA). What were the issues that drove you to 
conclude that the ITA construct was not adequate and required 
modification? Explain how the latest implementation of the ITA complies 
with the recommendations of the Columbia Accident Investigation Board 
(CAIB). If you have decided to take exception to any portion of the 
recommendation of the CAIB, please explain the rationale for the 
exception.

A16. CAIB R7.5-1 recommended establishing an Independent Technical 
Authority for Shuttle. NASA established Independent Technical Authority 
(ITA) for the Shuttle and an expanded TA (Technical Authority) across 
NASA. The Technical Excellence initiative will expand the Technical 
Authority concept across NASA, consistent with Agency Governance NASA 
Policy Directive (NPD) 1000.3. The new model will fully 
institutionalize technical authority into the day-to-day practices and 
processes at NASA as recommended by the CAIB. Key attributes of the 
Technical Authority (consistent with CAIB recommendations) include: (1) 
Organizational independence from programs and projects and (2) Funding 
independence from programs and projects. Technical Authority is part of 
Technical Excellence, and builds on the lessons of the independent 
Technical Authority and other CAIB recommendations. The goal of 
Technical Excellence is to refine our way of doing business so that 
over the long-term, technical excellence, safety and mission success 
are part of our institution. The initiative will institutionalize the 
necessary processes and organizational culture changes to enhance and 
maintain technical excellence to enable safety and mission success.

Questions submitted by Representative Bart Gordon

Q1.  As NASA embarks on development of the vehicles and infrastructure 
needed to support the Vision for Space Exploration,

        <bullet>  What are the primary technical challenges you face, 
        and how does your plan currently intend to address them?

        <bullet>  What are the primary cost challenges you face, and 
        how does your plan currently intend to address them?

        <bullet>  What are the primary schedule challenges you face, 
        and how does your plan currently intend to address them?

        <bullet>  Which of these is your higher priority: technical 
        performance, cost, or schedule?

A1. Constellation Systems has identified several challenges, both 
technical and programmatic, to the successful implementation of the 
Vision and currently is working mitigation strategies. As the 
architecture and program proceed through formulation, we expect these 
mitigation strategies to be developed more fully.
    Within the Crew Exploration Vehicle (CEV) and Crew Launch Vehicle 
(CLV) programs, the primary technical challenge, according to our Risk 
Management Plan, is developing and integrating the upper-stage engine 
to support potential CEV launch dates earlier than 2014. The J-2X 
engine development is well underway, but there are technical challenges 
in the design, fabrication, and test of the modifications of this 
engine. These challenges can be overcome with a disciplined and 
aggressive engine development effort that focuses on rigorous testing. 
While development of the J-2X is a challenge, the derivative J-2S 
engine has a long heritage at NASA. The J-2S was scheduled to fly on 
later Apollo missions before the Moon program was canceled, and the 
more recent X-33 had been successfully testing the J-2S. Another 
significant technical challenge in support of the Vision for Space 
Exploration is that faced by the companies seeking to provide 
commercial cargo and crew services to the International Space Station. 
Success in this program will require that these companies implement new 
and cost-effective capabilities within a relatively short timeframe.
    NASA's primary budgetary challenge is ensuring that the Agency 
receives the President's Budget request for Constellation. Any 
reductions in funding could cause substantial schedule delays. 
Retaining our year-to-year carryover intact in order to ameliorate the 
non-optimal phasing will be key to our strategy to maximize the 
probability of program success.
    We believe that we can reach the milestone of launching the CEV by 
2014. The primary schedule challenge that we face is attempting to 
launch the CEV before 2014.
    NASA is working hard to ensure that these challenges are overcome. 
We will continue to refine cost, schedule and performance trades 
throughout the design cycle as the system design matures and gains 
fidelity, and will formally baseline an executable program at the 
Preliminary Design Review in the fall of 2008.
    It is difficult to segregate technical performance, cost, and 
schedule risks. Each one has a direct correlation with the other two. 
However, given these considerations, cost and maintaining a level of 
confidence in our budget profile is critical.

Q2.  NASA's current plan is to limit space and Earth science growth to 
one percent per year from FY 2008 through at least FY 2011. This is 
equal to at least a 1.5 percent loss in purchasing power per year based 
on NASA's inflation rate assumptions. Although the Shuttle is scheduled 
to be retired in 2010, NASA's exploration plans assume that significant 
additional exploration funding will be needed in 2011 and beyond due to 
the initiation of large lunar exploration-related development programs 
such as the Heavy-Lift launch vehicle program. As a result, is there 
any reason to assume that it will be possible to increase science 
funding above a one percent annual growth rate even after the Shuttle 
is retired? What growth rate are you assuming?

A2. NASA's FY 2007 Budget Request represents a concerted effort to 
ensure that each funded program has an executable budget, and that 
NASA's human space flight programs transition from the Space Shuttle 
Program to Exploration Systems in a coordinated way that minimizes the 
effect of the transition on other parts of NASA. To accomplish this, we 
made the decision to provide sufficient funding to the Space Shuttle 
Program to facilitate its completion over the next several years. We 
also overlapped the start up of the Exploration Systems work with the 
completion of the Space Shuttle Program. While these decisions created 
a temporary growth in the human space flight program funding, we were 
able to accommodate this transition while funding Science missions at 
31 percent of NASA's overall budget for FY 2007 to FY 2011. With the 
ramp-down of the Shuttle Program and the ramp-up of the Exploration 
Systems development efforts behind us, NASA may be better positioned in 
the next decade to support an increased science budget.
    NASA's 2006 Strategic Plan includes a goal to ``Develop a balanced 
overall program of science, exploration, and aeronautics consistent 
with the redirection of the human space flight program to focus on 
exploration.'' NASA remains committed to this goal and to the overall 
planetary science, astrophysics, heliophysics, and Earth science 
strategies described in the Strategic Plan that support this goal. The 
Strategic Plan serves as a foundation for shaping NASA's longer-term 
program planning and, indeed, many of the missions included in the FY 
2007 budget request are not planned for completion until the FY 2012 to 
FY 2016 timeframe. Even with these current commitments, however, NASA 
will be able to accommodate the introduction of additional science 
missions in the FY 2012 and FY 2016 timeframe consistent with this 
Strategic Plan without assuming budget growth beyond inflation.

Q3.  Please provide a listing of all life and microgravity sciences-
related research facilities, animal or plant holding facilities, or 
other hardware--whether totally or partially completed--that has been 
terminated or for which intent to terminate has been decided, providing 
the dollar value of each, as well as the disposition of the hardware.

A3. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q4.  Given the significant cuts to the International Space Station 
research budget for both exploration-related and non-exploration 
research, what is your rationale for continuing to invest in the ISS 
program?

A4. In addition to meeting NASA's commitments to its international 
partners, completion of the ISS plays a significant role in the Vision 
of Space Exploration. The planned research, development, test and 
evaluation of selected systems, evaluation of biomedical protocols for 
human health and performance, and the validation of operational 
practices and procedures for long-duration space missions are essential 
to future successful human missions to the Moon and Mars.

Q4a.  Does NASA have definite plans to end its use of the ISS in 2016? 
If so, why? If not, why does your budget charts show funding for the 
ISS stopping at that time?

A4a. NASA's current life cycle cost estimate for operation of the ISS 
is through 2016. NASA currently does not expect to continue funding the 
ISS after 2016. In the 2014 timeframe, NASA may consider an option to 
extend the operational life of ISS. At that time, a life extension 
analysis will be conducted to determine what would be required to 
ensure that the vehicle's systems and subsystems could continue 
operations.

Q4b.  If the ISS does cease operations in 2016, how do you intend to 
collect sufficient data to answer longstanding questions about the 
effects of microgravity on humans undertaking long space missions, such 
as to Mars and back, given you don't anticipate completing ISS assembly 
and restarting significant ISS research activities until 2010?

A4b. Life science research centered on human health and the long-term 
effects of microgravity is already being performed on ISS and will 
continue through 2016. A large body of operational data has already 
been collected, and ongoing data mining activities continue to fill 
gaps in our knowledge.
    To increase research opportunities, ground models and ground 
analogs are being further correlated with microgravity data from ISS so 
additional research is possible on Earth. In one effort, NASA is 
collaborating in a multi-agency modeling activity across several 
agencies (NIH, NSF, DOD, DOE) correlating research results and 
improving our ability to develop human health countermeasures.
    Beyond ISS, NASA will gather additional data from free-flyer 
experiments, human sorties and long duration lunar surface missions to 
integrate with previous data sets and help reduce the risk for eventual 
missions to Mars and other destinations.

Q5a.  The NASA budget sets aside $500 million over five years to help 
commercial companies develop space transportation systems to service 
the International Space Station. What precisely will those funds be 
used for?

A5a. This funding supports Phase 1 (Demonstration Phase) of the 
Commercial Crew/Cargo Project. During Phase 1, NASA will enter into 
funded Space Act Agreements with one or more U.S. companies to develop 
and demonstrate the vehicles, systems and operations to support the 
International Space Station. Under Phase 1, NASA seeks proposals for 
Earth-to-orbit demonstrations of any one or combination of four 
capabilities:

        <bullet>  unpressurized external cargo delivery and disposal,

        <bullet>  pressurized external cargo delivery and disposal,

        <bullet>  pressurized internal cargo delivery and return, and

        <bullet>  crew transport.

    NASA released the Space Act Announcement for Phase 1 on January 18, 
2006. NASA has recently selected several companies for negotiations of 
potential funded Space Act Agreements to perform demonstrations of 
Commercial Orbital Space Transportation Services (COTS) capabilities. 
These companies were selected out of the proposals submitted for 
evaluation on March 3, 2006. NASA was extremely pleased with the number 
of quality proposals received and is expected to announce final 
selections later this summer.
    After one or more successful demonstrations under Phase 1, NASA 
will competitively solicit commercial transportation services to and 
from the International Space Station under Phase 2 (Services Phase) of 
the Commercial Crew/Cargo Project.
    These services are important to establishing an independent, 
domestic capability for supporting the International Space Station and 
other human space flight activities after the retirement of the Space 
Shuttle. Without such a capability, the U.S. will have to continue to 
pay international partners to support the International Space Station 
until the Crew Exploration Vehicle (CEV) is available and will have no 
domestic alternative to the CEV once it is fielded.
    In addition to providing capabilities to NASA, companies will be 
able to offer their services to other customers. NASA hopes that the 
Commercial Crew/Cargo Project will provide building blocks for non-NASA 
space markets.

Q5b.  Do you consider the funds to be a subsidy to the commercial 
companies, or is NASA planning to recover the funds from the commercial 
companies when it negotiates contracts with them to service the ISS?

A5b. The funds are not a subsidy. NASA anticipates that companies will 
propose and commit to substantial cost sharing for Phase 1 
(Demonstration Phase) of the Commercial Crew/Cargo Project. Specific 
cost-sharing details will not be known until selections, negotiations, 
and awards are complete.
    NASA does not plan to ``recover'' Phase 1 funds during Phase 2 
(Services Phase). However, NASA anticipates that commercial transport 
services to support the International Space Station will be cost-
effective compared to the Space Shuttle and the CEV, which is designed 
primarily to meet exploration transport requirements.

Q5c.  What is your assessment of the likelihood that any of the 
competitors for those funds will have an operational service capability 
by 2010 when the Space Shuttle program is scheduled to be terminated? 
What is your backup plan if none is available or the costs of the 
commercial service are too high?

A5c. NASA is currently reviewing the proposals and will be able to 
better assess capabilities after procurement selection, currently 
anticipated for this summer. However, given the existence of various 
commercial launch systems and International Space Station rendezvous 
and docking systems, there is a reasonable likelihood that 
unpressurized and/or pressurized cargo delivery and disposal services 
will be demonstrated by 2010. These services are critical to 
maintaining the International Space Station on orbit. If commercial 
services to the ISS are unavailable or too costly, NASA will continue 
to pay international partners to support the International Space 
Station until commercial services or the Crew Exploration Vehicle 
become operational. The Shuttle budget also is sufficient to support 
two contingency logistics Shuttle missions to the ISS in FY 2010. These 
missions could be flown to preposition spares if the flights are deemed 
to be cost-effective and can be safely flown without jeopardizing the 
Shuttle's 2010 retirement date.

Q6a.  Although the Global Precipitation Mission (GPM) is considered one 
of the most important Earth Science priorities, NASA's FY 2007 Budget 
Request would delay that program by two and a half years.

      What is the reason for delaying GPM by two and a half years?

A6a. The Global Precipitation Measurement (GPM) mission is currently in 
formulation phase within the Earth Science Division of the Science 
Mission Directorate. The NASA Administrator has stated that formulating 
the NASA FY 2007 budget request required discipline and difficult 
decisions. As a result, the Science Mission Directorate rate of growth 
over the next four years was reduced. These reductions were focused on 
missions that had not yet been through a confirmation review and thus 
would be less severely impacted. Unfortunately, this resulted in 
delaying the launch of GPM.

Q6b.  Japan is participating in the GPM mission. Did you coordinate 
with the Japanese prior to deciding to delay the mission? If so, what 
was their reaction?

A6b. Upon submission of the President's FY 2007 budget request to 
Congress, NASA initiated coordination with the Japanese Aerospace and 
Exploration Agency on the potential implications for GPM resulting from 
the request. NASA explained the rationale used in the decision to delay 
the launch of GPM, and explained that budget discussions are internal 
to the U.S. and cannot be discussed until the President presents the 
budget to Congress. The Japanese Aerospace Exploration Agency (JAXA) 
has encouraged NASA to minimize the delay to the mission. NASA has 
emphasized the importance of the GPM program and its priority within 
the Science Mission Directorate and has committed to continue working 
with JAXA as a new schedule is developed. Several discussions at 
various levels of management between NASA and JAXA have taken place, 
and these discussions are ongoing.

Q7.  Given the delay in resuming Shuttle flights, how confident are you 
that the Shuttle fleet will be able to fly safely through the remainder 
of the decade and successfully assemble the remaining elements of the 
International Space Station? What is the ``Plan B'' in the event the 
Shuttle encounters additional problems prior to the completion of the 
International Space Station assembly?

A7. NASA currently is planning to fly 16 Shuttle missions to complete 
the International Space Station prior to 2010, with a possible 
additional Hubble Servicing flight. Under this manifest, the flight 
rate will be 2, 4, 5, 5, 1 for the next five years, beginning with the 
STS-121 mission, planned to launch no earlier than July 1, 2006. NASA 
engineers have worked diligently to address the foam liberation issues 
experienced on STS-114, including removing the Protuberance Air Load 
(PAL) ramp, and the Agency is confident that this flight rate is 
achievable in a safe and successful manner. The Program can accommodate 
some additional delays and still complete ISS assembly prior to the 
Shuttle retirement in 2010. Should any large-scale delay occur, NASA 
will confer with the International Partners on a joint course of 
action. That course of action will be consistent with the Vision for 
Space Exploration's goals of pursuing a robust exploration program, 
meeting our international commitments, and retiring the Shuttle no 
later than 2010. Any decision would also be driven by NASA's strong 
desire to carry out effective planetary science, astrophysics, 
heliophysics, Earth science, and aeronautics programs.

Questions submitted by Representative Mark Udall

Q1.  Despite the importance of R&D in maintaining our technological 
leadership in aviation, the Administration is proposing to cut some 
$175 million from NASA's aeronautics program in FY 2007. Can you 
explain why the Administration did that?

A1. The aeronautics budget was reduced because the Administration 
believes that this is an appropriate funding level for the program that 
should allow it to achieve significant benefits for the public. More 
important than the size of the budget, however, is what we do with it. 
NASA has a new focus for aeronautics that is driven by a desire to take 
responsibility for the intellectual stewardship of the core 
competencies of aeronautics for the Nation in all flight regimes, from 
subsonic through hypersonic flight. We will also conduct the 
fundamental research that is needed to meet the substantial challenges 
of the Next Generation Air Transportation System (NGATS), and we intend 
to work closely with our agency partners in the Joint Planning and 
Development Office (JPDO). To guide the program, NASA and the Office of 
Science and Technology Policy have been jointly developing a National 
Aeronautics Policy which will establish a long term policy and guidance 
for future aeronautics research and development activities. This policy 
will establish the appropriate role for federal investment in U.S. 
aeronautics research, including near- and far-term, high-priority 
objectives; roles and responsibilities of the multiple agencies 
involved; and guidance on related infrastructure and workforce 
challenges.

Q2.  The five-year runout for NASA's Next Generation Air Transportation 
System R&D program will cut its funding $146.4 million in FY 2007 down 
to $71.7 million in FY 2011--that is, you are proposing to cut the 
funding in half. Given that the R&D requirements in support of the next 
generation system are likely to increase significantly by the end of 
the decade, what is your rationale for cutting funding instead of 
increasing it?

A2. First, we need to make a correction to a budget slide that was 
provided to Committee staff in February. The entire Airspace Systems 
Program is devoted to addressing the Air Traffic Management (ATM) 
research needs of the NGATS. That budget is $173.9 million in FY 2006 
and declines to $89.4 million in FY 2011. (The labels on the original 
budget slide implied that only a subset of the Airspace Systems Program 
was dedicated to NGATS research.) The corrected slide follows.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    It is critical to recognize that the R&D challenges we face in 
developing the future air transportation system are not limited to ATM 
alone. The vehicles that reside within the system will need to address 
substantial noise, emissions, efficiency, and performance challenges. 
These challenges will be addressed in our Fundamental Aeronautics 
Program. Furthermore, as we develop increased capabilities in our 
future air vehicles and airspace system, we must continue to conduct 
the research necessary to ensure that our high safety standards are not 
compromised. Our Aviation Safety Program will address aircraft safety 
technological barriers that would otherwise constrain the full 
realization of the NGATS.
    In short, in addition to the fact that the entirety of the Airspace 
Systems Program is devoted to ATM research in support of NGATS, a 
substantial amount of research conducted in the Fundamental Aeronautics 
Program and the Aviation Safety Program will also directly address 
NGATS challenges. NASA has constructed a balanced research portfolio 
that draws upon our NASA-unique capabilities to address ATM, 
environmental, and safety-related research challenges, all of which 
must be worked in order for the NGATS vision to be realized.

Q3.  The budget request identifies broad areas of research for NASA's 
Fundamental Aeronautics program, but it does not propose any specific 
projects. In the absence of such detail, what was your basis for 
determining how much funding to request and how to allocate that 
request among the broad research areas of subsonic, supersonic, 
hypersonic, and rotorcraft?

A3. The Fundamental Aeronautics Program budget was distributed among 
the Subsonic, Supersonic and Hypersonic Projects based on NASA's 
commitment to support fundamental cutting-edge research across all 
speed regimes. To determine the proper budget splits among the research 
areas, the long-term research needs and goals of the Program as well as 
the historical funding profiles for each research area were balanced 
with the capabilities currently available at the research centers.
    Research proposals are being developed by researchers at the NASA 
research centers, and will be peer reviewed to ensure that they are of 
the highest quality. The proposals will ensure that NASA's mastery and 
intellectual stewardship of the core competencies of aeronautics in all 
flight speed regimes are maintained; that our aeronautics research is 
focused in areas that are appropriate to NASA's unique capabilities; 
and that the aeronautics research priorities reflect NASA's long-
standing commitment to benefit the American public and enhance U.S. 
competitiveness.

Q4a.  The NASA Authorization Act of 2005 contains provisions directing 
you to establish a program of pilot projects to explore the use of 
remote sensing data to address State, local, regional, and tribal 
agency needs. What are you doing to establish that program? What is 
your timetable for having it established?

A4a. In 2004, NASA established the Applied Sciences Program within the 
Earth Science Division of the Science Mission Directorate. The 
objective of the NASA Applied Sciences Program is ``to expand and 
accelerate the realization of economic and societal benefits from Earth 
science information and technology.''

         NASA, through the Applied Sciences Program, has conducted 
        solicitations in FY 2004 and FY 2005 for competitively selected 
        projects--the solicitations and resulting projects are 
        consistent with the direction in Sections 311-316 in the NASA 
        2006 Authorization Act of 2005 (P.L. 109-155) related to remote 
        sensing.

         NASA policy is to include the opportunity for use of 
        commercial remote sensing data in each of the Earth science 
        solicitations.

         NASA is a participating member of the Joint Agency Committee 
        on Imagery Evaluation (JACIE) (http://www.asd.ssc.nasa.gov/
        program.aspx?p=JACIE) with the U.S. Geological Survey and the 
        National Geospatial Intelligence Agency (NGA) to systematically 
        evaluate the use of commercial remote sensing data products to 
        serve Federal Government applications.

         NASA is a member of the interagency Commercial Remote Sensing 
        Space Policy Senior Management Oversight Committee.

Q4b.  Does the FY 2007 NASA budget request provide funds for the 
program?

A4b. Yes, the FY 2007 Budget Request provides $51 million for the NASA 
Applied Sciences Program. This budget includes $18,4 million for 
projects competitively selected through several research solicitations 
including: the Research, Education, and Applications Solutions Network 
(REASoN) issued in the FY 2003; Decision Support through Earth Science 
Results issued in FY 2004; and Decision Support through Earth-Sun 
System Science Research Results issued in FY 2005. The next 
solicitation for Decision Support through Earth Science Research 
Results is planned for release in FY 2007.
    Implementation details are as follows:

SEC. 314. PROGRAM EVALUATION.

         (a) Advisory Committee--The Administrator shall establish an 
        advisory committee, consisting of individuals with appropriate 
        expertise in State, local, regional, and tribal agencies, the 
        university research community, and the remote sensing and other 
        geospatial information industries, to monitor the program 
        established under section 313. The advisory committee shall 
        consult with the Federal Geographic Data Committee and other 
        appropriate industry representatives and organizations. 
        Notwithstanding section 14 of the Federal Advisory Committee 
        Act, the advisory committee established under this subsection 
        shall remain in effect until the termination of the program 
        under section 313.

    The Administrator has established a NASA Advisory Committee (NAC) 
structure with subcommittees for each of the Science Mission 
Directorate divisions. There is an Earth Science subcommittee as part 
of the NAC. In addition, the National Research Council (NRC) committee 
has been formed to evaluate the Applied Sciences Program. The NRC study 
title is ``Extending Observations and Research Results to Practical 
Applications: A Review of NASA's Approach.''

         (b) Effectiveness Evaluation--Not later than December 31, 
        2009, the Administrator shall transmit to the Congress an 
        evaluation of the effectiveness of the program established 
        under section 313 in exploring and promoting the integrated use 
        of sources of remote sensing and other geospatial information 
        to address State, local, regional, and tribal agency needs. 
        Such evaluation shall have been conducted by an independent 
        entity.

    This action is consistent with NRC study group that is currently 
underway with a schedule to deliver an evaluation report in 2007. The 
NRC study committee does include representation of the State, local, 
and tribal communities--as was the earlier strategic plan review 
conducted in 2002.
    The committee members are listed at http://
www8.nationalacademies.org/cp/projectview.aspx?key=208.

SEC. 315. DATA AVAILABILITY.

         The Administrator shall ensure that the results of each of the 
        pilot projects completed under section 313 shall be retrievable 
        through an electronic, Internet-accessible database.

    NASA plans for implementation of Data Availability in Section 315 
through an electronic Internet accessible database that the program is 
developing as an Earth Science Gateway (ESG).

SEC. 316. EDUCATION.

         The Administrator shall establish an educational outreach 
        program to increase awareness at institutions of higher 
        education and State, local, regional, and tribal agencies of 
        the potential applications of remote sensing and other 
        geospatial information and awareness of the need for geospatial 
        workforce development.

    The Administrator has contributed to the establishment of the U.S. 
Group on Earth Observations (USGEO) as a venue for recognizing the 
value of geosciences and capacity building for using and delivering 
geoscience information that serves society. Information is accessible 
at http://usgeo.gov. The Administrator has also designated the Program 
Director of the Applied Sciences Program as the Agency lead POC to the 
OMB Geospatial Line of Business.

Q4c.  If not, why not?

A4c. NASA has or will implement all sections of Title III, Subtitle B--
Remote Sensing of the Act.

Q5.  How much money has been reserved in NASA's budget plan through 
2018 to develop scientific infrastructure on the Moon to support 
scientific research by astronauts on the lunar surface? What will that 
money be used for, and where is it book-kept? If no funds have, been 
reserved for that purpose, why not?

A5. Preliminary funding levels for lunar surface science equipment and 
associated infrastructure to support research by astronauts on the 
lunar surface are defined in the Exploration Systems Architecture Study 
(ESAS) final report as beginning in 2013. NASA is currently developing 
a comprehensive lunar exploration strategy that will result in a more 
mature definition of these surface system requirements and funding 
needs along with providing a better understanding of the technical and 
financial role that international partners and commercial organizations 
may play in this endeavor.
    In 2005, ESAS established an initial baseline architecture that 
supports the goal, as outlined in the Vision for Space Exploration, of 
returning humans to the Moon by 2020. The primary focus of ESAS was to 
define the transportation elements that will support human missions to 
the Moon and beyond. Although ESAS performed some preliminary analysis 
of the infrastructure and surface equipment required to support human 
lunar activities, much of this analysis was done at a high level to 
understand potential implications on the sizing of the transportation 
architecture. Based on this initial analysis, ESAS identified funding 
requirements, beginning in 2013, to develop science equipment and 
associated surface infrastructure to support human activities on the 
Moon.
    In 2006, NASA is working to meld together scientific, exploration, 
commercial and international interests in the Moon into an integrated 
global lunar exploration strategy. This activity had a milestone in 
late April of 2006 with a workshop where over 200 individuals, 
representing international partners from 14 space agencies, academia, 
and industry, who will discuss various perspectives on the role of the 
Moon in a broad strategy of solar system exploration.
    The Exploration Strategy Workshop continued the development of a 
global Space Exploration Strategy for future robotic and human 
missions. The objective is to integrate common interests and objectives 
of the participants into a comprehensive plan for exploration to the 
Moon, Mars and beyond. Key elements of this strategy include:

        <bullet>  Ensuring lunar exploration is an integral part of a 
        broader exploration strategy that encompasses Mars and other 
        destinations.

        <bullet>  A strategy for lunar robotic missions to collect key 
        strategic information and develop key capabilities to enable 
        and enhance human exploration.

        <bullet>  A strategy for human missions that will enable us to 
        live and work productively on other planetary surfaces, 
        starting with the Moon, including the development and use of 
        lunar resources.

        <bullet>  Enabling opportunities for international 
        participation through merging of common interests in our 
        respective strategic plans for exploration.

        <bullet>  Characterization of opportunities for science 
        investigations on the Moon.

        <bullet>  Enabling opportunities for lunar commerce.

    Throughout 2006, NASA will mature these ideas, continually seeking 
inputs from these varied constituent groups with the resulting draft 
lunar Space Exploration Strategy being available late in the year. This 
strategy will be used to assist in defining lunar surface 
infrastructure and operations requirements and will provide a blueprint 
for discussing potential roles for international partners in this 
endeavor.
    In addition, this strategy will be used to plan future robotic 
lunar missions that may pre-emplace infrastructure elements required to 
support later human activities as well as performing trailblazing 
scientific research and technology demonstrations that will increase 
the value and decrease the risks associated with future human 
exploration of the Moon. As a result, updated funding estimates for 
lunar surface infrastructure and science equipment may be significantly 
different from the ESAS estimates. These updated estimates will factor 
in the international and commercial interests that may provide funding 
toward lunar exploration as well as the robotic precursor missions that 
may provide infrastructure pre-emplacement and early risk reduction / 
human mission optimization opportunities.
    After the development of a Space Exploration Strategy for lunar 
activities, we will begin to define the wealth of human and robotic 
activities that NASA will pursue on the Moon as well as the specific 
budgetary requirements for these activities.

Q6.  Space life sciences research has been recognized since the early 
years of NASA's existence as something that is critical for the success 
of any long-term human exploration program. Yet NASA currently is in 
the process of essentially eliminating its life sciences research 
capability and cutting off grants to its external life sciences 
research community.

     Do you think that NASA no longer needs life sciences research to 
support the agency's long-term human exploration program?

A6. Prior to the Vision for Space Exploration (VSE), the Human Research 
program content, including biomedical and fundamental biology research 
tasks, underwent a series of internal and external reviews to insure 
that the research portfolio focused on the Agency's highest priorities. 
The non-NASA community of researchers performed a major content review 
of the Exploration System Mission Directorate's (ESMD) research 
priorities during the Research Maximization and Prioritization Task 
Force (ReMap) in 2002, and provided comprehensive rankings and 
recommendations at that time. Beginning in the fall of 2004 and 
concluding in early 2005, ESMD conducted a Zero Based Review (ZBR) of 
the Human Systems Research & Technology (HSRT) research portfolio. The 
ZBR was conducted in order to reprioritize HSRT research to support the 
VSE. All 900 research tasks were collected and subdivided, rated with 
weighting factors and criteria for exploration-relevant research, and a 
series of non-advocate panels then examined ESMD's ZBR process. As a 
result of the ZBR, research not directly supporting exploration 
priorities was shifted to a longer-term ranking within ESMD, much of 
which was targeted to be gradually phased out of the program. The ZBR 
created a research baseline that was the focus of the Exploration 
Systems Architecture Study (ESAS). The ESAS Technology Assessment 
Report is a further narrowing of the ZBR priorities to very specific 
requirements emphasizing near-term needs to support Lunar surface 
expeditions as early as 2018, but no later than 2020.

Q6a.  How do you justify the Agency's actions?

A6a. Human health and performance issues are only a small portion of 
the risk to astronauts. The active portions of space missions, launch, 
rendezvous, entry and landing, present tremendous risks to the lives of 
astronauts. NASA has a long history of successful space missions both 
in low Earth orbit and on the lunar surface. U.S. astronauts routinely 
stay in space for up to six months without demonstrable, short-term 
health effects upon return. Possible long-term health effects are still 
being evaluated through the Longitudinal Study of Astronaut Health. We 
have lost our crew members during launch and during entry. We must 
insure that they have a safer method of transportation from Earth to 
space. We are investing in the Crew Exploration Vehicle (CEV), as a 
safer follow-on to the Space Shuttle.

Q6b.  How do you intend to reinstate a viable life sciences research 
activity at NASA after it has been unfunded for an extended period?

A6b. The non-exploration research language in the NASA Authorization 
Act of 2005 (P.L. 109-155) requires at least 15 percent of NASA's ISS 
research budget be devoted to non-exploration research. This will 
include animal research, basic fluid physics, combustion research, 
cellular biotechnology, and cellular research. In addition, ground-
based and free-flyer research will maintain multi-discipline and multi-
national fundamental research capabilities, including animal non-
exploration microgravity and space environment analogs. NASA has a long 
history of leveraging its resources to expand its fundamental research 
portfolio and plans to continue to pursue such collaborations to the 
maximum extent possible. Examples include NASA's participation in the 
International Space Life Sciences Working Group (ISLSWG; members 
include Canada, France, Germany, Europe, Japan, U.S., Ukraine), and 
NASA's research collaborations with the Russian Federal Space Agency 
(Roscosmos). It is important to note that the life sciences community 
will have opportunities to pursue fundamental ground-based life 
sciences research with other federal agencies, such as the NIH and the 
NSF. NASA will also work with other government agencies to enter into 
co-operative research opportunities.

Questions submitted by Representative W. Todd Akin

Q1.  NASA's FY 2007 budget does not include funds for the X-43C 
program. Was there a technical problem with the program or was the 
decision driven by budget constraints? Please explain the rationale for 
the decision to cancel this program.

A1. NASA made the record books with the first successful demonstrations 
of hypersonic air breathing flight. The X-43A flights achieved Mach 7 
and Mach 9. Under the Space Launch Initiative (SLI) program, the X-43C 
was once viewed as the next logical step in hypersonics at NASA. 
Interest in the X-43C demonstrator ended with the termination of the 
SLI in FY 2004. Since that time, the DOD has initiated two demonstrator 
programs (Falcon at DARPA, and the Air Force SED--Single Engine 
Demonstrator, recently renamed the X-51) that make the X-43C 
duplicative and unnecessary.
    The Fundamental Aeronautics Program is taking a long-term, 
strategic view of hypersonics research. We have moved away from a focus 
on point-design demonstrators and toward a focus on flight experiments 
and the development of physics-based predictive design tools. We have 
defined a research program that spans the range of required fundamental 
technology, from advanced high-temperature materials to advanced 
propulsion systems to guidance, navigation and control for hypersonic 
vehicles. Continued investment in X-43C is inconsistent with our vision 
and goals for a hypersonics program that emphasizes long-term cutting-
edge research. NASA is working closely with the DOD to ensure that we 
leverage each other's strengths; for example, we intend to collaborate 
with the Air Force on the X-51 program, which is the logical follow-on 
to the X-43A.

Questions submitted by Representative Michael M. Honda

Q1.  Please explain why astrobiology receives a 50 percent cut in the 
budget request, which is much larger than the 15 percent across the 
board cuts to other science programs within the Research and Analysis 
budget, especially given the interest of Congress in this field as a 
priority for the space science program and the findings of the National 
Research Council's recent report entitled ``Life in the Universe.''

A1. The 15 percent reduction in research and analysis (R&A) funding is 
related to the slowing rate of growth of Science Mission Directorate 
(SMD) programs.
    Astrobiology research funding is reduced 50 percent in the 
President's FY 2007 budget for several reasons. The astrobiology 
research program experienced rapid and significant growth over the last 
seven years, relative to the rest of NASA's science research program, 
in anticipation of a large number of astrobiology-related flight 
missions in the near future. In FY 2005, the budget for astrobiology 
research was comparable to the entire research and analysis budget for 
Astrophysics.
    The lower flight rate for robotic Mars missions including a Mars 
sample return mission, plus the recognition that human exploration 
missions to Mars are further in the future than previously assumed, has 
reduced some of the urgency for rapid progress in astrobiology 
research. In addition, the mission to Jupiter's moon Europa, which may 
have a subsurface ocean harboring conditions conducive to life, has 
been delayed. In light of the rapid growth in astrobiology funding 
several years ago, this reduction brings the level of astrobiology 
funding more into balance with the rest of the research program.
    NASA will still be undertaking a vigorous astrobiology program. The 
$32.5 million requested for astrobiology research in the President's 
Budget Request for FY 2007 supports a broad range of astrobiology 
research activities including the Astrobiology Science and Technology 
Instrument Development (ASTID) program, the Astrobiology Experiments 
for Exploring Planets (ASTEP) program, the Exobiology and Evolutionary 
Biology program, and the NASA Astrobiology Institute.

Q2.  The Deep Space Climate Observatory (DSCOVR) mission recently 
received a notice of termination--even though the National Academies of 
Science/National Research Council and NOAA are mid-way through two 
important studies that could affect the utilization of DSCOVR, and 
expand its contributions to the Nation. Can you explain the rationale 
behind canceling a cost-effective project that has received strong 
support in the past, was rated as a high priority by the NAS and plays 
an important role in infrastructure safety and science?

A2. NASA selected the Triana/DSCOVR mission in October 1998 with a 
projected launch date (via Space Shuttle) of December 2000 and an 
expected two-year mission life. Congress imposed a stand-down on 
development in 2000 to allow the NRC to conduct a study of the 
scientific merits of the mission. The NRC concluded that the mission 
had scientific merit, and Triana was at one point set to fly on STS-
107. However, ongoing scheduling conflicts lead NASA to swap Triana 
with the Fast Reaction Experiments Enabling Science, Technology, 
Applications, and Research (FREESTAR) payload on STS-107--the last 
flight of Space Shuttle Columbia. After the Columbia accident, the 
Space Shuttle fleet was grounded for twenty-nine months, precluding a 
flight opportunity for Triana. The completed space flight hardware was 
placed in clean room storage at GSFC in FY 2002.
    With the release of the Vision for Space Exploration in 2004, the 
Space Shuttle manifest was refocused on completing assembly of the 
International Space Station and a possible servicing mission to the 
Hubble Space Telescope, thus continuing to preclude Shuttle's 
availability to launch DSCOVR. NASA has pursued various possibilities 
for access to space by expendable launch vehicle, including mission co-
manifesting, but none have resulted in a fiscally viable solution.

Q3.  The Explorer Program is one of the few competitively run NASA 
programs which engages universities, industry, and other partners to 
explore the most cutting edge scientific discoveries in all aspects of 
astronomy and astrophysics. Please explain how NASA intends to fund 
this program in FY 2006, FY 2007, and beyond. Specifically, does NASA 
intend to honor its commitments to all competed missions not cut for 
technical or cost reasons?

A3. Yes, NASA intend to honor its commitments to all competed missions 
not cut for technical or cost reasons. The budget for the Explorer 
Program (including Explorer missions in the Astrophysics budget) is 
$215 million in FY 2006 and $141 million in FY 2007. This is sufficient 
to complete the development of the AIM and THEMIS missions, both of 
which are scheduled to launch in 2006. It also supports the continued 
development of the IBEX mission, scheduled to launch in 2008, and the 
WISE mission, scheduled to launch in 2009. The runout of the 
President's FY 2007 Budget Request for the Explorer Program fully 
supports the completion of these missions through launch and 
operations, as long as the projects complete development without 
significant technical or cost problems. The NuSTAR mission, which was 
in extended Phase A, has not been confirmed to preserve these other 
missions. The budget supports the release of the next Announcement of 
Opportunity for the Explorer Program in the FY 2007 timeframe.

Q4.  NASA has terminated the NuSTAR Explorer mission prior to the 
completion of its technical review and after several years of 
investment by the American taxpayers, universities, industry, and other 
governmental partners. By cutting this mission or suspending funding on 
already selected missions years into technical development, do you feel 
NASA is in danger of sending the message that it is an unreliable 
partner to the research and university communities?

A4. In making tough budget decisions NASA sought to have the least 
impact on the Explorer portfolio overall. NuSTAR was in extended Phase 
A and had not yet completed its initial confirmation review or begun 
development. NASA chose to stop NuSTAR rather than any of the other 
missions that are approaching launch or are at a more advanced stage of 
development. AIM and THEMIS are already in development, while WISE and 
IBEX are at the mission confirmation stage. When NASA makes a selection 
under an Announcement of Opportunity (AO), it is for the purposes of 
funding an initial study of a potential new mission. Although NASA 
would have preferred to complete NuSTAR, assuming adequate technical 
progress was made during the extended study phase, the Explorer budget 
could not support completion of NuSTAR as well as the other Explorer 
missions. As a result, this was the least disruptive option for 
aligning the Explorers portfolio to its available funding without 
further delaying the next scheduled AO. It is possible that the 
research and university communities may perceive NASA as an unreliable 
partner in this instance, but budget realities are forcing the agency 
to make tough decisions about its programs.

Q5.  Last year, the Administration tried to impose large cuts the 
NASA's Aeronautics R&D but failed in the face of a bi-partisan 
consensus in both houses of Congress. This year, the proposed budget 
calls for even lower numbers than last year. This Congress has already 
clearly stated that this low-ball approach jeopardizes America's 
leadership in Aeronautics. Why is NASA ignoring the will of Congress 
and diverting 25 percent of what should be the Aeronautics budget to 
Shuttle Operations or Exploration when this only increases these latter 
budgets by a minuscule percentage?

A5. The aeronautics budget was reduced because the Administration 
believes that this is an appropriate funding level for the program that 
should allow it to achieve significant benefits for the public. More 
important than the size of the budget, however, is what we do with it. 
NASA has a new focus for aeronautics that is driven by a desire to take 
responsibility for the intellectual stewardship of the core 
competencies of aeronautics for the Nation in all flight regimes, from 
subsonic through hypersonic flight. We will also conduct the 
fundamental research that is needed to meet the substantial challenges 
of the Next Generation Air Transportation System (NGATS), and we intend 
to work closely with our agency partners in the Joint Planning and 
Development Office (JPDO). To guide the program, NASA and the Office of 
Science and Technology Policy have been jointly developing a National 
Aeronautics Policy, which will establish a long-term policy and 
guidance for future aeronautics research and development activities. 
This policy will establish the appropriate role for federal investment 
in U.S. aeronautics research, including near- and far-term, high-
priority objectives; roles and responsibilities of the multiple 
agencies involved; and guidance on related infrastructure and workforce 
challenges.

Q6.  Why is NASA cutting back on efforts to discover other Earth-like 
planets and the origins of life in the Universe, such as the 
Terrestrial Planet Finder, when many scientists and lay people 
recognize this as perhaps the most interesting and important question 
for NASA to address? Is there any relationship between cuts to these 
programs aimed at understanding the origins of the universe and the 
efforts by some within the Administration to seek to redefine the Big 
Bang?

A6. The search for Earth-like planets, and the possibility of life 
elsewhere in the Universe, are certainly compelling questions. NASA 
plans to study these questions via missions such as the James Webb 
Space Telescope (JWST), the Space Interferometry Mission (SIM), and 
Kepler, all of which remain part of NASA's budget. Given current budget 
realities, however, we are unable to pursue the answers to those 
questions as aggressively as we had once planned. JWST and SIM have 
been viewed as technical precursors of the Terrestrial Planet Finder 
(TPF); since their launch dates have now slipped to 2013 and 2015 
respectively, it follows that TPF should slip as well.
    TPF science goals are not related to the study of the Big Bang. TPF 
is a future piece of our ongoing effort to find and characterize new 
worlds around other stars. The worlds that TPF will study were formed 
long after the Big Bang; thus, TPF science will not significantly 
affect our knowledge of the origin of the Universe.

Q7.  What is the projected final price tag for the International Space 
Station (ISS) according the Administration's proposed FY 2007 Budget 
Request, including the costs of continuing to fly the Shuttle through 
2010 to support ISS completion? Now that you have canceled the ISS 
Centrifuge as well as all associated ISS Life Science experiments, what 
are the five most important remaining scientific capabilities that the 
ISS will deliver that cannot be done more cheaply and effectively using 
other venues? Are these scientific capabilities worth the proposed 
expense and why wouldn't the remaining funds be better spent on 
maintaining non-ISS Science and Aeronautics while also supporting your 
ESAS plan?

A7. The total life cycle cost of the ISS through 2016 is about $49 
billion and, within that, the cost of flying the Space Shuttle from FY 
2007-2010 is approximately $16 billion.
    The ISS provides the world's only long-duration flight analog, 
testbed and operational system in low Earth gravity and cannot be 
duplicated on Earth. The ISS is a cornerstone in advancing knowledge 
about how to live and work in space for long, continuous periods of 
time, and will remain critical to our future exploration activities. 
For example:

        <bullet>  The six-month ISS mission increments are critical 
        temporal and operational analogs for human transit to Mars, in 
        addition to ensuring development of our ability to live and 
        work for long durations on the Moon.

        <bullet>  At assembly completion, the ISS will support research 
        and technology development programs which meet the Agency's 
        needs for crew health and safety, technology advancement, and 
        operational experience essential for long-duration missions 
        beyond low Earth orbit.

        <bullet>  NASA is using the ISS as a laboratory for research in 
        human health and countermeasures, as well as applied physical 
        science.

        <bullet>  The five most important scientific capabilities that 
        the ISS supports are--

                <bullet>  Human Health Countermeasures

                <bullet>  Human Factors and Environments

                <bullet>  Advanced Environmental Monitoring

                <bullet>  Fire Prevention, Detection and Suppression 
                research

                <bullet>  Multi-phase flow research

        <bullet>  Beyond technical and research applications, the ISS 
        is providing NASA and its partners with experience in managing 
        international partnerships for long-duration human missions.

        <bullet>  The ISS also serves as a training ground for future 
        leaders in space industries in areas ranging from systems 
        engineering and development to research planning and 
        implementation, technology development and realtime operations.

        <bullet>  The future of human exploration depends on the near-
        term investment we make in retaining and enhancing exploration-
        enabling research on the ISS.

        <bullet>  The U.S. portion of the ISS has been designated a 
        National Laboratory, for which planning is currently underway.

        <bullet>  Consistent with the NASA Authorization Act of 2005 
        (Public Law 109-155), 15 percent of the funds budgeted for ISS 
        research have been allocated to research not directly related 
        to supporting the human exploration program.

Questions submitted by Representative Lincoln Davis

Q1.  My main concern is with NASA's funding of Aeronautics Research 
programs. As you may know, the X-43 hypersonic plane program is in my 
district. To my knowledge, this plane is the only hypersonic plane that 
has been successfully flown, yet in this year's budget request the 
Administration has cut its funding.

     What was the reasoning behind cutting a program that is not only 
successful but is the only one in the U.S.?

     Also, what does NASA have planned for the future in regards to 
hypersonic flight research?

A1. NASA made the record books with the first successful demonstrations 
of hypersonic air breathing flight. The X-43A flights achieved Mach 7 
and Mach 9. Under the Space Launch Initiative (SLI) program, the X-43C 
was once viewed as the next logical step in hypersonics at NASA. 
Interest in the X-43C demonstrator ended with the termination of the 
SLI in FY 2004. Since that time, the DOD has initiated two demonstrator 
programs (Falcon at DARPA, and the Air Force SED--Single Engine 
Demonstrator, recently renamed the X-51) that make the X-43C 
duplicative and unnecessary.
    The Fundamental Aeronautics Program is taking a long-term, 
strategic view of hypersonics research. We have moved away from a focus 
on point-design demonstrators and towards a focus on flight experiments 
and the development of physics-based predictive design tools. We have 
defined a research program that spans the range of required fundamental 
technology, from advanced high-temperature materials to advanced 
propulsion systems to guidance, navigation and control for hypersonic 
vehicles. Continued investment in X-43C is inconsistent with our vision 
and goals for a hypersonics program that emphasizes long-term cutting-
edge research. NASA is working closely with the DOD to ensure that we 
leverage each other's strengths; for example, we intend to collaborate 
with the Air Force on the X-51 program as the logical follow-on to the 
X-43A.

Questions submitted by Representative Jo Bonner

Q1.  Robotic Lunar Lander Project. Dr. Griffin, I was happy to hear at 
the end of last year that the Marshall Space Flight Center was selected 
to manage the Robotic Lunar Lander mission. This is the second mission 
under NASA's Robotic Lunar Exploration Program. However, I am concerned 
to see that no funds were included in the FY 2007 budget for this 
mission. Would you provide the Committee with an update on the status 
of the mission and are you still looking at options to place funds on 
this activity in FY 2007?

A1. The second mission in the Robotic Lunar Exploration Program (RLEP), 
designated RLEP-2, is currently in the pre-formulation study phase. 
NASA has assigned project management responsibility to the Marshall 
Space Flight Center with assistance from the Goddard Space Flight 
Center and the Johns Hopkins University Applied Physics Laboratory.
    During pre-formulation, we are conducting a series of trade studies 
to evaluate various options for the design of the mission. We evaluate 
those options against requirements, opportunities, costs, and schedule. 
The project office presented the results of these initial studies to 
NASA Headquarters this April at the Concept Design Review (CoDR).
    In parallel, NASA Headquarters is developing a more formal 
architecture for the RLEP program as a whole. A long-term robotic 
architecture is under development. Called the ``Lunar Robotic 
Architecture Study (LRAS),'' it is intended to be a follow-on to 
Exploration Systems Architecture Study focused on robotics. The initial 
study completed at the end of March and a detailed report should be 
cleared for release sometime this summer.
    This more structured architecture will better advise our assessment 
of the specific requirements and timing for each mission within the 
RLEP program.
    We will iterate the results of the project office studies with the 
results of the architecture development over the next few months, and 
then make decisions about the content, magnitude, and pace of the RLEP-
2 project. In the meantime, we have retained options to fund RLEP-2 in 
FY 2007 and beyond. At current RLEP-2 launch is scheduled for no 
earlier then 2010.

Q2.  I'm pleased to see the funding included for the Crew Exploration 
Vehicle, but was wondering about your specific plans for the 
development of the Cargo Launch Vehicle. When do you foresee major 
funding being placed on this activity?

A2. Currently, there is some funding for the Cargo Launch Vehicle, 
currently referred to as the Heavy Lift Launch Vehicle (HLLV) provided 
through $5 million of Congressionally-directed funds for FY 2006 only.
    This vehicle will provide the capability to deliver large elements 
required for lunar missions. Since crewed lunar missions are not 
scheduled until the latter part of the next decade, major funding for 
this vehicle is not currently needed until the 2011 timeframe, with 
full development scheduled to start in 2013 to support a first flight 
in 2018. This date may change; however, as the Constellation Program is 
still in early formulation and our ``go as you pay'' approach means 
that the final development schedule for the architecture is highly 
dependent on the budget profile.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  If NASA's FY 2007 budget request is approved by Congress, more 
than $4 billion will have been cut from the budget plan for space and 
Earth science presented to Congress two years ago. What will be the 
impact of a cut of that magnitude?

A1. NASA's Science budget is moderated to 1.5 percent growth in the FY 
2007 Budget Request, compared with the amount appropriated for NASA in 
FY 2006 (as reflected in NASA's initial Operating Plan provided to the 
Committee in February 2006) and then one percent per year thereafter 
through FY 2011. This represents a total decrease of $3.1 billion in FY 
2006-2010, compared with the run-out in the FY 2006 President's budget 
request.
    A key aspect of adjusting the balance of the Science program is a 
reduction in the growth of the Mars program. This program had been 
previously slated to grow to $1.3 billion in FY 2010. This aggressive 
rate of growth had been built into the program over a period of several 
years. However, given current budget limitations, had we left the Mars 
program unchanged in this submission, it would have accounted for 
almost one-quarter of the total Science budget in that timeframe. The 
Mars budget still provides for a mission launch every 26 months.
    NASA is also delaying, deferring, or reviewing several Science 
projects, as indicated below, reflecting both the overall level of 
funding for Science and programmatic changes to the Science portfolio 
(for example, Landsat Data Continuity Mission (LDCM) and Glory are now 
funded as free-flyers):.

        <bullet>  Stratospheric Observatory for Infrared Astronomy 
        (SOFIA): Under review

        <bullet>  Solar Dynamics Observatory (SDO): Delayed four months

        <bullet>  Space Interferometry Mission (SIM): Delayed two to 
        three years

        <bullet>  Global Precipitation Measurement (GPM): Delayed two 
        years

        <bullet>  Terrestrial Planet Finder (TPF): Delayed 
        indefinitely. We still intend to pursue a TPF mission in the 
        future.

        <bullet>  Beyond Einstein: A decision regarding which mission 
        (including LISA, Con-X, and Joint Dark Energy Mission (JDEM)) 
        will proceed into Implementation first will be made prior to FY 
        2009.

        <bullet>  Nuclear Spectroscopic Telescope Array (NuSTAR): Not 
        confirmed

        <bullet>  Hydros: Back-up Earth System Science Pathfinder 
        (ESSP) mission not confirmed

    The key adjustments in the FY 2006 budget were reductions in the 
Explorers program, New Frontiers program, capping the in-space 
propulsion program, limiting mission extensions, and indefinitely 
delaying high capability instruments.
    It is important to note that NASA's science portfolio has been 
strengthened in a number of areas. For example, the Glory and LDCM 
missions are being funded as dedicated (free-flyer) missions, funding 
profiles for several high-priority science missions have been improved, 
and operations for key missions have been extended.

Q2.  The FY 2007 NASA Budget Request makes deep cuts in NASA's 
Exploration research and technology program and to its Prometheus 
nuclear power and propulsion research and technology program. As a 
result, the objectives of the President's exploration initiative have 
been narrowed to a near-term focus on returning U.S. astronauts to the 
Moon. Development of new technologies had been one of the advertised 
benefits of investing in the President's exploration initiative. Will a 
narrowly defined exploration goal of returning American astronauts to 
the Moon provide the best return on the investment of more than $100 
billion that NASA estimates will be expended on that goal over the next 
13 years?

A2. The objectives of the Vision for Space Exploration have not been 
narrowed. The Administration remains committed to implementing a 
sustained and affordable human and robotic program to explore the solar 
system and beyond, to extend human presence across the solar system, to 
develop the innovative technologies, knowledge and infrastructure to 
support exploration, and to promote international and commercial 
participation in exploration to further U.S. scientific, security, and 
economic interests.
    Reduction of exploration technology development funding from the 
initial levels proposed after the President's announcement of the 
Vision was driven by the recognition that the highest priority in the 
early years of the vision must be to smoothly transition between the 
Shuttle and the next generation of vehicles that will carry astronauts 
on exploration missions. Following retirement of the Shuttle, and 
initial development of the crew exploration vehicle (CEV), the level of 
technology spending will be reassessed.
    NASA is continuing novel technology development beyond those 
required for human lunar missions. Low to mid Technology Readiness 
Level (TRL) investments in the areas of life support, monitoring and 
control, power storage, fire suppression, and dust mitigation are 
maintained at an appropriate level. NASA has definite plans to use the 
International Space Station (ISS) as a test bed to validate these 
technologies over the next four years. These technology investments 
will aid in closing the life support loop and offer increased autonomy 
and less frequent resupply. A number of these technologies will have 
Earth-based applications, especially in the area of environmental 
monitoring using miniaturized sensors and portable life support 
systems.
    With regards to Prometheus, NASA is reevaluating the direction of 
the program in terms of determining the expected power and propulsion 
needs for the Lunar and Martian missions, including long stays on the 
lunar surface and propulsion to Mars. Part of this activity will be to 
evaluate the development of a surface power architecture for lunar 
surface exploration. Since it is expected that certain architectures 
will have high electrical energy demands, Prometheus will also perform 
studies to address potential nuclear surface power systems that will 
likely be required to support missions beyond the initial lunar 
landings. These studies will identify the requirements for adding 
technologies to the NASA portfolio and the time phasing required for 
resource allocations to achieve the technical goals.
    The ISS utilization plans include the validation of human health 
countermeasures that will support Mars-duration class missions. As 
mentioned earlier, technology validation is an intended use of the ISS.

Questions submitted by Representative Russ Carnahan

Q1.  I have recently been made aware of the immediate discontinuation 
of a NASA grant for a research project at the Donald Danforth Plant 
Science Center in St. Louis, MO under the direction of Dr. Roger N. 
Beachy. Even more disturbing, I understand that this situation has 
happened to hundreds of other scientists throughout the country.

        <bullet>  The grant under discussion was awarded for three 
        years, ending on November 30, 2006. In December 2005, funding 
        for the grant was immediately discontinued even though monies 
        were promised well into 2006. Why was such a disruptive and 
        unprofessional action taken?

        <bullet>  The grant would have benefited long-term space travel 
        and developed Earth-based applications, some technologies so 
        useful that they will be licensed by biotechnology companies. I 
        understand NASA has decided to realign its priorities. Please 
        explain why the reduction of biological research at NASA is so 
        urgent that it requires discontinuing grants already obligated. 
        Why was this action necessary? Were alternatives to this action 
        considered? If so, what were they?

        <bullet>  Please provide for the record a listing of all grants 
        and their dollar values that NASA has terminated or provided 
        notice of intent to terminate in FY05 and FY06 prior to their 
        scheduled expiration.

        <bullet>  Will NASA restore funding for the biological sciences 
        in the future? If so, when?

A1. The attached Excel spreadsheet lists the terminated grants and 
their dollar values.

Background:

    In January 2004, NASA was challenged with implementing a new and 
bold Vision for Space Exploration. Included in the Vision is a safe 
return of the Space Shuttle to flight, completion of the International 
Space Station, a return to the Moon, and continued exploration of Mars 
and beyond. An internal study team was commissioned by Administrator 
Griffin to define a long range plan for exploration, and to identify 
the high-priority technologies essential to support the plan.
    An important priority for the team was to accelerate development of 
a new Crew Exploration Vehicle to replace the Space Shuttle scheduled 
for retirement in 2010. Study team results were announced in September 
2005. Results provide a blueprint for the future of human and robotic 
space exploration; and build on the Apollo program and Space Shuttle 
technology to create a 21st century exploration system that will be 
affordable, reliable, versatile, and safe.
    NASA's Exploration Systems Mission Directorate has completed a 
realignment of its existing research portfolio to focus on work that 
represents the highest priority research in support of this newly 
defined goal.

        <bullet>  Portfolio focus has necessarily shifted from research 
        on advanced technologies for long-duration missions to directed 
        research and maturing technologies for near-term use.

        <bullet>  Basic and applied research efforts, valuable in the 
        long-term, have been deferred.

        <bullet>  Research activities not as closely aligned with 
        critical, near-term technology goals have been subject to 
        reduction or cancellation.

    NASA acknowledges the current impact of difficult, resource-driven 
decisions that have been made in order to implement and meet the 
objectives of the Agency's bold, new Vision. NASA is committed to 
retaining a core of life and physical sciences research to maintain a 
level of continuity in these discipline areas for the future and to 
achieve a balanced research program.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Statement by The Planetary Society

                         A Better Path for NASA

    The Bush Administration's proposed five-year budget for NASA, just 
submitted to Congress, is an attack on science. The proposed budget 
directs three billion dollars (over five years) away from robotic 
exploration of the solar system to continue to operate the Shuttle. 
Last year the Administrator said, ``not one thin dime'' would be so 
directed.\1\ Now we learn it is 30 billion dimes.
---------------------------------------------------------------------------
    \1\ Science 23 September 2005: Vol. 309. no. 5743, p. 1975 report 
on NASA press conference.
---------------------------------------------------------------------------
    Science missions are being cut out of the program or delayed. Among 
them:

        <bullet>  Rejection of a request from Congress for a new start 
        for a mission to explore the ice-covered world of Jupiter's 
        moon, Europa.\2\ Such a mission is the highest-priority 
        objective outlined in the NRC/Planetary Science Community's 
        most recent Decadal Survey\3\: The under-surface ocean on 
        Europa could be a habitat for life;
---------------------------------------------------------------------------
    \2\ Fiscal Year 2006 Appropriations Bill, House Appropriations 
Committee Report.
    \3\ ``New Frontiers in the Solar System: An Integrated Exploration 
Strategy,'' National Research Council, ISBN: 0-309-08495-4, 248 pp., 
2003.

        <bullet>  Delay of the Space Interferometry Mission--a key 
        effort contributing to the understanding of the universe and 
---------------------------------------------------------------------------
        the search for other planetary systems;

        <bullet>  Cancellation of the long-sought Terrestrial Planet 
        Finder, a mission also supported in the original Vision for 
        Space Exploration, to discover Earth-like planets and possible 
        abodes for life around other stars;

        <bullet>  Cancellation of two Scout missions to Mars; and

        <bullet>  Previously announced cancellation of precursor 
        experiments and missions for human Mars exploration.\4\ The 
        proposed budget continues to downplay Mars as a goal for human 
        exploration.
---------------------------------------------------------------------------
    \4\ Some of these were in the Science program, and some were in the 
Exploration program, such as the liquid oxygen/methane engine in the 
new exploration transportation system.

    In addition, a devastating 15 percent cut to science research 
funding--including likely cuts to some approved 2006 research 
programs--is being applied across all Earth and space science 
disciplines, and 50 percent is being cut from astrobiology research! 
This attack on basic science ironically comes at a time when the 
President announced in his State of the Union speech his intention ``to 
double the federal commitment to the most critical basic research 
programs in the physical sciences over the next 10 years.'' Apparently 
the physical sciences do not include either Earth or space sciences.
    NASA has begun implementing these cuts immediately (fiscal year 
2006) in anticipation of their 2007 budget request being granted. Since 
many of these actions directly contradict the wishes of Congress 
expressed in last year's Authorization and Appropriation bills, we ask 
that the Committee request NASA to take no actions in fiscal year 2006 
to cut science or delay the Europa mission consideration until Congress 
can act of the fiscal year 2007 budget request.
    NASA has cited space science funding increases from 1992 to the 
present as a possible justification for now using space science funds 
to pay for the Shuttle.\5\ But during that same time period space 
science has provided the overwhelming share of NASA successes and 
achievements--including the Hubble Space Telescope, Mars Exploration 
Rovers and Orbiters, and the Cassini/Huygens mission to Saturn. The 
value of space science to NASA, to the Nation, and to the world during 
this time period has increased far more than its cost.
---------------------------------------------------------------------------
    \5\ Dean Acosta, Mary Cleave at NASA Press Conference, Feb. 6, 
2006.
---------------------------------------------------------------------------
    We strongly believe the proposal to rob from science to pay for 
Shuttle will undermine support for the Vision for Space Exploration 
policy and re-open the chasm between the science community and the 
human space flight advocates. Science was an essential component of the 
Vision when it was proposed two years ago.
    For example the Vision stated that NASA should ``conduct robotic 
exploration across the solar system for scientific purposes and to 
support human exploration. In particular, explore Jupiter's moons, 
asteroids, and other bodies to search for evidence of life, to 
understand the history of the solar system, and to search for 
resources.'' \6\ The proposed cancellation of Europa exploration 
undermines the Vision.
---------------------------------------------------------------------------
    \6\ ``A Renewed Spirit of Discovery,'' President George W. Bush, 
January 2004.
---------------------------------------------------------------------------
    The proposed cancellation of Terrestrial Planet Finder contradicts 
another tenet in the Vision, ``Conduct advanced telescope searches for 
Earth-like planets and habitable environments around other stars.'' \7\
---------------------------------------------------------------------------
    \7\ Ibid.
---------------------------------------------------------------------------
    But the biggest danger to the Vision for Space Exploration is not 
the removal of a few exploration missions from NASA's budget, but the 
commitment made in the budget for 17 Shuttle flights. The average 
number of Shuttle launches per year of the Space Shuttle over its 
lifetime is less than five. This was with 4-5 orbiters. Now that the 
country is down to only three orbiters (and soon, just one launch pad) 
on a system with far more safety concerns and scrutiny, how can we 
expect the number to be larger? Three or four is a more reasonable 
expectation--meaning that if all goes well and there are no more 
accidents or gaps in readiness for flight, the 17 flights might be 
accomplished in four to six years.
    That takes us beyond 2010, and leads to more expenditures and hence 
more delays in the transition to new launch vehicles and a new human 
space flight program beyond Earth orbit. In fact we would predict that 
the likely outcome is another decade or more for humans stuck in low-
Earth orbit.
    We don't have to cite our anxieties about the dangers of extending 
Shuttle lifetime, and the delays of implementing the new Vision 
program. The proposed budget itself states that the CEV may not be 
ready until 2014, and that NASA is only hoping that some synergies and 
new providers will be found to enable readiness two years (not four) 
earlier. Hope is not a good planning tool.
    Imagine this is 2010, and the CEV will not be ready until 2014. 
Will there be pressure to close the gap in U.S. human launch 
capability? Of course there will--and the likely outcome is four more 
years of Shuttle, and four more years of more costs leading to more 
delays of other parts of the program.
    Continue imagining this is 2010. The Shuttle has flown about 5-6 
flights since mid-2006 and has still not delivered the European or 
Japanese modules. Will there be pressure for the U.S. to ``meet its 
international commitments'' and continue the Shuttle flying--even at 
the expense of delaying the now delayed CEV from 2014 to when? Will the 
Congress of 2010 say about the Congress of 2006: ``glad they kept the 
Shuttle flying so as to meet commitments and restore purpose to the 
human space flight program''? Or, will they wonder how this Congress 
could have had so little foresight about investing in the future, and 
why it chose to invest in the past?
    We recognize that the 3.2 percent increase in the NASA budget is a 
positive statement of support for space exploration. We know it is not 
practical or reasonable to argue for more, and those who come to the 
Congress and say simply ``add money to take care of my programs'' are 
being disingenuous. We would like a bigger budget for NASA but can we 
rely on Congress to simply add much into the already overloaded and 
deficit-burdened budget?
    The Administrator's budget message said about the Vision, ``we will 
go as we can afford to pay.'' But the Administration hasn't paid in 
this budget, and instead NASA is going forward even when they can't 
afford it--by raiding the budgets for basic science research and 
robotic exploration. Who will be left to march to the guillotine next 
year when development costs rise in human space flight or if the 
Shuttle suffers more problems?
    If they do not want to go as they can afford to pay, then the NASA 
Administrator is right--tough choices have to be made. Deep science 
cuts for NASA were a tough choice. A different tough, but better, 
choice would be stopping the Shuttle program now--recognizing that it 
embodies an intersection of cost and risk that cannot be avoided, and 
the roadblock it now creates on the pathway to space.
    Domestic and international politics make this particular choice 
even tougher, which is why few even broach the option, let alone 
advocate it. Domestic politics allow vested interests and short-sighted 
job arguments to rule for continuing the Shuttle. But with retirement 
of the Shuttle within 3.5 years already announced, the ability to keep 
or attract good people to the program is small, and will get smaller. 
Ending it now, taking the cost savings and applying it to new programs 
can be a buoy for human space flight contractors, creating a new sense 
of purpose and a new set of jobs. Starting other programs earlier, such 
as the Mars-related heavy lift launch development can mitigate economic 
dislocations.
    International politics force protocol to become the enemy of 
problem solving. The Planetary Society respects the expectations of 
international partners, and we as an organization strongly support and 
believe in the value of international cooperation in space. However, 
the Shuttle-only architecture is an international problem for all 
involved in the Space Station. It demands an international solution. 
American leadership is needed now to declare an emergency concerning 
the Shuttle; it can no longer be relied upon for completing the 
International Space Station. Instead of the partners being asked to 
wring their hands and deplore American attitudes, let's ask them to 
join with us to develop international solutions and programs to advance 
our human space flight ambitions, as well as their own. We suggest that 
such honesty will provide a solid foundation on which to build 
international partnerships for future exploration.
    The Planetary Society supports space ventures. We have supported 
the Shuttle: it has been a great technical achievement, unequalled on 
Earth. We have supported the International Space Station: it should be 
completed as a pathway for human expansion into the solar system. And, 
from the moment it was proposed, we have strongly supported the Vision 
for Space Exploration, a long overdue redirection of human space flight 
beyond Earth orbit.
    But we cannot support a proposal that hobbles, or eventually 
destroys, the NASA science program. Science guides not just robots but 
also humans into space. Science guides the public in creating a 
rationale for a $16 billion space program. Science guides exploration. 
And we ask, and hope, that support of science will guide you as you 
oversee the NASA program.

THE PLANETARY SOCIETY:

    The Planetary Society has inspired millions of people to explore 
other worlds and seek other life. Today, its international membership 
makes the non-governmental Planetary Society the largest space interest 
group in the world. Carl Sagan, Bruce Murray and Louis Friedman founded 
The Planetary Society in 1980. http://planetary.org

</pre></body></html>
